<html>
<title> - WESTERN WATER SUPPLY</title>
<body><pre>[Senate Hearing 108-469]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-469

                          WESTERN WATER SUPPLY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

       TO RECEIVE TESTIMONY REGARDING WATER SUPPLY ISSUES IN THE 
                               ARID WEST

                               __________

                             MARCH 9, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

93-903              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                         Shelly Randel, Counsel
                Patty Beneke, Democratic Senior Counsel
                    Mike Connor, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

American Farm Bureau Federation..................................    63
Bell, Craig, Executive Director, Western States Water Council....    45
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     1
Gaibler, Floyd, Deputy Undersecretary for Farm and Foreign 
  Agricultural Services, Department of Agriculture...............    32
Grisoli, Brigadier General William T., Commander, Northwestern 
  Division, U.S. Army Corps of Engineers.........................    18
Hall, Tex G., President, National Congress of American Indians, 
  and Chairman, Mandan, Hidatsa and Arikara Nation...............    50
Raley, Bennett, Assistant Secretary, Department of the Interior..     5
Uccellini, Dr. Louis, Director, National Centers for 
  Environmental Prediction, National Oceanic and Atmospheric 
  Administration.................................................    26

                                APPENDIX

Responses to additional questions................................    67

 
                          WESTERN WATER SUPPLY

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:04 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, Chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order.
    We will have a Senator to take my place in a little while 
when I have to attend another hearing.
    First, I would like to take this opportunity to welcome the 
witnesses to this hearing relating to water supply issues in 
the arid West. We will discuss many issues today and I hope my 
colleagues will use this time to outline the pressing water 
issues they feel we must meet in their individual States, as 
well as in our country.
    In my opinion, every State in the West, and for that 
matter, every State in the country faces the same problem. How 
do we supply adequate water, clean water, for our rural 
communities? How do we deal with the equally difficult problem 
of treating waste water, especially in rural small towns?
    The U.S. Department of Agriculture and the Environmental 
Protection Agency both work to address these issues, but the 
need is astronomical, pervasive, and persistent. We can no 
longer put off our Federal responsibility in my opinion. While 
I do not feel it is appropriate to constantly invent new 
Federal programs, I am convinced that all agencies with 
responsibility to manage water resources must be engaged. There 
are two key elements.
    First, we must make the technology and management methods 
work and be cost effective. We cannot expect to fix these 
problems solely based on today's methods and technology.
    We must find a way to provide enough funding to bring 
clean, adequate water to these communities. One way would be to 
create a viable matching-funds program within the U.S. Bureau 
of Reclamation that partners the Federal Government and the 
States to assist rural communities across America.
    Over the next few months, the Energy and Natural Resources 
Committee will address some of these Federal and State 
relationships. One of these partnerships that directly affects 
New Mexico is the Arizona water settlement, which includes the 
Gila River claims in New Mexico. We must move forward with 
these settlements, but we must be prudent. I am particularly 
mindful that New Mexico receive its full allotment of water and 
receive the financial support it needs and deserves as we move 
this legislation forward.
    If you have followed the headlines in any number of Western 
States, you have probably seen some similar to these: 
``Forecast Dire for Drought Relief,'' ``Drought Not Letting Up 
on West's Farmers,'' ``Western Power Plants Come Under Scrutiny 
as Demand and Drought Besiege Supplies,'' ``Growth Drying Up 
Water Sources.''
    I do not even know where to begin to describe the vast 
challenges facing States like mine and surrounding ones, but I 
would like to take just a minute to point out a few that I 
believe highlight the issues.
    We are entering the fifth consecutive year of a drought and 
forecasts call for less than average annual runoff in 2004. We 
anticipate the lack of runoff this year will exacerbate the 
already dire situation. One of the regions that will be hit the 
hardest in New Mexico is the Middle Rio Grande where for 
several years now we have been litigating over the allocation 
of already drought diminished supplies. This region has really 
struggled with the necessity of providing water to the largest 
city in the State, providing water for agricultural uses in the 
valley, providing water to six Indian pueblos, and finally 
providing an adequate supply for the endangered Rio Grande 
silvery minnow.
    Nevada, Arizona, Texas, and California all face similar 
problems.
    Water continues to be the backbone of the economy, and we 
all seem to be waiting, kind of walking in place, as the 
problems seem to be all around us. We just wonder what in the 
world we can do. In addition to protecting existing supplies 
and creating some new water sources, this means that we need to 
invest today in research for the advancement of the state of 
the art in desalinization, demineralization, water reuse, and 
purification technologies.
    I have some additional comments. I am going to make them 
part of the record and proceed to ask the witnesses to address 
the committee and put their statements in and make them as 
brief as possible.
    Panel one, the Honorable Bennett Raley, Assistant Secretary 
for Water and Science, Department of the Interior, would you 
proceed first? Thank you very much for all the hard work you 
do, and it is my pleasure to have you here today.
    [The prepared statements of Senators Domenici, Allard, and 
Talent follow:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    I would like to take the opportunity to welcome all of the 
witnesses to this hearing related to water supply issues in the arid 
West. We will discuss many issues today and I hope my colleagues will 
use this time to outline the pressing water issues they feel we must be 
met in their individual states as well as nationally.
    It is my opinion that every state in the west, and for that matter, 
every state in this great nation faces the same desperate problems. How 
do we supply adequate clean water for our rural communities? And how do 
we deal with the equally difficult problem of treating waste water?
    The U.S. Department of Agriculture and the Environmental Protection 
Agency both work to address these issues, but the need is astronomical, 
pervasive, and persistent. We can no longer put off our federal 
responsibility. While, I don't feel it is appropriate to constantly 
invent new federal programs, I am convinced that all agencies with 
responsibility to manage water resources must be engaged. There are two 
key elements in solving these problems.
    First, we must make the technology and management methods work and 
be cost effective. We cannot expect to fix these problems solely based 
on today's methods and technology.
    Second, we must find a way to provide enough funding to bring clean 
adequate water to these communities. One way would be to create a 
viable matching funds program within the U.S. Bureau of Reclamation, 
that partners the Federal government and states to assist rural 
communities across America.
    Over the next few months, the Energy and Natural Resources 
Committee will address some of these Federal-State partnerships issues. 
One of these partnerships, that directly affects New Mexico, is the 
Arizona water settlement which includes Gila River claims in New 
Mexico. We must move forward with these settlements, but we must be 
prudent. I am particularly mindful that New Mexico receive its full 
allotment of water and receive the financial support it needs and 
deserves as we move that legislation forward.
    If you have followed the headlines in any number of western states, 
you have probably seen some similar to these: ``Forecast Dire for 
Drought Relief'', ``Drought not letting up on West's Farmers'', 
``Western power plants come under scrutiny as demand and drought 
besiege supplies'', ``Growth drying up water sources.'' These headlines 
highlight some of the areas continually plagued by drought in the 
West--the farming sector, the power industry, and of course our cities 
and towns.
    I don't even know where to begin to describe the vast challenges 
facing New Mexico, but I would like to take a minute to point out a few 
which I believe best highlight the issues:
    We are entering our fifth consecutive year of drought and forecasts 
call for less than average annual run off in 2004. We anticipate that 
the lack of runoff this year will exacerbate an already dire situation. 
One of the regions that will be hit the hardest in New Mexico is the 
Middle Rio Grande where for several years now we have been litigating 
over the allocation of already drought diminished supplies. This region 
has really struggled with the necessity of providing water to the 
largest city in the State, providing water for agricultural uses in the 
valley, providing water to 6 Pueblos, and finally providing an adequate 
supply for the endangered Rio Grande silvery minnow.
    The pressure on the water supply in the Western United States has 
reached a critical point. Everyone is facing the prospect of declining 
water availability. For example, city planners in my home town of 
Albuquerque have speculated about the growth constraints facing the 
city due to limited groundwater resources.
    Nevada, Arizona, Texas, and California all face similar problems. 
The Western United States is the fastest growing region in the country. 
This population explosion will undoubtedly result in a scarcity of 
fresh water sooner than many realize.
    Water continues to be the backbone of our economy. Safe and 
adequate supplies of water are vital for agriculture, industry, 
recreation, and human consumption. In addition to protecting our 
existing water supply, we need to explore new ideas for expanding that 
supply and creating ``new'' sources of water. This means that we need 
to invest today in research for the advancement of state of the art in 
desalination, demineralization water reuse and other purification 
technologies.
    The lack of a water supply isn't the real issue; it is the quality 
of the supplies surrounding us that is problematic. Brackish and sea 
water account for over 97% of the water on earth. There are brackish 
groundwater basins under many areas of the West, including New Mexico. 
Coastal states have the benefit of the Atlantic, Pacific and Gulf Coast 
on which to draw new supplies, but we need to take steps now and invest 
in the technology to utilize these supplies in a cost effective manner. 
Being able to cheaply covert this ``new'' supply into fresh water is 
vital to our future. Additionally, expanding our capabilities of 
reusing and conserving more water must also be thoroughly investigated. 
I know our committee is planning to explore many of these concepts 
later this month in our desalination hearing and I intend to do what I 
can to make significant advancements in these areas.
    On the water quality, the Environmental Protection Agency is 
steadfast in enforcing a new standard for arsenic levels in drinking 
water that will burden many communities even though it rests upon 
questionable scientific underpinnings. In 2006, new EPA federal 
drinking water regulations will take effect. Although arsenic is a 
naturally occurring substance found throughout New Mexico, many of the 
state's small, rural communities, will be most affected by the new 
regulations and are the least able to pay for these new arsenic 
standards.
    This arsenic issue is only one of the major hurdles facing rural 
communities today. The lack of a comprehensive Federal program able to 
assist these communities in providing safe, affordable and adequate 
supplies is another. There are currently two bills pending before this 
committee, one that I authored and one that Senator Bingaman 
introduced. We note that the Administration has provided a third 
version which they have asked me to introduce on their behalf. These 
bills create this much needed program. I intend to work with Senator 
Bingaman and the Administration in hopes of creating such a program. I 
note that we will also be having a hearing on the need for a rural 
water program later this month as well.
    I have only touched on some of the issues affecting my state. As 
you all know access to fresh water is an increasingly critical national 
and international issue. As the world's population grows and our stores 
of fresh water are depleted, finding additional sources of fresh water 
will be key to ensuring our future and security both domestically and 
internationally.
    I believe however, that we have a unique opportunity through new 
programs and new advances in technology to not only create new 
supplies, but also to provide the infrastructure to deliver these safe 
and affordable supplies to many in rural America and other parts of the 
country. I stand ready to assist in any way I can and I look forward to 
hearing what our witnesses have to say about these critical issues here 
today.

                                 ______
                                 
  Prepared Statement of Hon. Wayne Allard, U.S. Senator From Colorado

    Mr. Chairman: As you know, the western United States continues to 
suffer through a sustained period of unprecedented drought. Large 
portions of my home state of Colorado are in the midst of a fourth year 
without adequate moisture. While state efforts to provide the 
appropriate relief continue, the federal government must act 
cooperatively with the states to bolster drought mitigation efforts 
where such federal involvement is appropriate. Appropriate action 
includes federal aid in dealing with invasive plant species--one of the 
largest culprits of water theft.
    The expansion of a variety of invasive plant species known as 
phreatophytes threatens more than the natural plant mix and wildlife 
forage. Phreatophytes, including the Salt Cedar (or Tamarisk) consume 
vast amounts of water and degrade the natural environment. For example, 
the Tamarisk is known to consume more than 200 gallons of water a day 
and may lead to high salinity levels in rivers and soil. They also 
alter the natural course of the river through a root system that grows 
some 250 feet down into the ground. I commend your efforts to introduce 
legislation that creates new partnerships and funding to eradicate 
these invasive plants. Senator Campbell also deserves praise for his 
efforts as well. I am a strong supporter of the legislation and look 
forward to providing you with any assistance you should require. By 
working together, we can develop a common sense approach to tackling 
the water theft by invasive plant species and ultimately restoring the 
health of our riparian systems.

                                 ______
                                 
 Prepared Statement of Hon. James M. Talent, U.S. Senator From Missouri

    Mr. Chairman, thank you for holding this hearing. I think there are 
few issues as conflict-ridden as water issues. In the West and 
Northwest, you have no shortage of water conflicts. In Missouri, we 
have our share too.
    For 14-years the Corps of Engineers has been working on the new 
Master Manual for the Missouri River. It was released earlier this 
month and we are now in the public comment period. I recognize the 
challenge that exists when trying to balance upstream and downstream 
interests but stakeholders in Missouri are very concerned with the 
recommendations in this plan.
    In 1980, nearly 3M commercial tons moved on the Missouri River, in 
1866, the Corps started tinkering with the Master Manual and we lost 
that reliable channel on the Missouri River. In 1990, we were down to 
1.3M tons. Today, I submit for the record an article that ran in the 
St. Louis Post Dispatch on January 14 of this year*--``Two barge 
companies drop anchor.'' I'll read you the lead paragraph: ``Uncertain 
about the depth of the Missouri River this summer, the two barge 
companies that move grain and fertilizer on the Big Muddy have shut 
down their operations.''
---------------------------------------------------------------------------
    * The article has been retained in committee files.
---------------------------------------------------------------------------
    I'll also take a moment to point out, 1997, the Tennessee Valley 
Authority stated that the competition of water transportation kept rail 
rates down to competitive levels and saved shippers $203M annually. I'm 
sure that number is still true today.
    General Grisoli, can you tell me what your role was (personally) in 
the development of this plan?
    The MM states (page VII-I) that ``Congress did not assign a 
priority to these purposes [the eight congressionally authorized 
purposes of the river--flood control, navigation, irrigation, etc.] . . . 
The Missouri River Master Water Control Manual Review and Update 
Study (Master Manual Study) was conducted without bias toward any 
project purpose.''
    In June, 2003, the 8th Circuit Court released a ruling affirming 
the priorities of the Flood Control Act of 1944. The court stated, 
``The dominant functions of the Flood Control Act were to avoid 
flooding and to maintain downstream navigation'' and recognized that 
``recreation and other interests [are] secondary uses'' on the river.
    How do you align the philosophy that Congress did not assign a 
priority with the 8th Circuit ruling that stated that ``flood control 
and navigation'' are dominant functions of the Flood Control Act of 
1944?
    The new Master Manual calls for a spring rise or ``pulses'' in the 
spring. While recently we've been in a drought situation, the floods of 
'93 and '95 were not that long ago. Those floods did major damage to 
farmland and urban areas of St. Louis and Kansas City. If we had 
additional, Corps imposed flooding, I can't imagine the devastation and 
outrage in the countryside.
    Can you show me conclusive evidence that a spring rise called for 
in the Master Manual will actually improve the pallid sturgeon 
population? I can give you scientific data that implies that 
temperature, more than water depth is the spawning cue for the 
sturgeon. Additionally, the populations for the interior least tern and 
the piping plover have seen major improvements in recent years. So the 
only species you are working to improve here is the sturgeon.
    Another issue that Missouri stakeholders have raised is that it 
appears the river will be operated by the Annual Operating Plan (AOP) 
rather than according to a long-term Master Manual (MM) rule. With that 
being the case, how can stakeholders expect any reliability when river 
operations are potentially subject to vast change on an annual basis 
and where there opportunity for input in the AOP process is limited and 
usually doesn't change the direction the Corps' plan is heading for the 
coming year?
    Stakeholders were explicitly told by the Corps that ``water 
banking'' would not be a part of any new MM. A review of the MM 
indicates that the ``water banking'' scheme is indeed a part of the new 
manual. What is the reasoning for including a feature in the manual 
that was categorically guaranteed on numerous occasions would be 
eliminated after this year? FYI--``water banking'' is detrimental to 
navigation as water used downstream is balanced against upstream uses 
creating ``debits'' to navigation that result in reduced season length.

 STATEMENT OF BENNETT RALEY, ASSISTANT SECRETARY FOR WATER AND 
              SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Raley. Senator, it is always a pleasure to be before 
this committee.
    Thank you for allowing my written statement to be added to 
the record. As is my custom, I will get right to the point.
    If we look at this year as a snapshot from the Department 
of the Interior standpoint, focusing on the West, the drought 
is easing slightly West-wide, and we have some areas that were 
suffering deeply in 2001 and 2002 that will not suffer as 
badly. However, we still believe that there is a serious 
potential for challenges in the Middle Rio Grande in your home 
State of New Mexico, as well as in the Klamath Basin. Those are 
the two areas that we are most worried about if we focus on the 
short term.
    As you mentioned, in the Colorado River basin, there like 
in the Middle Rio Grande we are in, depending on how you count 
it, the fifth year of a drought. The drought seems to be easing 
slightly, but we are still not up to normal runoff conditions. 
And as Commissioner Keyes testified some time ago, to 
understand the consequence of this deep and long drought, the 
best way to picture it is to understand that if we simply have 
nothing but normal conditions, it will take 15 to 20 years to 
refill the system.
    The Colorado is blessed in the mainstem with storage 
capacity that is unmatched in any of the other Western rivers. 
I think those who came before us of both parties that had the 
wisdom to build that storage because, without it, the Colorado 
River basin States would be in deep trouble today.
    With that, we have the flexibility to manage through more 
years of the drought, but as I come from a meeting of the seven 
States last Friday in Las Vegas, if the drought continues, 
there will be very serious issues on the mainstem, that will 
have to be faced by the Department and those States.
    But the point that you make, Senator, is one that Secretary 
Norton would agree with most strongly, in that the issue is 
broad and pervasive. It is our belief that unlike the last 
century when water supply conflicts were either limited to 
times of drought or focused on fights over control of the 
resource for 20 to 50 years in the future, and those fights, as 
much as we in the West enjoyed them and hated them and wrestled 
through them, at the time of the last century were largely of 
local and regional importance.
    The new paradigm for this century is that water supply 
issues are no longer going to be driven by droughts alone. We 
have a number of basins--and New Mexico is the classic 
example--where we have the potential for crisis in normal 
conditions. You know that well. Senator Bingaman knows that, 
and that is a challenge that will not go away with the next 
snowfall. That is the purpose of Water 2025, is to focus on the 
changing reality that it is no longer going to be a drought-
driven debate. The water supply needs of the West, given the 
explosive population growth and the emergence of demands for 
endangered species and environmental restoration guarantee 
that, without action today, we will have crises in normal 
years.
    Senator Bingaman, I was just mentioning that, 
unfortunately, the Department believes that New Mexico 
continues to be one of the areas we are most concerned about 
from a water supply standpoint. While the drought is easing 
somewhat in some of the other basins, this summer is going to 
be a challenge for all of us to work together, and we look 
forward to working with both of the Senators from New Mexico.
    The second change in the paradigm from the last century, 
the first being that the conflicts were driven by drought and 
the impacts were limited to local and regional issues, is that 
we will first have normal year driven conflicts. The second is 
very clear, that water supply shortages in the next century 
will affect economies and resources of national and 
international importance. Water supply issues will no longer be 
an issue that is debated fiercely in the West. They have 
national importance. I need only point to the emergence of the 
dynamic of cities of Albuquerque, Phoenix, southern California, 
the rest of the West where there are nationally important 
economies to prove that water supply issues, if we fail to 
address them, will affect economies of national importance. 
California alone is the fifth largest economy in the world.
    I need also point only to the Endangered Species Act, which 
is a national priority. We all know, painfully so, that water 
supply shortages have serious implications for attaining goals 
of the Endangered Species Act.
    Simply put, the next century the water debate will change. 
We will have conflict, unless we do something now, in normal 
years, and that conflict will address and impact economies and 
resources of national importance.
    Water 2025 is Secretary Norton's attempt to get to the 
reality that we do not have time for endless process. Process 
without progress is failure because it takes years to put in 
place the institutional and infrastructure answers to these 
supply issues, and we no longer have the luxury of debating it 
for decades to come.
    With that, I will conclude my oral remarks and hope to 
engage with both Senators in questions.
    [The prepared statement of Mr. Raley follows:]

       Prepared Statement of Bennett Raley, Assistant Secretary, 
                       Department of the Interior

    Mr. Chairman and Members of the Committee, I am Bennett Raley, 
Assistant Secretary for Water and Science, Department of the Interior. 
I am pleased to be here today to testify on western water issues and 
the role the Department plays in managing and enhancing these important 
resources.

                     OVERVIEW OF WATER IN THE WEST

    As I begin my testimony, I believe it would be helpful to first 
step back and examine the broad scope of issues related to water in the 
West. As we work to resolve the many individual water problems from the 
Federal perspective, we must remember to do so within the context of 
this broader picture, continuing to rely upon important guiding 
principles in the process. This Administration is committed to working 
hard on these issues at the local level as well as with the Congress, 
and in particular, the Members of this Committee. We must find 
sensible, affordable, and balanced solutions to the West's water 
problems in order to provide the certainty necessary for Western 
communities, industries, farms, and environment to all thrive. Almost 
all bureaus within Interior are involved with water issues, but my 
testimony today will center on the Bureau of Reclamation and the U.S. 
Geological Survey and their proud histories, recent accomplishments, 
and vision for the future.
    In 1888 USGS began the process of gaging the rivers of the West 
when it developed the methods for streamgaging at Embudo, New Mexico. 
In fact, the staff at USGS who began this quantification of the 
resource became the Irrigation Survey, and in 1902, became the Bureau 
of Reclamation. And the Bureau of Reclamation was there, beginning in 
1902 to build water projects in support of this effort to ``reclaim'' 
the arid lands of the West.
    Reclamation began constructing projects that, at the time, were 
considered ``impossible'' to construct huge dams, hydroelectric 
generators, and vast networks of canals diverting water from rivers and 
streams to turn dry, nonproductive lands into the fertile and 
productive farms and ranches that continue to be the envy of the world. 
Reclamation dams created water supply reservoirs that allowed water to 
be managed. Floods were controlled and water was stored and released 
when needed, making electricity in the process. These facilities made 
irrigated agriculture possible in the West by creating a more stable 
supply of water that could be delivered during the prime growing 
season. They also provided a new source of water and power to cities 
and industries year round.
    As the demand for water increased in these early years, so did 
conflict over its use, resulting in a system of water rights developed 
by the Western states to deal with these escalating water problems. The 
federal government recognizes the primacy of each state to establish 
its own system of water rights and regulations. And while the primary 
purpose of this regulation is to insure certainty and predictability in 
water management, conflict continues. A common element of this conflict 
across the West is that available water supplies are often inadequate 
to meet the demand for water for farming, cities, tribes, and the 
environment.
    The good news is that we can look back over the years and see 
countless water conflicts, large and small, that have been resolved by 
people of good will. We know that conflict can be destructive to 
everyone's best interest and we have, over time, found innovative 
solutions to these complex challenges. Quantification and understanding 
of the resource have been and continue to be crucial to sound 
management. The USGS is responsible for this scientific process through 
its streamgages, observation wells, statistical analyses, and 
hydrologic models. They do this in cooperation with 607 State, local, 
and Tribal agencies in the Reclamation States.
    Reclamation projects continue to provide the important water 
supplies critical to the traditional water uses for which they were 
originally designed and built. However, the West has become the fastest 
growing area of the country. Environmental demands for water have also 
increased over the past several decades. Restoration of rivers and 
streams to support habitat for species of fish and wildlife listed as 
endangered or threatened by Federal laws have created even more 
pressure on the West's already stretched water resources. Compounding 
the demand picture is the current protracted period of drought 
conditions across the inter-mountain west that we are currently in.

                     CURRENT HYDROLOGIC CONDITIONS

    In comparing precipitation this year to the same time last year, we 
see substantial improvement in many areas of the West which bodes well 
for the upcoming water year. The dark red areas in the following 
Drought Monitor and USGS monthly average streamflow illustrations* 
represents the worst conditions where drought is predicted to be most 
severe. As you can see, they are more dispersed and localized this 
season than last year. We continue to see improvement in snowpack and 
rainfall, even in areas where we predict shortages. In much of the 
West, streamflows are currently averaging near normal. The exceptions 
are the Great Basin, Upper and Lower Colorado, and the Rio Grande 
regions, where the multiyear run of below normal flows persists. Over 
the past month, the lowest streamflows have been observed by the USGS 
in the Great Salt Lake, North Platte, Salt, Upper Canadian, and Upper 
Cimarron basins. Overall, although it is too early to accurately 
predict drought conditions, we are encouraged by recent precipitation 
and are monitoring all areas of the West for drought conditions on a 
regular basis.
---------------------------------------------------------------------------
    * All illustrations have been retained in committee files.
---------------------------------------------------------------------------
    To further illustrate, the following are the relatively current 
conditions in the major basins of the Western United States:
    Mid-Pacific Region (Northern CA, Southern OR, Northern NV). Central 
Valley Project reservoir storage levels remain above the 15-year 
average. Accumulative inflows for the water year to date range from 112 
percent in the Trinity Basin, 106 percent in the Shasta Basin, to 66 
percent in the American Basin, 70 percent in the Stanislaus Basin, and 
76 percent in the Upper San Joaquin Basin.
    Great Plains Region (CO, MT, WY, ND, SD, NE, KS, OK & TX). 
Temperatures are slightly above normal for this time of the year with 
precipitation below normal. Reclamation reservoirs are at extremely low 
levels, and inflows have been at record low levels. Available storage 
in Reclamation facilities in NE and KS, as well as at several locations 
in MT and WY has reached minimum levels.
    Upper Colorado Region (NM, UT, Western CO, Southern WY). The Upper 
Colorado Region is heading into its fifth consecutive dry year. 
Following a promising start, snowpack levels are generally declining in 
UT and CO, and are improving from a very poor start in NM. Reservoir 
storage is low from four prior years of drought, and precipitation is 
generally below average for most areas so far this year. A series of 
heavy storms is needed to replenish the snowpacks before spring, when 
parched soils will likely absorb much of the runoff.
    Pacific Northwest Region (ID, OR, WA, Western WY & Western MT) 
February precipitation was near normal in most of Oregon and Idaho, but 
has lagged behind in the Yakima (WA), Flathead (MT), and Upper Snake 
(ID/WY) basins. As a whole, Oregon snowpacks are in the 125% of normal 
range, which promises relief for the Crooked, Malheur, Powder, and 
Owyhee basins where it is needed most. Despite this, new runoff 
forecasts should remain near to slightly below normal in most of the 
Region due to dry soil conditions.
    Lower Colorado Region (Southern NV, AZ, Southern CA). The Lower 
Colorado region has been experiencing significant precipitation in 
recent weeks. While that will do little to mitigate the Colorado River 
drought, the same storms are also providing precipitation in the 
southern portion of the Rocky Mountains which could increase runoff 
volumes.
    How much longer will this drought persist? How much worse might it 
get? Although these questions cannot be answered simply or with 
certainty, we know that multiyear droughts in the United States are 
frequently associated with long-term shifts in Pacific and Atlantic 
Ocean temperatures. Recent research by the USGS indicates that much of 
the long-term predictability of drought frequency may reside in the 
multidecadal behavior of the North Atlantic Ocean. Should the current 
warm conditions in the North Atlantic persist into the coming decade, 
it is possible that drought conditions resembling the continental-scale 
patterns of the 1930s and the 1950s are possible.

                  EFFECTS OF MULTIPLE YEARS OF DROUGHT

    The western U.S. has seen several large swings in climate during 
the past century. These swings are defined by dry spells during 1898-
1904, 1946-1972, and wet periods during 1905-1924 and 1976-1998. Since 
1999, the southwestern U.S., the southern and central Rockies and the 
western Great Plains have been gripped by persistent drought, 
particularly in 2002. Water year 2002 (October 2001-October 2002) was 
the driest of the last century in Arizona (45% of the normal from 1895-
2002) and second driest for the Southwest (AZ, NM, CO, UT). Still, the 
four-year average from 1999-2002 (77.8% of normal) was not as dry as 
1953-1956 (76.6%) or 1901-1904 (71.9%). Regardless of ranking, the 
ongoing drought has produced remarkable phenomena on the southwestern 
landscape, creating conditions that contributed to a half-a-million-
acre fire on the Mogollon Rim to more than a million acres of pinyon 
and ponderosa tree dieoffs in Arizona and New Mexico. In the Colorado 
River Basin, the four years from 2000 to 2003 rival the years 1953 
through 1956, which were previously the driest four years in the Basin. 
If we have another similar dry year in 2004, we will surpass the driest 
five years in the 100-years of historic records have been kept in the 
Basin. While precipitation in the Basin so far this year is near 
normal, the dry soil conditions will reduce actual runoff to a current 
projection of 76% of average. In spite of the drought, the Colorado 
River reservoir system is still 53% full and will allow limited surplus 
water deliveries in the lower Basin this year.
    The Klamath Basin has been a central focus for water issues in the 
West during the past few years. In 2001 because of extremely dry 
conditions and the requirements of an Endangered Species Act (ESA) 
Biological Opinion and Tribal trust responsibilities, the Klamath 
farmers were unable to receive water for agriculture for the first time 
in 96 years. Later season releases of 75,000 acre-feet of water were 
insufficient to mitigate the impacts to many of the farms and the 5 
Klamath wildlife refuges in the Basin. In short, the Klamath Basin 
suffers from too much demand for water. Drought conditions exacerbate 
the situation with the only remedy being to reduce that demand.
    The Middle Rio Grande has been under drought conditions since 1996, 
and the Rio Grande Compact storage restrictions, engaged in 2002, 
continue to greatly impact storage capability for farmers. Heron, El 
Vado, and Elephant Butte reservoirs averaged 83 percent capacity in 
1999. Today, the three reservoirs average about 15 percent capacity. 
The Six Middle Rio Grande Pueblos, Middle Rio Grande Conservancy 
District, Elephant Butte Irrigation District, El Paso Water Improvement 
District #1, and Mexico all received full water supplies in 1999. 
Today, the Six Middle Rio Grande Pueblos are on a strict rotation 
schedule. The Middle Rio Grange Conservancy District is also on a 
strict rotation schedule and anticipates non-Indian farmers being able 
to irrigate through mid-July. The other water Districts are projected 
to receive a 59 percent supply.

         WATER 2025: PREVENTING CRISIS AND CONFLICT IN THE WEST

    Secretary of the Interior Gale Norton has made Water 2025 a key 
focus for the Department of the Interior because water truly is the 
``lifeblood'' of the American West. Water 2025 is based on the reality 
that the economic, social, and environmental health of the West is 
important to the people of this nation. Water 2025 is also based on the 
reality that the demands for water in many basins of the West exceed 
the available supply even in normal years.
    These realities, when combined with the fact that the West is home 
to some of the fastest growing communities in the nation, guarantee 
that water supply-related crises will become more frequent if we do not 
take action now. Unlike the past century, when water crises were 
intense, but typically occurred in drought years and only affected 
resources and economies of local and regional importance, water supply-
related crises in this century will affect economies and resources of 
national and international importance unless we take action now.
    Water 2025 has been ``road-tested'' with 3000 people attending one 
of ten meetings throughout the West. The bottom line is that, while 
there was a significant debate over what should or should not be added 
to Water 2025, almost all participants endorsed Water 2025 as an 
approach that will unite, not divide, very divergent interests.
    Our ``hot spots map'' shows where we believe the next crises and 
conflict over water exist, and identifies the areas where we should 
concentrate our resources.
    The red areas are where conflict potential over water is highly 
likely; orange areas where conflict potential is substantial; and 
yellow areas where conflict potential is moderate. Reclamation will 
periodically update these designations and use it to help prioritize 
areas of the West where Water 2025 could be implemented to prevent 
conflict and crises.
    With the support of Congress in the FY 2004 Budget, Secretary 
Norton has moved forward with Water 2025 with the announcement of the 
Secretary's Water 2025 Challenge Grants. These grants will be made 
throughout the West in the summer of 2004 on a cost-share basis for 
projects that make real progress towards avoiding water crises in the 
West.

          ``I have initiated what I call the Four C's as the 
        cornerstone of my tenure: Consultation, Communication, and 
        Cooperation, all in the service of Conservation. At the heart 
        of the Four C's is the belief that for conservation to be 
        successful, the government must involve the people who live and 
        work on the land.''--Gale A. Norton, Secretary of the Interior.
         water 2025: preventing crisis and conflict in the west
    Water 2025 is based on realities that will shape, if not control, 
policy level water supply decisions over the next 25 years.

                          WATER 2025 REALITIES

    1. Explosive Population growth is occurring in some of the driest 
areas of the West. Likewise, there is a substantial demand for water to 
attain the goals of the Endangered Species Act or environmental 
restoration programs in some of these arid regions.
    2. Over the next 25 years, the demand for water for people, tribes, 
farms, and the environment will exceed the available supply in many 
basins in the West.
    3. If we are to meet the demand for additional water supplies in 
the future, existing water supply facilities must be maintained and 
modernized so they will continue to provide the water and power that is 
a part of the existing inventory. Otherwise, we will be moving 
backwards instead of forwards.
    4. Unlike the last century, water supply crises in the next 25 
years in the West will not be drought-driven and limited to local and 
regional impacts. Unless we act now, water supply crises will occur in 
normal years and affect economies and resources of national and 
international significance.
    5. Most solutions to water supply crises, regardless of whether 
they are institutional in nature or include new or additional 
infrastructure, take years, if not decades to implement. Endless 
process, without actual progress towards implementing solutions that 
work, simply guarantees that there will be fewer options to deal with 
the inevitable crises.
    6. In some areas, the development of alternative water supplies 
such as brackish and seawater desalinization can reduce the pressure on 
surface water supplies.
    7. There is no broad support for extremist positions on water 
policy that would destroy irrigated agriculture, ignore tribal water 
needs, prevent economic growth and development, or fail to protect the 
environment. The question then becomes one of how to provide for the 
shift of water between competing uses. At a conceptual level the debate 
is between the use of governmental authority to redefine rights or 
reallocate the use of water, or the use of market-based mechanisms to 
meet unmet or emerging needs.

    Water 2025 is based on principles that must be recognized if we are 
to minimize or avoid water supply related crises.

                         WATER 2025 PRINCIPLES

    1. Solutions must be based on and recognize interstate compacts and 
United States Supreme Court decrees that allocate water among states, 
water rights established under state and federal law, tribal water 
rights, and contracts for the use of water.
    2. The implementation of water monitoring, measuring, conservation 
and management technologies will provide some of the most cost-
effective gains in our ability to meet the demand for water in the 
future.
    3. The attainment of economic, social, and environmental goals 
relating to water supply requires long-term stability that is more 
likely to be provided by collaborative solutions than by litigation.
    4. Market-based tools that rely on willing buyer willing seller 
transactions are far more likely to provide stability and avoid 
conflict than are regulatory or litigation-based alternatives for 
meeting unmet and emerging needs for water.

    Water 2025 proposes not rhetoric, but pragmatic, reality-based 
tools that have been tested in the crucible of the real world.

                            WATER 2025 TOOLS

    1. Water conservation and efficiency. The increased use of simple 
tools like water measurement structures, automated control structures, 
and computer-based system monitoring can allow water users to either 
stretch their water supplies further or make part of their supplies 
available on a willing seller-willing buyer basis for otherwise unmet 
demands.
    2. Markets. Explosive population growth and the emergence of the 
demand for water for environmental restoration and attainment of the 
goals of the Endangered Species Act will typically define the extent 
and severity of water supply-related conflicts. The experience of the 
Klamath basin in 2001 provides an example of the consequences of an 
attempt to use regulatory mechanisms to reallocate water from existing 
uses to emerging needs. The value of market-based approaches as an 
alternative is proven by the success of CalFed, the new Klamath water 
bank, the operation of the Central Valley Project in California, the 
ag-to-urban transfers in Southern California, and the 50 year-old water 
market in Northern Colorado.
    3. Collaboration. When it comes to water, people, farms, and the 
environment all need certainty in order to plan for and meet long-term 
objectives. Endless litigation rarely, if ever, achieves this goal. In 
particular, long-term or multi-year Biological Opinions under the 
Endangered Species Act provide the predictability that is necessary in 
order to make the rational decisions and investments that are required 
to provide water for people, water for farms, and water for the 
environment.
    4. Technology. In some areas, demands on limited surface water 
supplies can be reduced through the development of alternative water 
supplies. A range of alternative water supply technologies exist, 
including desalinization, advanced water treatment and reuse, and water 
recycling. Interior will seek to facilitate the implementation of 
desalination and advanced water treatment through improved interagency 
coordination of research and focused investment to areas most needing 
planning support.
    5. System Optimization. While it is clear that in some regions it 
will be necessary to develop new surface water supplies and 
infrastructure, the fiscal, legal, and political hurdles to the 
development of significant new supplies make it imperative that 
existing water supply infrastructure be fully utilized within the 
framework of existing treaties, interstate compacts, water rights, and 
contracts.


                                FY 2004

    As a first step in implementing Water 2025, Secretary Norton has 
announced the creation of a Challenge Grant Program. The request for 
proposals is now available on the Water 2025 website (www.doi.gov/
water2025). We have identified for this program $4.0 million of the 
$8.4 million appropriated in Fiscal Year 2004 for the Western Water 
Initiative. The Western Water Initiative is the first step toward Water 
2025. This program targets irrigation and water districts in the West 
who are willing to leverage their money and resources with the Federal 
government on projects that make more efficient and effective use of 
existing water supplies through water conservation, efficiency and 
water markets.
    Projects will be selected through a competitive process that 
focuses on achieving the outcomes identified in Water 2025, 
specifically conservation, efficiency, and water marketing.. We will 
accept proposals until April 8 of this year and award the grants by 
July, with implementation commencing around the first of August.
    A grant program on water treatment is also underway in FY 2004. 
Wastewater, salty and other impaired water can be purified to increase 
their utility. Water 2025's goal is to significantly aid technological 
advances and identify new supplies. Reclamation can facilitate research 
to reduce the high costs that slow adoption of new water treatment 
technologies, such as desalination technologies. Proposals that 
demonstrate ways to help avoid crises and conflict over water supplies 
in the West will be selected through the current competitive process in 
the Reclamation Science and Technology Program.
    The Bureau of Reclamation is also collaborating with the Middle Rio 
Grande Conservancy District [$1.750 million] to identify water 
conservation efficiency improvements projects, such as flow measurement 
devices, data collection and water management stations, diversion dam 
rehabilitation, and other tools identified in Water 2025.
    Rounding out the FY 2004 Western Water Initiative funding provided 
by the Congress, the Bureau of Reclamation is working closely with Ohio 
View Consortium [$1.0 million] and Desert Research Institute [$1.0 
million] to match their capabilities with the need for new technology 
to address future water supply problems in the West.

                                FY 2005

    In keeping with the spirit of Secretary Norton's 4C's--Cooperation, 
Communication and Consultation in the service of Conservation, Interior 
agencies, in conjunction with the Department of Agriculture, plan to 
closely monitor the western basins experiencing drought conditions. We 
will also continue to coordinate existing programs with other federal 
agencies, such as the Corps of Engineers and Natural Resources 
Conservation Service.
    Other activities highlighted in the FY 2005 budget request that are 
designed to address the water problems in the West are as follows:
    Klamath Project in Oregon and California ($25.0 million). This 
funding would provide for on-the-ground initiatives to improve water 
supplies to meet agricultural, tribal, wildlife refuge, and 
environmental needs in the Klamath Basin and to improve fish passage 
and habitat. This is part of a $67.2 million Department of the Interior 
request spread across several bureaus, focused on making immediate on-
the-ground impacts. The Department, in consultation with the Klamath 
River Basin Federal Working Group, is developing a long-term resolution 
to conflict in the Basin that will provide water to farmers and tribes 
while protecting and enhancing the health of fish populations, and 
meeting other water needs, such as those of the adjacent National 
Wildlife Refuge.
    Middle Rio Grande ($18.0 million). This request continues funding 
in support of the Endangered Species Collaborative Program. In 
addition, the request continues funding for acquiring supplemental 
water, channel maintenance, and pursuing government-to-government 
consultations with Pueblos and Tribes. Finally, the funding would 
continue efforts that support the protection and contribute to the 
recovery of the Rio Grande silvery minnow and southwestern willow 
flycatcher.
    Animas-La Plata in Colorado and New Mexico ($52.0 million). This 
request includes $52.0 million for the continued construction of Ridges 
Basin Dam and Durango Pumping Plant and pre-construction activities for 
Navajo Nation Municipal Pipeline, Ridges Basin Inlet Conduit, utility 
relocations, and project support activities.
    Columbia-Snake River Salmon Recovery in Idaho, Oregon, Montana, and 
Washington ($17.5 million) addresses the implementation of Reasonable 
and Prudent Alternatives (RPAs) included in two Biological Opinions 
issued in December 2000. The FY 2005 funding would address 
significantly increased regional coordination, off-site mitigation 
activities in selected sub-basins to offset hydrosystem impacts, and 
continue research, monitoring and evaluation efforts.
    Rural Water ($67.5 million). The funding request for rural water 
projects emphasizes a commitment to completing ongoing municipal, 
rural, and industrial systems. Funding is included for Mni Wiconi, Mid-
Dakota, Garrison, Lewis and Clark and Perkins County projects. Funding 
required for Mid-Dakota is sufficient to complete the project. I am 
pleased to announce that the Department's Rural Water supply program 
legislative proposal was sent to Congress on March 3. The program 
established under this proposed legislation will allow Reclamation, the 
Department, and the Administration to provide a much needed and 
demanded service to the American people in the Reclamation States, 
while exercising the type of project oversight and development that has 
been lacking in some of the individually authorized projects we have 
seen in the past.
    Hydropower Direct Financing ($30.0 million). The FY 2005 budget 
proposes to finance the costs of operation and maintenance of certain 
Reclamation hydropower facilities directly from receipts collected by 
the Western Area Power Administration from the sale of electricity.
    Safety of Dams ($64.0 million). The safety and reliability of 
Reclamation dams is one of Reclamation's highest priorities. 
Approximately 50 percent of Reclamation's dams were built between 1900 
and 1950, and 90 percent of those dams were built before the advent of 
current state-of-the-art foundation treatment, and before filter 
techniques were incorporated in embankment dams to control seepage.
    Central Valley Project Restoration Fund ($54.7 million) this 
request includes funds for the CVP Restoration Fund and is expected to 
be offset by discretionary receipts totaling $46.4 million collected 
from project beneficiaries under provisions of Section 3407(d) of the 
Act. These funds will be used for habitat restoration, improvement and 
acquisition, and other fish and wildlife restoration activities in the 
Central Valley Project area of California. The requested level and the 
amount of offsets are determined by formulas contained in the 1992 
authorizing legislation.
    California Bay-Delta Restoration. ($15.0 million) The funds would 
be used consistent with a commitment to find long-term solutions in 
improving water quality; habitat and ecological functions; and water 
supply reliability; while reducing the risk of catastrophic breaching 
of Delta levees.
    In addition to these activities in Reclamation's FY 2005 budget, 
the USGS is proposing two new budget initiatives related to Water 2025. 
The first is a $1 million water availability and use initiative 
focusing on water data and information needed to help communities 
address critical and increasingly complex water-availability issues. 
This initiative proposes work over a 5 year period, based on the USGS 
Future Science Directions and the USGS Report to Congress, Concepts for 
National Assessment of Water Availability and Use. The second is a $2.8 
million initiative focused on improving the understanding of two 
endangered sucker species in Upper Klamath Lake and how their survival 
is affected by changes in water quality, natural climatic cycles, lake-
level management, and habitat for spawning and rearing.
    The FY 2005 budget for the USGS Water Program proposes $202.7 
million to continue water resources work. This includes an increase of 
$1.4 million for research into the water quality in the Klamath Basin. 
In addition, $1 million is proposed for implementation of a new five-
year initiative concerned with water availability and use as part of 
Water 2025.
    In FY 2005, the USGS will focus research on the Klamath River basin 
in southern Oregon and northern California, where water supply is 
currently inadequate to meet demands for irrigating 250,000 acres of 
farmland, sustaining habitat in several critical wildlife refuges, and 
maintaining in-stream flows and lake levels in order to protect three 
threatened and endangered fish species. In the Klamath Basin, where 
water is in extremely short supply, it is particularly important that 
seasonal runoff forecasts are very accurate. In this regard, USGS is 
working closely with the Natural Resources Conservation Service and the 
Bureau of Reclamation, to improve seasonal flow forecasts by 
incorporating ground-water conditions into the forecast model. The FY 
2005 budget requests $1.4 million dedicated to improving the quality 
and quantity of water entering Agency and Upper Klamath Lakes, to model 
hydrodynamics and heat transport in the Lakes, and to monitor nutrient 
loadings and algal ecology. An additional $1.4 million is requested for 
biological studies to focus on the ecology of two endangered sucker 
species in Upper Klamath Lake, Oregon. This information will improve 
the forecasts of resource-management decisions being made by 
Reclamation, U.S. Fish and Wildlife Service, National Marine Fisheries 
Service, and Klamath Tribes. The total USGS FY 2005 request for Klamath 
studies is $3.7 million, a $2.8 million increase over 2004.
    The total Administration request for Klamath is $105 million, 
including $67.2 million contributed by Interior Bureaus.
    In related studies with California's North Coast Regional Water 
Quality Control Board, the USGS has documented the data needs for 
water-quality models of the Klamath River between Upper Klamath Lake 
and the Pacific Ocean. The models would be used to develop the total 
maximum daily load (TMDLs) for temperature, nutrients, and dissolved 
oxygen, the role of natural and anthropogenic source loadings for 
temperature, dissolved oxygen, and nutrients. A key consideration is 
protection of fall-run salmon, including the endangered Coho, in the 
Lower Klamath River.
    There is a heightened need for using science and technology to 
understand and manage our Nation's water resources. The USGS and 
Reclamation will build upon their partnership on the Watershed and 
River System Management Program. This program has already resulted in 
models that improve the efficiency of water system operations. The USGS 
provides the science related to atmospheric and watershed processes, 
while the Reclamation provides the engineering expertise related to 
river, reservoir and irrigation management. This partnership has 
resulted in a coupling of USGS watershed models with Reclamation 
operations models.
    The FY 2005 budget requests I just highlighted demonstrate the 
Department's commitment in meeting the water and power needs of the 
West in a fiscally responsible manner.
    Finally, I would like to end my testimony by sharing with the 
Committee some of our accomplishments in addressing the water supply 
problems in the West.
    On October 16th, 2003, Secretary Norton celebrated the signing of 
the historic Colorado River Water Delivery Agreement with 
representatives of all of the Colorado River basin states, the San 
Diego County Water Authority, Imperial Irrigation District, the 
Metropolitan Water District of Southern California, and the Coachella 
Valley Water District. This Agreement marked the resolution of a 75 
year old dispute over the allocation of California's share of the 
Colorado River. California has agreed to take specific, incremental 
steps that will reduce its over-reliance on the Colorado River water in 
the next 14 years, allowing the state to live within its authorized 
annual share of 4.4 million acre-feet. The agreement allows the six 
other Colorado River Basin States to protect their ability to use their 
Colorado River allocations to meet future needs.
    In the lower Colorado River Basin, despite the fourth consecutive 
year of substantial drought on the Colorado River in 2003, Reclamation 
delivered Arizona, California and Nevada their full basic annual 
apportionment of river water. The United States' obligation to deliver 
1.5 million acre-feet of Colorado River water to Mexico was also met. 
Since the completion of Hoover Dam in 1935, Reclamation has delivered 
to each of these states and to Mexico, at a minimum, their basic annual 
apportionment of Colorado River water, despite several periodic and 
severe droughts.
    Many projects, such as the Central Valley Project (CVP) in 
California, are operated to address different demands simultaneously. 
For example, in 2003, the CVP made available about 7,200,000 acre-feet 
of water for agriculture, 540,000 acre-feet for municipal and 
industrial water users, 400,000 acre-feet for wildlife refuges, and 
800,000 acre-feet to protect and restore the San Francisco Bay-Delta 
fishery, as required by the Central Valley Project Improvement Act.
    The Department negotiated two agreements (Conservation Water 
Agreement and the Emergency Drought Water Agreement) with the State of 
New Mexico and other entities, and acquired about 90,000 acre feet of 
water from willing contractors to provide supplemental water flows for 
the endangered Rio Grande silvery minnow.
    Interior agencies work with other Federal agencies, and State, and 
local governments, partners, and stakeholders, to determine innovative 
ways to address unmet demands.

  <bullet> In 2003, Reclamation rented storage water and natural flows 
        from willing irrigation districts and individuals in the Snake, 
        Boise, Payette, Lemhi and John Day Basins of Idaho and Oregon. 
        This resulted in a win-win situation irrigators received 
        economic support in return for the water they provided to 
        enhance river flows for endangered salmon.
  <bullet> Reclamation developed streamflow simulation models and water 
        quality simulation models for the Weber River System in the 
        Ogden, Utah area, and the Ashley and Brush Creeks which are 
        tributary to the Green and Colorado Rivers. These models work 
        together to enable water managers to simulate and analyze 
        proposed water management scenarios to better meet existing 
        water demands and meet future increased demands.

    Reclamation is also exploring ways to enhance the current water 
supply.

  <bullet> With cost-sharing from the Colorado River Basin States, 
        Reclamation has expended $45 million on salinity control 
        projects during 2001-2003. The cost effectiveness of these 
        projects has improved dramatically to about $30/year/ton of 
        salt controlled. This is nearly a three-fold reduction in cost 
        per ton of salt removed compared to earlier projects at $80 per 
        ton. It is estimated that these projects will control nearly 
        500,000 tons/year of salt from reaching the Colorado River.
  <bullet> Working with the State of Utah, local governments, and water 
        districts, Reclamation has reduced the total phosphorus loading 
        into Deer Creek Reservoir by more than 50 percent. The largest 
        source of drinking water to the Wasatch Front from the Provo 
        River was very contaminated and Deer Creek Reservoir was 
        dominated by toxin, taste, and odor producing blue green algae. 
        The 1994 completion of Jordanelle Dam provided an opportunity 
        to clean up some of the problems. For the past 2 years, even 
        with major drought and water shortages, Deer Creek Reservoir 
        has provided the cleanest water to the Wasatch Front since it 
        was constructed.
  <bullet> Throughout 2003, the Bureau of Reclamation, the U.S. Fish 
        and Wildlife Service, and Bureau of Indian Affairs, under the 
        direction of the Department of the Interior, helped balance the 
        needs of water users and endangered species that depend on the 
        Rio Grande for their survival. The two endangered species are 
        the Rio Grande silvery minnow and the Southwestern willow 
        flycatcher. Efforts to preserve and protect the species 
        occurred in the following areas: water acquisition and 
        management, habitat restoration, listed species population 
        management, fish passage, and water quality improvement.
  <bullet> In 2003, Reclamation, the U.S. Fish and Wildlife Service and 
        Bureau of Indian Affairs continued participation in the Middle 
        Rio Grande Endangered Species Act Collaborative Program, and 
        cooperation on ESA, National Environmental Policy Act and other 
        environmental compliance requirements. These agencies continued 
        government-to-government consultations with the pueblos and 
        tribes living in the Rio Grande Basin.
  <bullet> Reclamation and Collaborative Program participants are 
        restoring the Rio Grande to a wider, shallower channel with a 
        sandy bottom, and removing invasive plant species from the 
        bosque and replacing them with cottonwoods and willows to 
        benefit the endangered species. Seven projects covering 415 
        acres have been completed, and an additional seven projects 
        covering 413 acres will soon be under way. Four pueblos are 
        participating in these restoration efforts.
  <bullet> Reclamation has supported activities aimed at increasing the 
        population of the silvery minnow including: developing a master 
        plan for management, increasing the numbers of silvery minnow 
        through captive breeding and rearing (propagation) and re-
        introducing (augmentation) silvery minnows into the Rio Grande, 
        monitoring silvery minnow populations in the wild, and rescuing 
        fish from dry river reaches and moving them to other parts of 
        the river when appropriate.
  <bullet> Reclamation, the Army Corps of Engineers, and the Bonneville 
        Power Administration submitted their first ``check-in'' report 
        to NOAA Fisheries on October 1, 2003, as required by the 
        Federal Columbia River Power System Biological Opinion of 2000. 
        The three agencies stated that the overall implementation of 
        the Biological Opinion (BO) is on track and that the status of 
        the Columbia River basin salmon and steelhead listed under the 
        Endangered Species Act is improved over the conditions prior to 
        the BO three years ago. The 2003 Check-In Report acknowledges 
        that good ocean conditions are a major contributor to the good 
        returns, but improved fish passage at Columbia and Snake River 
        dams and better habitat, hatchery and harvest practices are 
        also contributing. Reclamation's primary contribution to this 
        success has been working with private landowners to remove or 
        modify in-stream barriers to migrating fish, such as temporary 
        gravel diversion dams.
  <bullet> Reclamation completed the A Canal fish screen on the Klamath 
        Project in southern Oregon. The fish screen facility is a key 
        requirement of the U.S. Fish and Wildlife Service's Biological 
        Opinion to recover endangered Shortnose and Lost River Suckers 
        in Upper Klamath Lake. During a typical irrigation season, the 
        A Canal transports nearly 250,000 acre-feet of irrigation water 
        used on Klamath Project farms. Without these fish screens, 
        water deliveries could have been susceptible to cutbacks to 
        prevent fish losses.
  <bullet> A reserve of water was made available for release down the 
        Trinity River during the summer of 2003 in case it was needed 
        to prevent a reoccurrence of conditions that led to fish 
        mortalities in the Klamath River the previous year.
  <bullet> The Department, the States of Nebraska, Wyoming, and 
        Colorado, along with Nebraska water users, continue to work on 
        a Cooperative Recovery Program for Platte River endangered 
        species. The Department funded a review by the National Academy 
        of Sciences (NAS) of the science and conclusions which underpin 
        the need for a recovery program for the four threatened and 
        endangered species that use the Platte River. An expedited 
        schedule of review by NAS was negotiated so it will not delay a 
        Record of Decision on the Platte EIS by the end of calendar 
        year 2004.
  <bullet> On May 19, 2003, the U.S. Supreme Court approved the Kansas 
        v. Nebraska settlement which was filed with the Special Master 
        December 16, 2002. While Reclamation was not a party to the 
        suit, it was assigned by the court as amicus curiae (friend of 
        the court) and was a full partner in helping successfully 
        negotiate the settlement.
  <bullet> Reclamation signed a Memorandum of Understanding with the 
        San Diego River Park Foundation and the City of San Diego for 
        Phase I of the San Diego River Restoration Project. This 
        project, to which Reclamation is contributing $500,000, will 
        upgrade natural riparian habitat, improve water quality and 
        enhance recreational opportunities along the river. It also may 
        enhance groundwater quality and improve water quality for 
        downstream recreational users and others.
  <bullet> Reclamation began the Los Angeles Basin County Watershed 
        Study, which will help determine the practicability of 
        recharging urban stormwater runoff; develop a stakeholder-
        supported strategy to identify locations for projects to 
        recharge water throughout the basin; develop tools that will 
        help decision-makers determine where, when and how to recharge 
        urban runoff; and develop cost-sharing agreements among 
        agencies benefiting from the project.
  <bullet> Reclamation and Fish and Wildlife Service formulated a plan 
        for river management on the Pecos, resulting in a non-jeopardy 
        opinion for the threatened Pecos bluntnose shiner.
  <bullet> A fish passage was constructed in the Public Service Company 
        of New Mexico diversion dam on the San Juan River. The passage 
        re-linked critical habitat in the upper San Juan River basin. 
        The passage was an immediate success: endangered fish and other 
        native fish species began using the facility within the first 
        month of operation. This effort was made possible through the 
        cooperation of the Navajo Nation, Public Service Company of New 
        Mexico, and the San Juan River Recovery Implementation Program.

    Reclamation continues to work with partners through habitat joint 
ventures conducted under programs such as the North American Waterfowl 
Management Plan including:

  <bullet> Working with the Yakama Nation to restore wetlands on the 
        Yakama Reservation;
  <bullet> Partnering with Ducks Unlimited, the Washington State 
        Department of Fish and Wildlife, and the Intermountain West 
        Joint Venture to create and enhance wetlands along the 
        Winchester Wasteway in the Columbia Basin;
  <bullet> and Participating in a joint venture with the U.S. Fish and 
        Wildlife Service and Ducks Unlimited to create a brood marsh at 
        the Hansen Waterfowl Management Area as part of the Prairie 
        Potholes Joint Venture in North Dakota.

    Aquatic invasive species clog canals and waterways, causing 
widespread water delivery problems. Salt Cedar (Tamarisk) is a 
particularly harmful invasive plant. In 2003, Reclamation started an 
aggressive salt cedar control program, the largest and most successful 
eradication program in New Mexico, along the Pecos River. The 
Department is also co-sponsoring a Tamarisk Workshop in Albuquerque, NM 
later this month. Senator Domenici, Senator Campbell, Senator Bingaman 
and other members of the Senate are to be commended for their 
legislative efforts to address this problem.
    Reclamation continues to work under the Reclamation States Drought 
Relief Act of 1991 to respond to drought conditions in Western States. 
During FY 2003, Reclamation:

  <bullet> Allowed storage of non-project water in Reclamation 
        facilities.
  <bullet> Provided emergency assistance for Indian and non-Indian 
        domestic water supplies in Montana, New Mexico and Arizona.
  <bullet> Purchased water for endangered species requirements under 
        the Endangered Species Act, thus allowing deliveries to 
        continue to contractors.

    Reclamation operates and maintains 58 hydroelectric powerplants 
that provide about 10 percent of the electric power in the Western 
United States. Reclamation plants generate nearly $1 billion in power 
revenues annually and lead the hydropower industry with low costs and 
high reliability.
    Many of Reclamation's projects are home to recreation 
opportunities. Visitors to Reclamation lakes and facilities contribute 
about $6 billion a year to local and regional economies and provide 
some 27,000 non-Federal jobs. Reclamation continues to work with other 
Federal land management agencies, state, county, and local partners to 
develop, manage and cost-share recreation projects.
    The Department also contributes to resolution of drought and water 
supply issues in the west through the scientific work of the USGS. 
Examples of this include the recently completed Middle Rio Grande 
ground water study, the southwest ground water initiative (which has 
significantly advanced capabilities to estimate ground water recharge), 
improved real-time coverage of surface-water and ground-water 
conditions (through Waterwatch and Groundwater Watch), the recently 
completed study of the impact of irrigation in the Methow Valley of 
Washington, new hydrologic and river systems models of the Yakima basin 
in conjunction with the Bureau of Reclamation, and scientific 
leadership of the upper San Pedro River partnership in southern 
Arizona.
    Thank you for the opportunity to address the Committee today. I 
will be happy to answer any questions that you may have.

    The Chairman. Thank you very much.
    Senator Bingaman, did you want to comment?
    Senator Bingaman. Mr. Chairman, since I am late, let me 
just put my opening statement in the record, and we will go 
ahead and I will just ask questions when the opportunity 
arises.
    [The prepared statement of Senator Bingaman follows:]

 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico

    Good morning. I want to Join in welcoming the witnesses to today's 
hearing on the important topic of water supply in the arid West. We all 
know that the West has been faced with a severe, multi-year drought. I 
understand that the focus of this hearing is status and trends in water 
use and needs in the West. It is crucial that we ensure that there will 
be water supplies available in the future for our communities, for our 
ranches and farms, and for the environment.
    I would like to register a note of concern this morning. The 
Administration is widely touting its ``Water 2025'' initiative--and 
it's my view that the initiative, at least in concept, is worthy of 
support. The Secretary has conducted a series of well-publicized 
meetings throughout the West, seeking input of stakeholders on future 
needs in an effort to avoid future crises. I certainly endorse these 
collaborative efforts.
    Unfortunately, while the Administration proposes an $11.6 million 
increase in Water 2025 for the Bureau of Reclamation, it is also 
proposing over $25 million in cuts from other Reclamation programsthat 
support conservation, efficiency, collaboration, and technology 
initiatives. On top of that, the budget proposes a 64 percent cut for 
Title16 water reclamation and reuse projects, despite the endorsement 
of water reuse in Water 2025. These cuts represent a lack of meaningful 
commitment to address the West's water issues, and in my view render 
Water 2025 an exercise in form over substance.
    Moreover, cuts in Reclamation's budget could have serious 
repercussions in New Mexico. Drought and competing demands for water, 
including endangered species needs, have resulted in water use in the 
Middle Rio Grande basin degenerating into an annual rite of crisis 
management. Addressing this situation requires compliance with a Fish & 
Wildlife Service 10-year biological opinion that Interior estimates 
will cost $230 million. Yet Reclamation's 2005 budget reduces funding 
for ESA compliance activities by $9.5 million from FY 2004 levels. At 
the requested FY2005 level of $5.9 million, we can expect to satisfy 
the biological opinion in no less than 30 years. The Secretary recently 
issued a press release stating that ``[t]he issues in the Middle Rio 
Grande Basin have been a priority since the beginning of my tenure as 
Secretary. . . .'' My only response is that actions speak louder than 
words.
    I would also like to focus on the issue of groundwater depletion in 
the West--and in particular, the depletion of the groundwater resources 
of the High Plains Aquifer which underlies eight states, including a 
portion of eastern New Mexico. This aquifer provides water for 
irrigation and also for drinking water supplies for several communities 
in my State. It is being depleted at an alarming rate. For example, 
areas of the aquifer in New Mexico and Texas had from 50 to 175 feet of 
water-level decline from 1950 to 1980, and more than 60 feet of water-
level decline from 1980 to 1999.
    Last Congress, I was pleased that the Farm Bill included an 
initiative to provide funding for an incentive program to encourage the 
use of more efficient irrigation equipment and less water-intensive 
cropping patterns. This year, the Senate has passed legislation 
introduced by Senators Brownback, Domenici and myself, to provide 
enhanced mapping, characterization and modeling with respect to the 
groundwater resources of the High Plains Aquifer. I hope that we will 
see this legislation enacted into public law.
    Mr. Chairman, thank you for conducting this hearing. I also want to 
state my appreciation for your willingness to include a representative 
of the Western States and the Tribes at today's hearing. I look forward 
to the witnesses' testimony.

    The Chairman. Senator Bingaman, one of the thoughts that I 
expressed prior to your arrival was that if you look out in our 
State and some of the adjoining States that we get to see, one 
of the biggest shortages is the lack of any basic resource for 
small, rural towns and their water needs and sewage needs. 
Things are just literally falling apart. These towns have to 
grow. They are growing. They do not have any money. There are 
no revolving funds, and I just wonder when we are finally going 
to come around to doing that.
    I myself keep reading that the Government wants to, but 
everything I see is too minuscule for the size of the problem. 
I might solicit your help in putting together a major effort 
and just see what happens to it, where we ask the Federal 
Government to put more than a few billion dollars in a 
revolving fund so that the States and localities can draw on 
it. You and I could spend 15 minutes and tick off 25 little 
communities in our State that there is no way they are going to 
get anywhere because they do not have any money and nobody has 
any money to give them and we have no program. And without 
water, they are in pretty bad shape.
    Mr. Secretary, thanks for your comments. Now, let us just 
move back this way and we will talk to Brigadier General 
Grisoli, Commander of the Northwestern Division, U.S. Army 
Corps of Engineers. General.

STATEMENT OF BRIGADIER GENERAL WILLIAM. T. GRISOLI, COMMANDER, 
      NORTHWESTERN DIVISION, U.S. ARMY CORPS OF ENGINEERS

    General Grisoli. Good morning, Mr. Chairman. Good morning, 
Senator Bingaman.
    Senator Bingaman. Good morning.
    General Grisoli. It is an honor for me today to testify 
before you on behalf of the Corps of Engineers on the matter of 
water supply in the Western States.
    The committee has asked the Corps to address four issues 
regarding drought in the Western States: first, the drought 
conditions in the Western States over the last 4 or 5 years and 
projections used by the Corps to prepare for future operations; 
second, how the data may change predictions for the potential 
of floods and water flows; third, the drought's impact on 
navigation and flood control and other reservoir water 
management responsibilities in the Western States; and finally, 
activities to alleviate drought impacts on water supply and 
other Corps responsibilities.
    The Western States have been in drought since 2000, and the 
Southwestern part of the Nation has been in continual drought 
for the past few decades.
    Although the Corps' primary mission at reservoir projects 
is flood control, the Corps, to the extent permissible under 
our project authorities, attempts to manage the projects in a 
manner which protects water supplies and the environment.
    The continuing drought has caused reservoir levels 
throughout the region to be severely depleted. This has 
negatively impacted all project purposes except for flood 
control, which is positively impacted because of the increased 
capability to store flood waters.
    The management of the water stored in all Corps reservoir 
projects is guided by the congressionally authorized purposes 
set out for each project and the requirements of other 
legislation such as the Endangered Species Act. The Endangered 
Species Act requires Federal agencies ensure that their actions 
are not likely to jeopardize the continued existence of any 
federally listed threatened or endangered species or result in 
the destruction or adverse modification of their critical 
habitat.
    While the Corps does not attempt to make long-term drought 
forecasts, we develop annual reservoir control plans based on 
models that predict stream flow and reservoir levels and work 
with other State and Federal agencies to evaluate conditions. 
The Corps collaborates with meteorological experts at the 
National Oceanic and Atmospheric Administration to make use of 
the most updated research and use that information to help 
operate our reservoir projects.
    To help make decisions about reservoir storage and releases 
for multi-purpose projects and environmental needs in the 
Columbia Basin, the Corps relies on the Northwest River 
Forecast Center to prepare water supply and streamflow 
forecasts. The Northwest River Forecast Center is part of the 
National Weather Service.
    The Corps also relies upon the Rocky Mountain North 
snowpack data collected by the Natural Resource Conservation 
Service to facilitate runoff forecasts in the Missouri River 
basin.
    In the Colorado River basin, the Corps is a part of a 
multi-agency team called the Colorado River Forecast Service 
Technical Committee. This committee of technical experts shares 
technological advances and expertise to track and evaluate 
conditions on the Colorado River.
    On the Rio Grande, a joint agency water operations model 
has been developed and implemented to manage water supply, 
flood control, and environmental purposes. The Corps is working 
very closely with the Bureau of Reclamation to use this model 
to develop annual operating plans that reflect forecasts for 
reservoirs and river operations.
    Many of the reservoirs in the California Central Valley are 
multi-purpose with the varied owners and operators. During 
flood operations the Corps has the responsibility for managing 
the water stored in a designated flood control space. The U.S. 
Bureau of Reclamation and private owners, on the other hand, 
are responsible for allocating the water reserved for municipal 
and irrigation purposes and stored below the flood control 
pool. The Corps, with cooperation from our partners, uses our 
latest hydrologic and reservoir simulation computer modeling to 
evaluate water management decisions pertaining to flood control 
and environmental issues.
    Lastly in southern California, in addition to managing for 
our multi-purpose needs, daily reservoir operations are 
designated to also provide for groundwater recharge.
    Now, as you have heard today, drought throughout the 
Western States place extreme challenges on the Corps' ability 
to meet all the congressionally authorized purposes and comply 
with the Endangered Species Act. To address drought conditions, 
the Corps includes contingencies for drought in our water 
management plans that seek to balance these competing 
requirements.
    In addition, the Corps, in collaboration with our partners, 
monitors and alleviates other impacts of drought to the 
community within our existing authority. Throughout the western 
region, we partner with Federal, State, and local agencies and 
stakeholders to maximize project operation for water supply and 
other purposes.
    Mr. Chairman, thank you for providing me the opportunity to 
provide you this initial statement. I am prepared to now answer 
your questions.
    [The prepared statement of General Grisoli follows:]

  Prepared Statement of BG William T. Grisoli, Commander, Northwestern 
                 Division, U.S. Army Corps of Engineers

                              INTRODUCTION

    Mr. Chairman, subcommittee members, and distinguished guests, I am 
Brigadier General William T. Grisoli, the Commander of the Northwestern 
Division of the U.S. Army Corps of Engineers (Corps). I am honored to 
be here today to testify on the matter of Water Supply in the Western 
United States.
    You asked that we address four issues regarding drought in the 
Western United States: first, the drought conditions in the Western 
United States over the last 4-5 years and projections used by the Corps 
to prepare for future operations; second, how these data may change 
predictions or the potential of floods and water flows; third, the 
impact on navigation and flood control and other responsibilities 
(reservoir water management) of the drought and related issues in the 
Western United States; and, finally, activities to alleviate drought 
impacts on water supply and other Corps responsibilities. The following 
provides more specific information related to these four issues for 
each of the following river basins in the Western United States: the 
Colorado, Rio Grande, Sacramento, and San Joaquin River basins, and the 
watersheds associated with the Colorado Aqueduct of the Metropolitan 
Water District of Southern California and the Los Angeles Aqueducts of 
the City of LA Department of Water and Power, in the South Pacific 
Division of the Corps and the Columbia and Missouri River basins in the 
Northwestern Division of the Corps.
    The management of the water stored in all Corps reservoir projects 
is guided by the Congressionally authorized purposes set out for each 
project and the requirements of other legislation such as the 
Endangered Species Act (ESA). The ESA requires that Federal agencies 
must ensure that their actions are not likely to jeopardize the 
continued existence of any Federally listed threatened or endangered 
species, or result in the destruction or adverse modification of their 
critical habitat.

                     SOUTH PACIFIC DIVISION BASINS

    The arid west is the fastest growing region in the United States. 
The coastal rivers are home to threatened and/or endangered fisheries 
that require a certain level of flow to sustain them. This coupled with 
the demands for water by the agricultural industry that presents us all 
with a great challenge. The southwestern part of the nation has 
experienced drought for much of the past few decades.
    Although the Corps primary mission at our reservoir projects is 
flood control, the Corps, to the extent permissible under our project 
authorities, attempts to manage these projects in a manner that 
protects water supplies. We sometimes perform this balancing act in a 
non-traditional way by holding back water after rainstorms or 
snowmelts, and releasing it at a slow enough rate such that it seeps it 
into the ground for use later in the year when it may be more valuable.

Colorado River Basin
    In the Colorado River basin the Corps is involved in partnerships 
with other Federal water resource agencies. For example, the Corps is 
part of a multi-agency team called the Colorado River Forecast Service 
Technical Committee. Other Federal agencies on that committee include 
the Natural Resource Conservation Service (NRCS), the United State 
Geological Survey (USGS), the National Weather Service (NWS), the 
Western Area Power Administration of the Department of Energy (WAPA), 
and the upper and lower Colorado basins regions of the United States 
Bureau of Reclamation (USBR). This committee of technical experts 
shares technological advances and expertise to track and evaluate 
conditions on the Colorado River to balance the national interests of 
water supply, energy needs, environmental interests, and flood control.
    The Corps is also teaming with meteorological experts at the 
National Oceanic and Atmospheric Administration (NOAA) to make use of 
the most updated research, to relate to them our technical needs, and 
to use that information to help our sponsors study new ways to operate 
our reservoir projects that can help reduce the impacts of water 
shortage.

Rio Grande River Basin
    The Rio Grande basin in Colorado and New Mexico is generally 
considered to be in the midst of a long-term drought. This region 
experienced extreme drought conditions during 2002 and 2003 causing 
reservoir storage levels to be severely depleted. The snowmelt runoff 
forecasts for 2004 are much brighter with runoff forecasts in the range 
of 70 to 100 percent of average. This runoff combined with water stored 
under the Emergency Drought Water Agreement will assure sufficient 
water to meet the 2003 Biological Opinion flow requirements to sustain 
the endangered Rio Grande silvery minnow. The multi-agency agreement is 
part of a 3-year deviation agreed upon to provide water for the 
endangered minnow.
    The Corps is actively involved in the comprehensive water 
management and related planning activities, where we have multi-purpose 
reservoirs. On the Rio Grande, a joint-agency water-operations model, 
the ``Upper Rio Grande Water Operations Model'' or ``URGWOM'' has been 
developed and implemented to help guide multi-agency operational 
decision-making. This tool is used to support studies related to water 
accounting and annual operating plans for the Rio Grande from the 
Colorado/New Mexico border to El Paso, Texas. The Corps is working very 
closely with the USBR to develop an Annual Operating Plan, using 
URGWOM, which reflects forecasted reservoir and river operations. We 
are also working with the New Mexico Interstate Stream Commission, the 
U.S. Fish and Wildlife Service (USFWS), the Middle Rio Grande 
Conservancy District, the Middle Rio Grande Pueblos, and other 
stakeholders to provide the most efficient water management possible. 
URGWOM is also providing the capability to analyze 40-years of key flow 
and storage projections as we examine numerous alternatives within 
existing authorities for optimal future water management. The results 
of this study will be presented in the ``Upper Rio Grande Water 
Operations (URGWOPS) Environmental Impact Statement (EIS)''.
    The Albuquerque District of the Corps is a joint lead agency in 
both of these efforts, providing the funding and human resources to 
complete them, along with providing the model development site and the 
center of activities. The modeling brings together the operational 
knowledge and the respective interests of the agencies, to allow 
detailed examinations of the effects of varying operations. It allows 
the collaborating agencies to coordinate their water management during 
drought conditions, and regulate the various projects to preserve 
listed endangered species such as the Rio Grande Silvery Minnow, while 
supplying water to meet existing public needs. URGWOM is a very 
important technical tool that will significantly contribute to our 
understanding of the effects of water management decisions and improve 
our capability to respond to the needs of the various stakeholders in 
the desert southwest. It is a great example of effective partnering 
that will allow the Corps to provide the best possible public service.

Sacramento and San Joaquin River Basins
    In California's Central Valley the water contained in the 
reservoirs under the jurisdiction of the Corps is generally managed, 
but is not allocated by the Corps. Specifically, during flood control 
operations the Corps has the responsibility for managing the waters 
contained in the designated flood control space. At many Corps projects 
in the Western United States, the USBR is responsible for allocating 
water reserved for irrigation purposes and contained below the flood 
control pool.
    The Corps typically determines the appropriate flood control volume 
required for each project. This volume is established during the 
planning and design of each project before a project is approved by 
Congress for construction.
    In concert with operations for flood control, certain flood control 
projects are also operated for other project purposes including 
environmental considerations. For instance, releases from flood control 
storage are made at certain ramping rates, are designed to allow 
operation of these projects for flood control while ameliorating 
particular environmental concerns such as those associated with 
endangered species.
    The Sacramento and San Joaquin River basins Comprehensive Study 
(Comp Study) included the development of a hydrologic computer model to 
facilitate the water management decision-making process. The Comp Study 
evaluated a large number of operational alternatives for several flood 
control projects utilizing this model, which was developed specifically 
for the study. The simulation model was developed using the Corps' HEC-
5 reservoir simulation computer software. These analyses investigated 
the change in flood control benefits associated with potential changes 
in particular operational criteria for either a single reservoir, or 
combinations of reservoirs. These analyses were intended solely to 
evaluate flood control operations in the Central Valley and provide 
``what-if'' scenarios pertaining to flood control, not water supply.
    There have also been computer simulations completed to investigate 
the benefits of conjunctive-use technologies and additional off-stream 
storage to further reduce the impacts of flooding in certain locations.
    Current conditions provide some hope for this year. A series of 
heavy winter storms 2 weeks ago improved the Sierra Nevada Mountain 
snow depths to above normal levels, with a month remaining to improve 
on that snowpack. Snow depths in the northern Sierra's from Mount 
Shasta to the Feather River was at 141 percent of normal, with around 3 
feet of water equivalent. The central Sierra's, from the Yuba River and 
Lake Tahoe basin to the Merced River, was at 112 percent of normal, and 
from the San Joaquin River south the snowpack was at 108 percent of 
normal. Across the entire range the depth was 127 percent of average, 
an increase from last month's measurement of 115 percent. More than a 
third of the state's drinking and irrigation water comes from Sierra 
runoff from snowpack, which also powers hydroelectric plants that 
produce about a quarter of California's power.

Colorado Aqueduct Of The Metropolitan Water District Of Southern 
        California and The Los Angeles Aqueducts Of The City of Los 
        Angeles Department of Water and Power
    In southern California daily reservoir operations are designed to 
provide groundwater recharge through the use of buffer pools. This 
saves water districts tens of millions of dollars annually ($12 million 
per year at Whittier Narrows Dam alone), and is an important supplement 
to water imported via the USBR's Central Valley Project, the State 
Department of Water Resource's State Water Project, the Colorado 
Aqueduct of Metropolitan Water District of Southern California, and the 
Los Angeles Aqueducts of the City of Los Angeles Department of Water 
and Power. Also, in the Central Valley, daily reservoir operations are 
keyed to forecasted water needs, snowpack, and runoff forecasts to 
improve benefits derived from those reservoirs. Planning studies are 
also underway to increase seasonal water storage at our `dry' flood 
control basins and wet reservoirs, and re-operation studies are 
underway to investigate increasing water stored for multipurpose needs. 
These studies will need to take into account competing needs for the 
available water uses.
    Research by NOAA into more accurate and advanced quantitative 
precipitation forecasts (QPFs) may further allow maximization of 
project operation for water supply. The Corps has partnered with NOAA's 
Environmental Technology Laboratory, the Nevada Desert Research 
Institute, and the Corps' Hydrologic Engineering Center, in sharing 
information on that research.

                      NORTHWESTERN DIVISION BASINS

Columbia River Basin
    The Federal Columbia River Power System (FCRPS) in the Columbia 
River basin is a very large and extremely complex system designed to 
meet multiple uses for a multitude of stakeholders. Operational 
decisions are not only designed to meet the many authorized project 
uses and other statutory and regulatory requirements, but are also 
influenced by and have to accommodate changes in weather and water 
supply.
    Most of the annual precipitation of the Columbia River basin is 
concentrated in the winter months with the bulk of the precipitation 
falling in mountainous areas as snow stored in deep snowpack awaiting 
the warmth of spring for its release. As a result, winter streamflows 
are generally low with high, sustained runoff flows occurring in the 
spring and early summer. This Columbia River runoff pattern exemplifies 
a major seasonal variation of flow with about 60 percent of the natural 
runoff of the Columbia occurring during the months of May, June, and 
July. The Columbia has an average annual runoff at the mouth of about 
198 million acre-fee (MAF) making it second only to the Missouri-
Mississippi River System in the United States in average annual runoff.
    A long-range strategy for the operation of storage reservoirs must 
be developed up to six months in advance in order to provide for the 
multiple purpose uses of the Columbia River. Embedded within long-range 
operational strategies, water managers must respond to changes and 
deviations within the operational period. Short duration rain events, 
flood events, warm weather, or snowmelt within any sub-basin of the 
Columbia River requires water managers to adjust the overall 
operational strategy throughout the system. These short duration events 
may only last for a week or less, yet they are significant and require 
constant coordination and cooperation among state and federal agencies 
to best determine how these short duration events may affect the 
overall ability to meet the long range operational strategy and 
multiple purpose uses of the FCRPS. These events are significant enough 
that real-time adaptive management to meet fish needs under the current 
Biological Opinion occurs at least every other Wednesday on a formal 
basis and often occur on an informal basis each Wednesday to respond to 
changing conditions.
    The FCRPS operates as a system with some limited flexibility at 
individual storage reservoirs to meet immediate needs downstream of 
that reservoir. As a system there is a general annual cycle of 
operation and strategy for setting priorities.
    By August 31 most federal reservoirs are drafted somewhat below 
full to augment flow for Federally listed threatened and endangered 
fish species. Since September through December is generally a dry 
period with limited inflow to the reservoirs, they do not fill 
significantly from their summer levels. By November, the USBR's Grand 
Coulee Dam begins to release water to meet downstream flow at the Corps 
Bonneville Dam to maintain sufficient water in spawning areas for the 
Federally listed chum salmon. In January, the Northwest River Forecast 
Center develops the region's first water supply forecast. This is the 
first official glimpse into the future and whether the spring season 
will be a drought or a season of high flow. From January through April 
10, the reservoirs operate to refill to flood control draft limits. The 
object of this strategy is to have the federal reservoirs as full as 
possible to begin releasing water in spring for flow augmentation for 
Federally listed fish species in the Snake and Columbia Rivers. The 
federal reservoirs then operate to fill by June 30, while augmenting 
flow for downstream fish needs, and not causing flooding. In July and 
August the federal reservoirs draft to specific elevations to augment 
flow for listed fall Chinook salmon. Although no two water years are 
alike, the current National Marine Fisheries Service (NMFS or NOAA 
Fisheries) Biological Opinion acknowledges and has a plan for 
accommodating changing seasonal strategies. The 2000 BiOp is a key 
element in the long-range operational strategy for the Columbia River 
basin.
    The current Biological Opinion (BiOp) provides guidance for the 
long-range strategy and basic framework to operate and fine-tune the 
complex Columbia River basin system. The BiOp provides guidance to 
benefit fish migration, and acknowledges the need to meet other 
interdependent objectives. The BiOp considers meeting regional and 
local flood control needs, as well as regional power needs. The BiOp 
offers a forum to gather information and provide the real-time adaptive 
management needed to respond to ever changing water conditions. 
Development of the existing BiOp required the concerted effort of 
numerous biologists, water managers, and power marketers and took many 
years to develop.
    The Technical Management Team (TMT) is the regional technical forum 
that was developed under the NMFS BiOp to monitor water and fish 
conditions and provide the adaptive management mechanism for operation. 
The TMT has been meeting since 1996 to provide federal project 
operators with recommendations for operations to best meet the needs of 
fish. The TMT provides a process to develop consensus recommendations 
and reconcile disparate scientific views.
    The first official water supply forecast is made in January each 
year. This is the region's first indication that a drought may affect 
operational needs in that year. Since the reservoirs had been drafted 
the previous year for flow augmentation for fish, a drought condition 
does not offer enough inflow to reservoirs so they can refill to April 
10 flood control elevations per the 2000 Biological Opinion and provide 
augmentation water for fish in the spring. During drought years, flow 
from April 10 through the end of June will likely be insufficient to 
fully satisfy all needs, i.e. meet flow objectives for Federally listed 
fish species, and refill reservoirs, and meet other needs in the basin, 
such as power generation. If reservoirs are unable to refill by the end 
of June, there will be limited water for flow augmentation in July and 
August as the federal reservoirs draft for summer flow augmentation for 
listed fish.
    In the Columbia River basin, 2001 was the most recent year of 
drought-like low water supply. The Corps is responsible for the 
operation of reservoirs in the Columbia River to meet the 
congressionally authorized multiple purposes of the dams. To make 
decisions about reservoir storage and releases, the Corps relies on the 
Northwest River Forecast Center to prepare water supply forecasts, and 
streamflow forecasts. The Northwest River Forecast Center is a part of 
the National Weather Service. The projections prepared by the Northwest 
River Forecast Center are used to plan future operations. The expected 
water supply (runoff) is predicted for the basin using estimated 
snowpack in the Rocky Mountains, and the snowpack does not begin to 
build significantly until December. The Northwest River Forecast Center 
does not begin forecasting water supply until January. There are long-
term tools being developed by some agencies to allow predictions 
earlier than January, or to predict water supply several years into the 
future, however, they have not yet been accepted as reliable enough to 
guide reservoir operations. Reservoir operations in the Columbia River 
basin are planned on an annual basis. A relatively small amount of 
storage is available in the Columbia basin reservoirs compared to the 
annual water supply. There is approximately 40 million acre-fee (MAF) 
of reservoir storage as compared to the average annual runoff of 198 
MAF (measured at the mouth of the Columbia). About one half of the 
storage in the basin is in Canada and is operated by British Columbia 
Hydro and Power Authority (BC Hydro). In the United States, the USBR 
and the Corps combined operate about half of the storage, with each 
agency operating around a quarter of the total basin storage. There are 
several private operators, but the quantity of storage they manage is 
very small. Because of the small amount of storage available compared 
to water supply, reservoir management is not planned on a multi-year 
basis. Storage reservoirs are planned to operate to fill in summer. 
When water is plentiful this allows reservoirs to release water in 
winter to generate power, and to fill in spring and capture 
floodwaters. When water is more limited operations address multiple 
needs as established in project authorizations and under the Endangered 
Species Act.
    The water supply forecasts prepared by the Northwest River Forecast 
Center are updated every month from January through June. The Corps 
uses the updated water supply forecasts to determine the required flood 
control draft at storage reservoirs throughout the Columbia River basin 
and assures flood control drafts are met. The Corps oversees all the 
reservoirs in the basin, whether they are operated by private or 
federal agencies, which includes the Canadian reservoirs. Each month 
from January through April, when the water supply forecast is updated, 
and the resultant flood control drafts at reservoirs change, the 
reservoirs operations and resultant water releases are managed 
adaptively to meet future needs. In addition to using the water supply 
forecasts, at lease once each week the Northwest River Forecast Center 
prepares expected streamflow predictions for the Columbia River basin. 
The Corps uses these streamflow predictions to analyze flood potential 
during the spring snowmelt season and the system's ability to meet the 
multiple purposes uses of the dams. In years of drought, flood risk 
because of rapid snowmelt is minimal. Rain events that occur during May 
and June when reservoirs are nearly full may cause floods in drought 
years.
    The Corps managed the navigation channel from the mouth of the 
Columbia River inland 453 miles to Lewiston, Idaho. In 2001, to 
conserve water, recreational navigation lockages were limited to only a 
few times each day. The Corps was prepared, as part of its drought 
contingency planning, to transport potable water to meet public health 
and welfare needs. The Corps participated in the Interim National 
Drought Council Meeting in June. Regional coordination at technical 
levels through the executive level was ongoing to assure the multiple 
purpose uses of the resource were met. The agencies most heavily 
involved were the Corps, the USBR, the Bonneville Power Administration, 
NOAA Fisheries, the US Fish and Wildlife, and representatives from the 
States of Oregon, Washington, Idaho, and Montana and Columbia basin 
Tribes. Technical and executive level coordination and cooperation had 
been in place prior to the drought and continues through the present. 
Regular coordination meetings will continue into the future under the 
National Marine Fisheries Service Biological Opinion.

Missouri River Basin
    In contrast to the Columbia basin, the Missouri River basin has a 
tremendous amount of storage capacity compared to average annual runoff 
because of the existence of the largest system of reservoirs in the 
United States. The Missouri River Mainstem Reservoir System (System) is 
comprised of six large dams and reservoirs with a total storage 
capacity of 73.4 million acre-feet (MAF). Average annual runoff into 
the System is around 25 MAF. The six System dams stretch along the main 
stem of the Missouri River from Montana through North and South Dakota. 
The System was designed specifically to support the Congressionally 
authorized project purposes of flood control, navigation, hydropower, 
irrigation, water supply, water quality, recreation, and fish and 
wildlife under varying runoff conditions, including an extended drought 
like that experienced in the 1930's. Around 39 MAF of System storage is 
identified to for use during extended droughts.
    Construction of the System dams occurred from the 1930's through 
the mid-1960's. The highest dam in the System, Fort Peck, was 
constructed in the 1930's as a Work Progress Administration project. 
The 1944 Flood Control Act, commonly referred to as the Pick-Sloan Act, 
authorized the remaining five dams. The entire System first filled to 
operating levels in 1967.
    The Corps has also constructed numerous other projects on the Lower 
River downstream from the System, including the Missouri River Bank 
Stabilization and Navigation Project (BSNP) from Sioux City, Iowa, to 
St. Louis, Missouri. The navigation and bank stabilization projects 
were authorized under various Congressional acts. The navigation 
channel in the Lower Missouri River was first authorized as a 6 foot 
channel from Kansas City, Missouri, to the mouth of the river in the 
Rivers and Harbors Act of 1912. Several subsequent acts modified the 
navigation project. The latest modification, the Rivers and Harbors Act 
of March 1945, authorized construction of a 9-foot-deep by 300-foot-
wide channel from Sioux City to the mouth. The release of water from 
the System serves the navigation purpose by providing water to the 
navigation channel at navigation target flow rates. The Flood Control 
Acts of 1941, 1946, 1948, 1963, 1968, 1974, and 1978 authorized 
additional bank stabilization projects. Further streambank erosion 
controls were authorized under the Water Resources Development Acts of 
1974, 1986, and 1988.
    Since the System first filled in 1967, there have been two moderate 
to severe droughts in the Missouri River basin; one from 1987 until the 
flood of 1993, and the current drought that began in the year 2000. As 
the Missouri River basin enters its 5th year of drought (6th in 
Montana), the impact on the System becomes increasingly severe. The 
upper three reservoirs behind Fort Peck, Garrison, and Oahe Dams, which 
contain 88 percent of the total storage, are drawn down 23 to 30 feet, 
and last month the System as a whole reached an all time record low 
since it first filled in 1967. This has negatively impacted all project 
purposes except for flood control, which is positively impacted because 
of increased capability to store floodwaters.
    Examples of the negative impacts include lack of access for 
recreational craft at the upper three System reservoirs due to low 
reservoir pool levels (boat ramps out of water). Also, shortened 
navigation season lengths and lower releases to conserve stored water 
have negatively impacted navigation on the Missouri River from Sioux 
City, Iowa to the mouth at St. Louis. Lower releases have also 
negatively impacted hydropower production at the six System dams, and 
caused concern, and in a few cases, reduced power generation at thermal 
powerplants that use Missouri River water for once-through cooling. 
Water supply intakes have also been affected, most notably in the 
current drought a USBR intake for the Standing Rock Sioux Tribe at Fort 
Yates and a municipal intake at the Town of Parshall, both in North 
Dakota. Irrigation has also been negatively impacted due to 
difficulties accessing the System reservoir pools due to their low 
levels.
    The Corps has taken several steps to alleviate the negative impacts 
due to the drought. For recreational interests, the Corps has extended 
boat ramps at the upper three System reservoirs. We have completed 
emergency work at the Parshall, North Dakota intake that will ensure 
continued operation through this year. The USBR has implemented 
measures that have returned the Fort Yates intake to service. The Corps 
provided technical assistance to users to assist them in their planning 
for mitigation of drought impacts.
    The Corps does not attempt to predict multi-year droughts on the 
Missouri, but does track snowpack in the Rocky Mountains each winter 
season to facilitate runoff forecasts for that year. This snowpack data 
is collected by NRCS ``snowtel'' sites located throughout the 
mountainous areas that drain into the System. The Corps runoff 
forecasts are updated at the beginning of each month of the year as new 
data is received and is then used as input to computer models that 
simulate reservoir regulation. These reservoir regulation simulation 
models return data on anticipated System reservoir pool levels and 
river flows between the reservoirs and downstream of the System. Along 
with a ``most-likely'' runoff forecast for the year, the Corps inputs a 
range of possible runoff scenarios into the reservoir regulation 
simulation models to provide a range of potential reservoir pool levels 
and river flows for use by all river interest in planning their 
respective activities for the year.
    Regarding long-term drought planning, the anticipated management of 
the water stored in Corps dam and reservoir projects, such as the 
System, is presented in what are known as water control manuals. The 
Missouri River Master Water Control Manual (Master Manual) presents the 
water control plan and operational objectives for the integrated 
operation of the System. This includes drought conservation measure to 
be implemented during low runoff periods. The Master Manual was first 
published in December 1960 and was later revised in 1973, 1975, and 
1979. The first Master Manual and its subsequent versions were 
developed in consultation with State governments within the Missouri 
River basin and Federal agencies having related authorities and 
responsibilities.
    In 1989, the Corps initiated a review of the Master Manual with 
consideration of other laws and regulations to include the following: 
ESA, the National Environmental Policy Act (NEPA), and the President's 
Council on Environmental Quality (CEQ) regulations pertaining to NEPA. 
A Final EIS has been published for the Master Manual Review and Update. 
We are currently in a review time period for the Final EIS and I expect 
to sign a Record of Decision for the Master Manual Review and Update 
shortly.
    As previously stated, in accordance with the ESA, the Corps must 
insure, in consultation with the USFWS, that any action carried out by 
the Corps is not likely to jeopardize the continued existence of any 
Federally listed endangered or threatened species, or result in the 
destruction for adverse modification of their critical habitat. The 
Federal (Corps) action subject to ESA consultation is the management of 
storage and release of water, or ``operation'' of the System, the 
operation of the Kansas River Reservoir projects, and the operation and 
maintenance of the Bank Stabilization and Navigation Project (BSNP). 
The species of interest in regard to these projects are the pallid 
sturgeon (endangered), the interior least tern (endangered), and the 
piping plover (threatened).
    The Corps entered into formal consultation with the USFWS pursuant 
to the ESA on the operation of the Missouri basin projects culminating 
in the USFWS Missouri River Biological Opinion issued in November 2000 
(2000 BiOp). The 2000 BiOp concluded that the Corps' proposed action 
jeopardized the continued existence of the listed pallid sturgeon, 
piping plover, and the interior least tern, and recommended a 
Reasonable and Prudent Alternative (RPA) to avoid jeopardy.
    Subsequently, the Corps and the USFWS have continued coordination 
and entered into both informal and formal consultation over the Corps' 
operation of the System and other actions addressed by the 2000 BiOp 
designed to avoid jeopardy and conserve the Federally listed species. 
On November 3, 2003, the Corps requested reinitiation of formal ESA 
consultation on the operation of the System, the Kansas Reservoir 
Projects, and the BSNP. On December 16, 2003 the USFWS issued an 
amendment to its 2000 BiOp.
    The 2003 Amended BiOp concluded that the Corps' proposed action 
would not jeopardize the continued existence of the interior least tern 
or piping plover. It also includes a ``reasonable and prudent 
alternative'' (``RPA'') for the Corps' proposed operations that, 
according to USFWS, if implemented, will avoid jeopardizing the 
continued existence of the endangered pallid sturgeon. The Corps is 
currently working with the USFWS to coordinate implementation of the 
requirements of the 2003 Amended BiOp.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions.

    The Chairman. Thank you very much, General. Your statement 
is in the record.
    Now, Dr. Louis Uccellini. Is that correct?

 STATEMENT OF DR. LOUIS UCCELLINI, DIRECTOR, NATIONAL CENTERS 
FOR ENVIRONMENTAL PREDICTION, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Dr. Uccellini. Uccellini.
    The Chairman. Uccellini. Boy, here I am with a name like 
Domenici and I cannot say yours.
    [Laughter.]
    Dr. Uccellini. My family has trouble with it too.
    Good morning, Mr. Chairman and Senator Bingaman. I thank 
you for inviting me to discuss the ongoing drought in the 
Western United States.
    I am Louis Uccellini, Director of the National Centers for 
Environmental Prediction, which is part of NOAA's National 
Weather Service. Two of the National Weather Service centers, 
namely the Climate Prediction Center and the 
Hydrometeorological Prediction Center, are closely involved 
with forecasting weather and climate variation related to 
drought.
    Today I will emphasize the current drought status, provide 
a historical perspective, and discuss the most recent outlook, 
which was created jointly with the U.S. Department of 
Agriculture. I will also summarize research activities, 
including the role of the President's Climate Change Research 
initiative.
    Now, the current drought status, which was provided in the 
longer testimony, shows that there has been some improvement. 
Nevertheless, severe to extreme drought covers most of the 
interior sections of the Western United States, as well as 
parts of the High Plains, with exceptional droughts centered in 
New Mexico and western Montana. The current situation involves 
a multi-year drought which began in 1999 across much of the 
West, worsened in 2000, and continued with some interruptions 
into 2004. This winter season has seen improvement in many 
locations. Snowpack and snow water content have been running 
close to normal during the winter snow season in many places, 
especially in the Great Basin and the Northwest, and are much 
improved since last year. Continued improvement in water 
supplies depends largely on snowfall continuing into spring, as 
snowpack contributes to 50 to 80 percent of the region's water 
supply.
    Now, despite the recent snowpack improvement, some 
reservoirs remain disturbingly low across most of the region. 
As of March 1, 2004, four States--Nevada, New Mexico, Utah, and 
Arizona--report storage at or below 50 percent of normal. 
Impressive deficits in precipitation have built up over the 
past 4 to 5 years, a factor bound to swell any reservoir 
replenishment, which will be limited as snowmelt runoff is 
absorbed by the parched soils.
    From a historical perspective, some drought indicators show 
the current multiyear drought in parts of the interior West as 
one of the most severe in the past 40 to 100 years. This 
drought is comparable to the severe droughts in the 1950's and 
1930's in some areas, while not quite as severe in others. For 
example, the Colorado River basin storage this winter has been 
the lowest in more than 30 years, with Lake Powell at its 
lowest since 1970, when it was actually being filled, and Lake 
Mead at its lowest since 1968.
    A new outlook for the short-term changes in drought has 
been released and is shown in figure 2. The precipitation from 
recent storms has been encouraging, boosting valuable snowpacks 
in the Southwest. The outlook for March suggests at least parts 
of the Southwest may experience above-normal precipitation. 
However, the latest streamflow forecasts from the USDA and 
National Weather Service for the spring and summer show that 
although there will be some improvement towards near-normal in 
many areas, we will still be below normal for the Southwest, 
especially Arizona and New Mexico.
    The latest seasonal drought outlook shows improvements in 
drought conditions over the Great Basin and in the Great 
Plains. Limited improvement is possible in central and southern 
New Mexico and from western Colorado and eastern Utah, 
northward through Wyoming into Montana. We emphasize, however, 
that improvement does not mean total relief. As summer 
approaches, many reservoir levels are expected to remain below 
normal.
    The seasonal forecast through the next 12 months shows no 
strong signals for either above or below normal precipitation.
    As far as the research activities that we wish to 
summarize, we want to emphasize that as our understanding and 
skill improve, the ability to fine tune long-term climate 
models will increase. However, predictions for long-term 
climate at the regional level carry an increased level of 
uncertainty. To reduce this uncertainty, NOAA continues to 
invest in the advanced hydrological prediction services and 
also to applied research to better understand the 
interdependencies of the ocean and the land and the combined 
influence on climate and related impact on drought.
    Recent data shows a warming trend for the past several 
decades over much of the West. Some climate models accurately 
predict a temperature increase consistent with this warming 
trend. These models project the warming trend will continue 
this century. However, neither the climate model predictions 
nor observations show any identifiable trend in precipitation.
    NOAA continues to invest in research on the causes of 
decadal oscillations in the Pacific and Atlantic Oceans and the 
role they play behind the long-term drought. In addition, NOAA, 
the National Science Foundation, and sister science agencies in 
Mexico are co-leading the North American Monsoon Experiment, an 
international effort to enhance understanding of the sources 
and limits of predictability of warm season precipitation over 
North America, with a focus on the monsoon precipitation over 
the Southwest. This is critical for water resource management 
in the region.
    Mr. Chairman, I would also like to bring your attention to 
the important work begun under the President's Climate Change 
Research initiative and the U.S. Climate Change Science 
Program. The President's call to advance climate change science 
and focus on the key uncertainties came to fruition in July 
2003 when Secretary of Commerce, Donald Evans, and Secretary of 
Energy, Spencer Abraham, unveiled the Strategic Plan of the 
U.S. Climate Change Science Program, a 10-year management plan 
for climate research in the Federal Government that, for the 
first time, introduces goals, deadlines, and deliverables.
    The strategic plan includes goals in the following areas 
that are relevant to drought research: the global water cycle, 
including measurably improved forecasts of precipitation and 
other water cycle variables for water managers, and increases 
in the efficiency of water use through better water models for 
policy and planning; land use and land cover and their 
relationship to the climate change; and ecosystems in 
developing information to support management decisions for 
agricultural lands, forests, fisheries, and other ecosystems 
under conditions of environmental change.
    I thank you for this opportunity to testify before this 
committee.
    [The prepared statement of Dr. Uccellini follows:]

 Prepared Statement of Dr. Louis Uccellini, Director, National Centers 
    for Environmental Prediction, National Oceanic and Atmospheric 
                             Administration

    Good morning, Mr. Chairman and members of the Committee. Thank you 
for inviting me to discuss the ongoing drought in the Western United 
States. To complement its long-standing water supply forecasting done 
jointly with the U.S. Department of Agriculture's Natural Resources 
Conservation Service (NRCS), the National Oceanic and Atmospheric 
Administration (NOAA) has greatly expanded its role in monitoring and 
forecasting droughts in recent years. I am happy to have the 
opportunity to talk to you about the current drought situation, its 
impacts on water supplies, the summer outlook, research, and how NOAA 
interacts with other agencies to deliver these drought products and 
related services.
    I am Louis Uccellini, Director of the National Centers for 
Environmental Prediction, which is part of NOAA's National Weather 
Service (NWS). Two of our Centers are closely involved with forecasting 
weather and short-term seasonal and climate variations, namely the 
Hydrometeorological Prediction Center (HPC) and the Climate Prediction 
Center (CPC). The latter center is involved with drought monitoring and 
forecasting, and currently produces the seasonal drought outlooks and 
continues to play a key role in producing the U.S. Drought Monitor 
while working with other agencies to improve the tools used to monitor 
drought. In addition, the NWS' Advanced Hydrologic Prediction Services 
(ADPS) program leverages climate outlooks to provide improved water 
supply forecasts, and NOAA's Climate Diagnostics Center collaborates 
with the NWS to incorporate the latest research results into drought 
forecasting.

                         CURRENT DROUGHT STATUS

    The current status of the western drought is shown in Figure 1.* 
Severe to extreme drought covers most of the interior sections of the 
Western United States, (herein referred to as the West) as well as 
parts of the High Plains. The current situation involves a multi-year 
drought which began in 1999 across much of the West, worsened in 2000, 
and continued, with some interruptions, into 2004. However, this winter 
season has seen improvement in many locations. Snowpack and snow water 
content have been running close to normal during this winter snow 
season in many places, especially in the Great Basin and Northwest, and 
are much improved since last year. Numerous winter storms have been 
dropping heavy snow over central and northern areas since December and 
over the Southwest since late February. The Southwest is still lagging, 
but the drought condition is improving. Continued improvement in water 
supplies depends largely on snowfall continuing into spring. 
Furthermore, the pace of spring snow melt is important in relieving 
drought conditions with a gradual snowmelt preferred over sudden 
melting.
---------------------------------------------------------------------------
    * Retained in committee folder.
---------------------------------------------------------------------------
    Mountain snowpack is like money in the bank for western water 
supplies, as the snowpack contributes anywhere from 50 to 80% of the 
water supply in this region. Despite recent improvement in the snow 
conditions, reservoirs remain disturbingly low across most of the 
region. This is due to the long-term nature of the drought. Impressive 
deficits in precipitation have built up over the past four to five 
years. Deficits of 10 to 15 inches of liquid precipitation have 
occurred over a large area, and in some cases have exceeded over 20 
inches, which is more than a year's worth of precipitation. As a 
result, soils have become exceedingly dry. Reservoir replenishment will 
be limited as snow melt runoff is absorbed by parched soils.
    Reservoirs remain significantly below normal in every western state 
except California. As of February 1, 2004, four states--Nevada, New 
Mexico, Utah, and Oregon report storage at or below 50% of normal. As a 
consequence, water restrictions are in place in a number of locations. 
Water managers expect farmers in the hardest hit areas of the drought 
region to have reduced access to water for agriculture this spring and 
summer, as difficult decisions are made to balance the needs of water 
users--consumers, the environment, farmers, ranchers, and recreational 
users. Illustrating the difficult decisions these water managers face, 
as of January 31, Colorado River Basin water storage stood at 68% of 
normal, with Lake Powell in Utah at just 57% of normal storage, which 
is near the 5-year low for water storage.

                         HISTORICAL PERSPECTIVE

    From an historical perspective of droughts in the interior West, 
some indicators of drought depict the current multi-year drought as one 
of the most severe in the past 40 to 100 years, comparable to the 
severe droughts in the 1950s and 1930s in some areas, while not quite 
as severe in others. For California's water supply/reservoir storage, 
this drought is not as bad as the 1988-93 drought.
    Colorado River Basin storage this winter has been the lowest in 
more than 30 years, with Lake Powell at its lowest since 1970, and Lake 
Mead its lowest since 1968. Since Lake Mead began declining in late 
1999, water storage has dropped nearly 40%. Water supply experts in New 
Mexico are telling us that serious shortages will persist in the state 
even with above-normal rain and snow this season, and some reservoirs 
may not even be restored by normal precipitation during the next winter 
season.
    The West is largely a semi-arid region, and water supplies there 
are especially vulnerable to long-term shortages of precipitation. 
Historically, there have been long periods with enhanced precipitation 
as well as long periods with reduced precipitation, often lasting 20 or 
30 or more years. Given the recent period from the 1980s into the 1990s 
had precipitation amounts above historical averages in the Colorado 
River Basin and the Southwest, it is only natural to expect there will 
be periods with lesser amounts of precipitation. In addition, 
population growth has placed increased demands on water supplies, so 
drought vulnerability has increased because of greater numbers of water 
users.

                              THE OUTLOOK

    In order to fully appreciate the long-term outlook for the drought, 
it is helpful to understand the meteorological causes and ongoing 
research issues. Recent research, much of it coming from NOAA 
laboratories or from NOAA funded projects in universities, gives us 
some insight into the factors that we believe contributed to the multi-
year drought. Studies based on collections of statistical and physical 
models show the important role that existing ocean and ground 
conditions play in establishing wind patterns leading to ``blocking'' 
in the atmosphere, an important factor in setting up the weather 
conditions which cause prolonged warm and dry conditions and cause 
reduced rainfall and above-normal warmth. Climate trends should also be 
considered when forecasting the future evolution of a drought. The 
West's climate has been getting warmer for about 20-25 years, 
especially in the winter and spring. These conditions contribute to the 
drought by increasing the rate of snow melt in the spring and early 
summer, and also increase water evaporation.
    For the shorter-term drought outlook, trends in mountain snowpack 
and winter storms, as well as the medium and long-range forecasts of 
precipitation from CPC are emphasized. The spring-summer streamflow 
forecasts from USDA/NRCS and NWS hydrologists are an important 
consideration for the water supply outlook in the West. Precipitation 
from recent storms has been encouraging, boosting valuable snow packs 
in the Southwest, an area which missed most of the storms before late 
February. The recent improvement in the Southwest follows the 
improvement in moisture conditions farther north earlier this winter, 
which resulted in some drought relief across much of the Northwest. The 
official monthly CPC outlook for March suggests at least parts of the 
Southwest may experience above-normal precipitation. The latest 
streamflow forecasts for this spring and summer produced by USDA's NRCS 
show an improvement to near normal for many central and northern areas 
of the West, but below normal for the Southwest. However, we expect the 
March Outlook will reflect the enhanced snowpack and show some 
improvement in the drought conditions for the Southwest.
    Over the medium-term, seasonal forecasts through the next 12 months 
show no strong signals for above or below normal precipitation. The 
lack of El Nino or La Nina development creates much uncertainty in the 
seasonal outlooks, but the fact that the current Pacific Sea Surface 
Temperature (SST) pattern does not greatly resemble patterns associated 
with historical western droughts (e.g., cold water in the eastern 
Pacific) makes us somewhat more optimistic. The latest seasonal drought 
outlook (Figure 2), which combines forecasts for all time periods out 
to the end of May and considers recent trends in snowpack, presents a 
fairly optimistic picture, with likely drought improvement over the 
Great Basin and in the Great Plains. Limited improvement is possible in 
central and southern New Mexico and from western Colorado and eastern 
Utah northward through Wyoming into Montana. Of course, we always 
emphasize that improvement does not mean total relief. As summer 
approaches, reservoir levels are expected to remain below normal in 
many parts of the West.

                          RESEARCH ACTIVITIES

    As our understanding of, and skill in forecasting, the seasonal to 
interannual climate range improves, the ability to fine tune long term 
climate models increases as well. However, predictions for long-term 
climate (herein defined as more than 1 year) at the regional level 
carry an increased level of uncertainty. In order to reduce that 
uncertainty, NOAA continues to invest in research to better understand 
the interdependencies of the ocean and land and the combined influence 
on climate. Recent data shows a warming trend for the past several 
decades over much of the West, especially during the winter season. 
Climate models, using historical data, accurately predict temperature 
increases consistent with this observed long term warming trend. These 
models project the general warming trend will continue for the 
remainder of this century. However, neither climate model predictions 
nor observations show any identifiable trend in precipitation.
    Research at NOAA's Climate Diagnostics Center indicates recent 
decadal swings in precipitation in the West may be largely attributable 
to decadal variations in ocean temperatures, especially in the tropical 
Pacific and Indian Oceans. The causes of these ocean temperature 
variations are themselves not fully understood, but undoubtedly due in 
part to strong natural variability in the coupled atmosphere-ocean 
system, such as occurs with El Nino-Southern Oscillation. Even with 
unchanging total precipitation in this region, changes in temperatures 
may significantly influence the annual water cycle as well as water 
demand, with subsequent implications for water management.
    NOAA continues to invest in research on the causes of decadal 
oscillations in the Pacific and Atlantic oceans and the role they play 
behind long-term drought. In addition, NOAA and sister science agencies 
in Mexico are co-leading the North American Monsoon Experiment (NAME), 
an international effort to enhance understanding of the sources and 
limits of predictability of warm season precipitations over North 
America, with emphasis on time scales from seasonal to interannual. 
Improved understanding and prediction of monsoon rainfall in the 
southwestern U.S. and Mexico is critical for water resource management 
in the region.
    NOAA also supports four university-based Regional Integrated 
Sciences and Assessments (RISAs) programs in the Western U.S. that 
develop and provide improved drought information for decision-makers. 
Each of the four RISAs (located in Washington, California, Arizona and 
Colorado) focuses on regional issues related to assessing drought 
impacts, and improving the use and usefulness of forecasts and 
monitoring products for impact mitigation and cost reduction.
     the role of the president's climate change research initiative
    Mr. Chairman, I would also like to bring your attention to the 
important work begun under the President's Climate Change Research 
Initiative (CCRI) and the U.S. Climate Change Science Program (CCSP). 
Our ability to understand the large and complex forces at work on the 
planet will enable us to help develop high quality information for 
operational use by public works officials, city and county planners, 
forestry experts, and others charged with the responsibility of 
managing natural resources in communities across the nation. Furthering 
the science of climate change also helps policymakers on the local, 
state, and national levels make informed decisions.
    The President's call to advance climate change science and focus on 
the key uncertainties came to fruition in July 2003 when Secretary of 
Commerce Donald Evans and Secretary of Energy Spencer Abraham unveiled 
the Strategic Plan of the U.S. Climate Change Science Program, a ten 
year management plan for climate research in the federal government 
that, for the first time, introduces goals, deadlines, and 
deliverables.
    The Strategic Plan is also a milestone for drought and water 
research. Contained within it are research goals for the following 
areas:

  <bullet> Global water cycle, including measurably improved forecasts 
        of precipitation and other water cycle variables for water 
        managers, and increases in the efficiency of water use through 
        better water models for policy and planning;
  <bullet> Land use and land cover change: identifying past and 
        projected trends in land cover or land use that are 
        attributable to changes in climate, and identifying U.S. 
        regions where climate change may have the greatest implications 
        for land management;
  <bullet> Ecosystems: developing information to support management 
        decisions for agricultural lands, forests, fisheries, and other 
        ecosystems under conditions of environmental change.

    When one takes into consideration the increase in population in the 
western United States and the challenges this expansion poses for 
resource management, the Administration's Strategic Plan comes at a 
critical juncture and will hopefully advance the state of knowledge for 
drought and water research in a way that assists resource managers and 
policymakers in their planning and policymaking.

                   COLLABORATION WITH OTHER AGENCIES

    NOAA collaborates with many state and Federal agencies (e.g., NASA, 
EPA, USGS, and others) and universities to monitor, understand and 
predict drought. For example, NOAA works with USDA and the National 
Drought Mitigation Center in Lincoln, Nebraska to produce the weekly 
U.S. Drought Monitor, which also uses input from many other Federal and 
state agencies as well as feedback from a network of over 100 experts 
around the nation. NOAA works closely with USDA/NRCS on water supply 
forecasting in the western U.S., and relies on the USGS for streamflow 
data critical to both water supply and flood forecasting. NOAA also 
recently began collaborating with Canadian and Mexican meteorologists 
to produce an experimental North American Drought Monitor.
    NOAA's National Weather Service is modernizing its network of 
cooperative observation sites to provide better coverage and more 
accurate measurements to aid in measuring drought. We are working with 
the Western Governors' Association to plan an ambitious program--the 
National Integrated Drought Information System (NIDIS)--to 
significantly enhance our ability to monitor drought across the 
country. Although the biggest challenge for NIDIS is to establish a 
modern, dense network of observing locations to observe and monitor all 
aspects of drought (a national integrated mesonet), the plan envisions 
greatly enhanced access to an entire range of data and information on 
drought conditions, impacts, and forecasts, and supported by a focused 
drought research program. NIDIS involves collaborating with many 
agencies to accomplish its goal, but NOAA will provide key leadership 
to establish NIDIS. We expect that this plan will be presented to the 
western governors at the annual WGA meeting in June 2004.
    For drought forecasting, NOAA's Climate Prediction Center is 
developing techniques to forecast drought over seasonal periods. It 
issues outlooks at least once each month covering the next three and 
one-half months. CPC drought forecasters have been meeting with 
forecasters and researchers both inside and outside the U.S. to explore 
methods to improve the drought outlooks. Advanced forecast methods 
based on statistical and global numerical models will continue to be 
incorporated into drought outlooks, using the best forecasting tools 
and research available.
    As part of NOAA's Advanced Hydrologic Prediction Service, the NWS 
will leverage increasing skill in climate forecasts to provide state of 
the art water supply forecasts for water management and other state and 
regional agencies.
    Outside the West, where many areas depend on water stored in large 
reservoirs, summertime drought forecasts rely on long-term 
precipitation forecasts, and the usefulness of these forecasts will 
always be greatly limited by the arbitrary nature (``hit and miss'') of 
summertime showers and thunderstorms over the U.S. Much work is needed 
to upgrade seasonal and longer-term outlooks. NOAA's research community 
will continue to interact with researchers throughout the country and 
the world in programs, such as this year's North American Monsoon 
Experiment (NAME) activity, to improve climate and statistical models, 
enabling a steady increase in our understanding of the causes of 
drought. Learning the mechanisms triggering drought will enable us to 
better forecast the likelihood of drought development months and years 
ahead of time.
    We are encouraged by recent research that helps to explain the 
reasons behind drought development. It is a continuing challenge to 
produce seasonal forecasts that are consistently accurate. However, as 
with our weather forecasts, we believe we can keep improving.
    Mr. Chairman, this concludes my testimony. I thank you for the 
opportunity to discuss drought and water supply in the West and the 
role NOAA plays in drought monitoring, forecasting and research. This 
topic is critical given the increasing population in the West and the 
increasing demand for drought information to help manage the demand for 
water. I would be happy to answer any questions you or other Members of 
the Committee may have.

    Senator Murkowski [presiding]. Thank you, and we will next 
go to Floyd Gaibler. Good morning.

STATEMENT OF FLOYD GAIBLER, DEPUTY UNDERSECRETARY FOR FARM AND 
                FOREIGN AGRICULTURAL SERVICES, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Gaibler. Thank you, Madam Chairman and Senator 
Bingaman. It is a pleasure to appear before the committee on 
behalf of the Department of Agriculture and discuss what our 
role has been in terms of assisting farmers and ranchers in 
rural communities during times of drought and other natural 
disasters.
    Clearly drought is agriculture's most expensive, frequent, 
and widespread form of natural disaster. Each time drought 
occurs, several questions arise on how best to address the 
losses that are inflicted and how best to prevent, or at least 
mitigate, their costs in the future. There have been a number 
of attempts to address these various serious questions.
    For example, in 1998, Congress passed the National Drought 
Policy Act that created the National Drought Policy Commission. 
The report from that commission stated that this Nation would 
benefit from a national drought policy based on preparedness 
and mitigation to reduce the need for emergency relief.
    An outgrowth of that report was the establishment of an 
interim drought council and that council has met several times, 
most recently last October in Albuquerque. The purpose was to 
establish a coordinated approach to address the impacts of 
drought through preparedness, monitoring, risk management, and 
response to drought emergencies. And among other things, the 
council has developed a web site to increase communications 
between agencies and awareness of what is being done on the 
State and local level.
    While the drought in 2003 was not all-encompassing 
nationwide, it clearly remained entrenched in and across much 
of the Western half of the United States. Several Western 
States, in fact, experienced significant drought conditions at 
the local level.
    The Department has closely monitored the drought through 
collaboration with other Federal agencies that are appearing 
here on this panel today.
    Regarding the current drought status and water supply 
situation, clearly some regional snowpacks have improved 
significantly, but at the same time, others, particularly in 
parts of Arizona, continue to be below average.
    Again, looking at reservoir storage for all Western States, 
except California, it is running below historic averages, 
reflecting the carryover dryness of the continuing drought. 
While a majority of the basins are forecast to receive average 
or slightly above average spring and summer streamflows, a 
number of critical basins are running either below or well 
below.
    In response to these drought conditions, last year 
Secretary Veneman directed the formation of a departmental 
Drought Coordinating Council to more closely monitor these 
conditions and coordinate our resources to assist drought-
affected producers and rural communities. We have in place a 
number of programs to help producers during losses attributable 
to drought. One example is a partnership we have with the State 
departments of agriculture to distribute surplus non-fat dry 
milk for use in livestock foundation herds in drought-stricken 
States.
    In another innovative partnership, USDA agencies have 
worked with the Department of the Interior and the State of 
Oregon to deliver badly needed water to the Klamath Basin 
producers.
    We also have several agencies that have worked to mitigate 
the impacts of drought on grazing land and croplands.
    Through other various programs, the Department has provided 
low-interest emergency loans, funding for non-insurable crop 
losses, cost share assistance to rehabilitate farmland, and 
loan programs for rural areas for new water sources, backup 
source, and new wells.
    Finally, the Department has focused ongoing drought 
research in areas such as mitigation, plant stress, and water 
efficiency, water conservation, soil moisture, and weather 
prediction and remote sensing. We feel that the drought council 
has had a successful program and all of its partnering agencies 
have played a crucial role in improving the capabilities of 
predicting and mitigating the forces of nature.
    In summary, USDA has long supported efforts to mitigate the 
effects of drought on America's farmers and ranchers in rural 
communities. We look forward to working with this committee and 
the Congress to address the many concerns associated with the 
remaining challenging issues surrounding drought and related 
disasters.
    Again, I thank you for the opportunity to appear before the 
committee and we would be happy to entertain any questions. 
Thank you.
    [The prepared statement of Mr. Gaibler follows:]

Prepared Statement of Floyd Gaibler, Deputy Undersecretary for Farm and 
        Foreign Agriculture Services, Department of Agriculture

                              INTRODUCTION

    Mr. Chairman and members of the committee, thank you for inviting 
the Department of Agriculture to testify before this committee. I 
appreciate the opportunity to come before you today to share with you 
what the USDA is doing to help farmers and ranchers in this country 
during times of drought and other natural disasters. America's farmers 
and ranchers play an important role in providing stable, safe, and 
affordable food supplies to the citizens of this country.
    USDA helps ensure the well-being of U.S. agriculture through 
efficient and equitable administration of farm commodity programs; 
loans; conservation and environmental programs; federal crop insurance; 
and emergency and disaster assistance programs. These programs are 
major components of USDA's farm safety net, which helps producers 
maintain viable operations, compete for sales of commodities, and 
contribute to the year-round availability of low-cost, safe and 
nutritious foods.
    Drought is agriculture's most expensive, frequent, and widespread 
form of natural disaster. Drought will occur at some time every year 
somewhere in the United States resulting in substantial losses each 
year. USDA's Federal Crop Insurance Corporation (FCIC) payments alone 
for drought losses have averaged $462 million annually (33 percent of 
total FCIC payments), since 1989. Over half of the total $4.1 billion 
in 2002-crop insurance indemnity payments, or some $2.5 billion, were 
for drought related causes.
    One-half to two-thirds of the counties in the United States have 
been designated as disaster areas in each of the past several years. 
Each time drought occurs, many of the same issues are raised. 
Principally, how much damage was inflicted, on whom, and where? Who is 
going to pay for it? How can we prevent or at least mitigate damages 
and their costs in the future? There have been a number of attempts to 
address these very serious questions.
    For example, in 1998, Congress passed the National Drought Policy 
Act that created the National Drought Policy Commission. The Commission 
submitted its report to the President and Congress in May of 2002. The 
report stated that this nation would benefit from a national drought 
policy based on preparedness and mitigation to reduce the need for 
emergency relief. The Commission's report identified 83 drought-related 
federal programs, including 41 within USDA.
    In October, USDA and non-Federal partners, in Albuquerque, New 
Mexico, jointly hosted the Interim National Drought Council meeting. 
Representatives from drought impacted groups, state/local governments, 
congressional offices, Department of the Interior, Environmental 
Protection Agency, Department of Commerce, Federal Emergency Management 
Agency, Small Business Administration, Department of the Army, and USDA 
worked to establish a coordinated approach to address the impacts of 
drought through preparedness, monitoring, risk management, and response 
to drought emergencies.

                         2003 DROUGHT IN REVIEW

    During 2003, drought remained entrenched across much of the western 
half of the U.S. and in the northern and western Corn Belt, but 
thankfully did not spread nationwide. A lack of moisture for winter 
wheat emergence and establishment also occurred in several key-
producing areas, particularly across the northern and central High 
Plains and the Northwest. Elsewhere, drought was primarily 
hydrological, lowering reservoir levels and reducing irrigation 
supplies.
    Even though the drought was not all-encompassing nationwide, there 
were still quite a number of States and counties that experienced 
significant drought conditions at a localized level. For example, seven 
entire States (Arizona, Arkansas, Maine, Mississippi, Nevada, South 
Carolina, and Utah) received disaster designations by Secretary Veneman 
in 2003. In total, 2,351 counties received disaster designations in 
2003. Of this total, 1,596 counties across 32 States received disaster 
declarations due to drought conditions.
    For a county to qualify for a Secretarial disaster designation it 
must have sustained a 30 percent production loss in a single major 
enterprise, or there must be at least one producer in the county that 
sustained a 30 percent production loss in a single major enterprise and 
is unable to get financing with other lenders in the area at reasonable 
rates and terms.
    In 2004, counties in 25 States, including Arkansas, Colorado, 
Connecticut, Idaho, Indiana, Kansas, Kentucky, Massachusetts, Michigan, 
Missouri, Nebraska, Nevada, New Jersey, New York, North Carolina, Ohio, 
Oklahoma, Oregon, Pennsylvania, South Dakota, Tennessee, Texas, 
Virginia, Washington, and Wisconsin, have applied for Secretarial 
disaster declarations for drought.
    As of March 1, a total of 217 counties in eleven States have been 
designated as primary natural disaster areas by the Secretary due to 
production losses from all causes, during calendar year 2004 to date. 
An additional 248 counties, in 27 States, have been named as contiguous 
counties during the same period.
    In addition, 173 of the 217 primary counties have been designated, 
due to drought and drought related causes during calendar year 2004 to 
date. Those 173 counties represent 5 States. Also, 138 of 2487 
contiguous counties have been named, due to drought during the same 
period. Those 138 counties represent 15 States.
    Lastly, while the economic effects of the 2003 drought have been 
significant for some producers, national crop and livestock returns 
have shown little effect. Despite widespread hot, dry conditions last 
summer, aggregate U.S. yields were up for wheat and feed grains in 
2003. National average corn yields were a record and up more than 9 
percent from 2002. With a rebound in world market prices, crop revenues 
in 2004 are projected at a record $114 billion, compared to $107 
billion in 2003 and $99 billion in 2002. Likewise, despite persistent 
poor forage conditions in the Mountain West and the discovery of a BSE-
infected cow in Washington state, the value of livestock production is 
forecast to be $101 billion in 2004, which would be only the third year 
in which it has exceeded $100 billion.

           WESTERN DROUGHT STATUS AND WATER SUPPLY SITUATION

    The current drought in the interior West is part of a multi-year 
drought that began in 1999, worsened in 2000, and has continued, with 
some interruptions thus far into 2004. As a result, the drought in the 
West was slow to develop, and likewise, will be slow to recede.
    The current drought in the West is primarily hydrological, lowering 
reservoir levels and reducing irrigation supplies. The USDA 
collaborates with several federal and non-federal agencies to produce 
the ``U.S. Drought Monitor'' report. The Drought Monitor is an 
operational product that is released weekly. The product serves as a 
useful tool in depicting the intensity, spatial extent, and potential 
impacts of drought across the country.
    From the February 24, 2004 ``U.S. Drought Monitor'', most of the 
Intermountain West is experiencing some degree of drought. ``Moderate 
Drought'' affects a large portion of the Intermountain West, with 
``Extreme Drought'' affecting the Rocky Mountain States. ``Exceptional 
Drought'' is affecting southeastern Idaho and southwestern Montana, a 
small portion of southwest Wyoming, a small portion of northeast Utah 
and parts of southern Utah, northeastern New Mexico, and southern New 
Mexico. The magnitude of the drought in the West is highly unusual. 
``Exceptional Droughts'' typically have less than a 2 percent chance of 
occurrence, while ``Extreme Droughts'' have a 2 to 5 percent chance of 
occurrence.
    Snowmelt provides approximately 80 percent of the streamflow in the 
West. Precipitation, accumulated as snow in the winter months, melts 
and runs off during the months of April through July. This snowmelt is 
captured in reservoirs for use during the irrigation season of May 
through September. Data is collected on the amount of precipitation, 
runoff, and snowpack content in a given year to anticipate the 
approximate amount of water that will be available.
    USDA's Natural Resources Conservation Service (NRCS) Snow Survey 
and Water Supply Forecast Program installs, operates, and maintains an 
extensive, automated system to collect snowpack and related climatic 
data in the Western United States called SNOTEL (for SNOwpack 
TELemetry). The system evolved from a NRCS's Congressional mandate ``to 
measure snowpack in the mountains of the West and forecast the water 
supply.''
    In cooperation with National Oceanic and Atmospheric 
Administration's National Weather Service, NRCS collects snow 
information through a network of about 680 SNOTEL sites and 900 
traditional snow courses. Using the data collected, NRCS issues over 
11,000 water supply forecasts annually for water users in 11 western 
states and Alaska. Agricultural, municipal, industrial, hydropower, and 
recreational water users are the primary recipients of these forecasts. 
Water supply forecasts and climate information help irrigators make the 
most effective use of available water supplies for achieving their 
agricultural production goals. Farmers who collectively irrigate more 
than 10 million acres of land in the western U.S. benefit from these 
information products. Other Federal agencies and private organizations 
also use water supply forecast information to help them carry out their 
missions.
    Seasonal snowpacks for the period October 1, 2003 through the 
present, improved significantly in the Pacific Northwest and 
Intermountain West when compared to last year's snowpack, which was 40% 
to 70% of average. Current snowpacks are above normal, averaging 125% 
in Oregon and northwestern Nevada. Snowpacks remain near average in the 
Washington, Idaho, Montana, Wyoming, Utah, Colorado, and northern New 
Mexico. In spite of recent storms, snowpacks continue to be below 
average in central Arizona and southern New Mexico, ranging from 65% to 
80%.
    As of February 1, 2004, reservoir storage for all western States 
except California is running below historic February averages, with 
Nevada, New Mexico, Oregon, Utah and Wyoming reporting the largest 
storage deficits. Low storage values reflect carryover dryness of the 
continuing drought in the Intermountain West, Southwest, and southern 
Rockies and last year's below average seasonal runoff.
    As of February 1, 2004 a majority of basins in the Pacific 
Northwest, northern Rockies of Montana and Idaho and central California 
are forecast to receive average, or slightly above average, spring and 
summer streamflows. Conversely, many basins in Arizona, New Mexico, the 
south Platte River of Colorado, and the Bear River of southeastern 
Idaho are forecast to receive well below average spring streamflows, 
less than 50% of average. Most basins in the Intermountain West and 
eastern slopes of the Rockies in Wyoming and Colorado are forecast to 
receive below average spring and summer streamflow, 50% to 90% of 
average.

                    USDA EFFORTS TO ADDRESS DROUGHT

    Secretary Veneman formed a departmental Drought Coordinating 
Council on April 8, 2003, within the USDA, to monitor conditions and 
coordinate resources to assist drought-affected agricultural producers 
and rural communities. The Council is comprised of key USDA senior 
level officials and is chaired by the Deputy Secretary. The Council 
continues to meet on a regular basis. The Council monitors drought 
conditions and coordinates resources to assist affected agricultural 
producers and rural communities.
    We at USDA recognize that drought has resulted in periodic 
degradation to our natural resources and has devastated many farming 
and ranching operations across the country. USDA leads the nation's 
efforts to minimize risks associated with farming and ranching and 
provides critical assistance when drought occurs. We currently have in 
place several programs to help producers enduring losses that are 
attributable to drought. Some of USDA's disaster programs are mandated 
and funded annually by Congress. Access to FSA's low-interest emergency 
farm loans is just one example of such assistance.
    To best meet producers' diverse needs, USDA agencies often 
collaborate with each other and outside partners to deliver dynamic, 
adaptable, disaster assistance programs. One example of this is the 
Farm Service Agency's (FSA) partnership with State Departments of 
Agriculture (SDA) to distribute nonfat dry milk for use in livestock 
foundation herds to twelve drought-stricken States and one tribe.
    In another innovative partnership FSA worked with the Department of 
Interior and the State of Oregon to deliver badly needed water to 
Klamath Basin irrigators. The agencies recharged a principal canal to 
assist farmers and restore the health of the ecosystem. Also, the 
Natural Resources Conservation Service (NRCS) has worked with farmers, 
ranchers and other partnerships in the Klamath Basin to conserve water 
on irrigated farm and ranchlands in the Basin. These measures, 
including converting farmland from flood to sprinkler irrigation, have 
been implemented on over 16,000 acres, resulting in 6,700 acre-feet of 
water being conserved on-farm.
    USDA has developed other innovative ways to help farmers and 
ranchers. USDA provided $857 million Livestock Compensation Programs 
(LCP) I, and provided 253 million pounds of non-fat dry milk to cattle 
under the Cattle Feed Program. Congress later appropriated funds of 
$252 million for LCP II.
    Several USDA agencies work aggressively to expedite drought 
assistance and mitigate impacts. Last year the NRCS stepped up pre-
drought planning and mitigation by applying 30,500 new resource 
management systems on 16.8 million acres of grazing land and, at the 
same time, installing 15,600 irrigation management measures on 1.9 
million acres of cropland.
    The USDA's NRCS implements numerous conservation programs that are 
beneficial for drought mitigation, including conservation and watershed 
planning measures. In addition, cost-share program assistance helps 
agricultural producers experiencing drought. For example, the 
Environmental Quality Improvement Program (EQIP) can address resource 
impairments that are the result of drought. EQIP funds are being used 
to fund the establishment of cover crops or conservation tillage, in 
order to keep wind erosion under control. Other examples include 
incentive payments for prescribed grazing and management of drought-
related pests such as grasshoppers.
    The Ground and Surface Water Conservation component of EQIP is 
utilized to directly assist producers make more efficient use of water 
resources. Examples include converting irrigation systems to less 
water-intensive practices such as drip irrigation, and in some cases 
switching a producer to dryland farming. This program in past years has 
been targeted specifically to assist states experiencing drought. The 
NRCS also provides several conservation programs that are beneficial 
for drought mitigation, including conservation and watershed planning 
measures.
    In 2002, the Noninsured Crop Disaster Assistance Program (NAP) paid 
out approximately $220 million dollars of which it is estimated that 
$147 million was associated to drought. The Emergency Conservation 
Program (ECP), which provides cost-share assistance to agricultural 
producers to rehabilitate farmland damaged or destroyed by natural 
disaster and to provide emergency water conservation measures in times 
of severe drought, provided $17.4 million in drought-related assistance 
to 27 States.
    Drought conditions also brought additional help from the Animal and 
Plant Health Inspection Service (APHIS). Last year, APHIS had treatment 
money available to eradicate grasshoppers and Mormon crickets. 
Increased populations of these insects go hand-in-hand with increased 
drought conditions. APHIS provided treatment assistance in nine states, 
protecting a total of 1.2 million acres.
    In addition, USDA's Rural Utilities Service provides direct and 
guaranteed loans and up to 75% grants for water, waste disposal, and 
solid waste facilities in rural areas. Drought related programs include 
new water source, backup source, and new wells. Fiscal year 2003 
funding totaled $1.4 billion, with $813 million for water purposes. 
While Agricultural Research Service's (ARS) funding for fiscal year 
2003 research was $23 million dollars. ARS focuses on four major areas 
of drought research: Mitigation, Plant Stress and Water Use Efficiency, 
Water Conservation and Soil Moisture, and Weather Prediction and Remote 
Sensing.
    Information on USDA disaster assistance is also available at: 
http://disaster.fsa.usda.gov.
    Reducing this nation's vulnerability to the consequences of drought 
is the cornerstone of USDA's national drought policy. The Drought 
Council is a proactive partnership helping to improve drought planning, 
preparation, and mitigation. The Drought Council and all its partnering 
agencies have played a crucial role in improving capabilities for 
predicting and mitigating the forces of nature. But when drought or 
other natural disasters do strike, USDA is continuing to help farmers 
survive and overcome adversity.

                               CONCLUSION

    Drought is perhaps the most obstinate and pernicious of the 
dramatic events that Nature conjures up. At its most severe, dust bowls 
once eroded the American landscape, causing hundreds of millions of 
dollars in losses, and dashing hopes and dreams for thousands of 
families. Today drought is still agriculture's most expensive, 
frequent, and widespread form of natural disaster that continues to 
perplex and inflict its misery on our nation's farmers and ranchers.
    The National Drought Policy Act of 1998 presented this country with 
a significant opportunity. The law recognized the need to prepare for 
and lesson the severe impacts of drought on the American people and the 
environment. It created the National Drought Policy Commission to 
advise Congress on formulation of national drought policy based on 
preparedness, mitigation, and risk management, rather than on crisis 
management.
    Oftentimes, USDA's role lies at the forefront of disaster relief 
and management for producers throughout the nation. When disaster 
strikes, USDA has programs and assistance that can be made available to 
help producers recover crop losses, the cost of rehabilitating 
farmlands, and for emergency water assistance.
    In summary, USDA has long supported efforts to mitigate the effects 
of drought on America's ranchers and farmers. We look forward to 
working with Members of Congress to address the many concerns 
associated with the challenging issues surrounding drought and related 
disasters.

    Senator Murkowski. Thank you all, gentlemen. I appreciate 
your testimony here this morning.
    As the chairman of the Subcommittee on Water and Power, I 
have an opportunity to spend a lot of time focusing on this 
issue, and I appreciate you coming before the full Energy 
Committee this morning to give this update.
    In our subcommittee, we have been looking at very specific 
projects, the CALFED/Bay Delta Authorization Act, the Gila 
River water settlement. We are going to be taking up rural 
water supply legislation next week, and we are also going to be 
looking at proposals for desalinization projects, as well as 
hearings on dam safety. I think some of you will be joining us 
at those upcoming hearings.
    But as you certainly have recognized in your testimony 
today, the issues of supply and demand as they relate to water 
and how that affects economy, how it affects our agriculture, 
really how it affects how we live in this country is quite key. 
So I appreciate all that you do in bringing your perspectives 
this morning.
    The first question is more a general one to those of you 
who would choose to speak up on it. You have each testified 
about key data collection and resource assessment activities. 
You have certainly brought a good deal of insight from your 
perspective, but the interaction between the various agencies--
one could suggest that there is a haphazard approach or 
coordination between agencies, States. I guess I would ask if 
it is fair to characterize the cumulative Federal effort to 
understand water resources, predict future water resource needs 
and supplies and build a basis for the best possible 
management--would you suggest that it is poorly coordinated? 
Give me your perspective on that coordination between the 
various agencies on this.
    Mr. Raley, do you want to go first?
    Mr. Raley. Thank you, Senator. A pleasure to be here.
    Yes, I would say it is poorly coordinated not through the 
fault of any individual, but as we have developed a water 
policy particularly in the West for the last 100 years, there 
have been assignments given by Congress to a wide range of 
different agencies. As much as all try, we have difficulty 
keeping each other up to speed on the latest developments.
    Senator Murkowski. How can we improve it?
    Mr. Raley. Well, I am aware of efforts to have, in essence, 
one-stop shopping on the web using the President's e-gov 
initiative and drought research and tools that are largely 
driven by and the responsibility of agencies outside of the 
Department of the Interior. We looked at it because the USGS, 
which is a part of Interior, has a role in this in terms of 
gauging and some research, but concluded that it would be 
counterproductive for us to assume that the Interior Department 
should be the focal point for that data collection, that we 
should coordinate with USDA and NOAA because they were working 
with the Western States Governors Association, pulling together 
this goal of one-stop shopping in terms of information. So I 
think continued focus by all agencies, with assistance from 
Congress in terms of helping us keep that focus, would be 
helpful.
    As to planning for drought, I would observe that we have a 
longstanding and deeply rooted policy of federalism with 
respect to Western water issues, which means that the Federal 
Government's proper role is to some degree subservient to the 
States that have the lead role on water policy and allocation. 
That inherently means that we have 17 subsets of Federal water 
policy, and that is the way the West has wanted it. And at 
Interior, we certainly support that.
    Senator Murkowski. Anybody else? Any comments on how we can 
improve the coordination?
    Dr. Uccellini. Yes, I would like a few comments. I think it 
is fair to say that there have been improvements over the past 
10, 15, 20 years in terms of coordinating on data amongst the, 
for example, National Weather Service and the Department of 
Agriculture and USGS in terms of receiving data that we need to 
make forecasts and us providing data and information that 
people need to make decisions.
    But having stated that, it is also clear that much more 
needs to be done in terms of coordinating existing and planned 
data, especially remotely sensed data and how the information 
is used in the decision-making process. It not only influences 
the decision-makers but influences those who are providing that 
information, especially as we are working towards improving our 
forecasts and trying to describe the uncertainties in those 
forecasts to those who have to make decisions.
    So a focused effort on a problem like drought helps bring 
this together both in terms of data that goes in to analysis 
and forecast systems and how the information then comes out of 
the forecast system and is used by decision-makers.
    There is an ongoing activity that is actually coordinated 
through the Western Governors Association. It is a National 
Integrated Drought Information System, NIDIS. It is in a draft 
phase. It is a drought early warning system for the 21st 
century and it is trying to bring these issues together in 
terms of how we best use the observations, how we make that 
coordination function happen more efficiently and bringing all 
these observations together, and then again, getting the 
forecasts out to the decision-makers in a more effective 
manner.
    Mr. Gaibler. I would just make the observation that from 
our experience the Interim Drought Council I mentioned is a 
good vehicle to try and bring together everything that is being 
done across our various agencies to attempt to broadly address 
the drought issues and also to build a better relationship with 
the States and the affected communities and producers that are 
directly impacted by that. I believe that there could be better 
and closer coordination and efforts behind that council 
process. It is one area, at least from our perspective, that we 
could recommend that could be improved.
    General Grisoli. Senator, I would like to agree with my 
colleagues on their comments so far.
    I would like to add that the more I got into this 
particular area, having been serving in the Pacific Northwest 
in the Missouri River and the Columbia River basins, the basins 
are done differently, each handled a little differently with 
the Federal agencies, and I can see that we probably could 
learn from each other a little bit more about how we interact 
with State, Federal, and our other stakeholders by sharing 
information between the basins, handling some of the many 
challenges. They are very different and complex, but some 
things they share which are the same, which is making sure we 
share information and we work together as a team to solve 
problems.
    Senator Murkowski. Mr. Raley.
    Mr. Raley. Senator, if I could add. When Secretary Norton 
decided to look at these water policy issues that are within 
the purview of Interior, we were very aware of the recent 
history of what was, I believe, started by Senator Hatfield 
from Oregon of the Western Water Policy Review Commission. That 
was a well-intended effort. As I understood it, the goal for 
that effort was to attain coordination between the agencies, 
the heart of your question. My personal observation is that a 
lot of people put a lot of time and put a lot of money into 
that effort, and I would say that it is difficult, if not 
impossible, to identify any consequence of all that work.
    Secretary Norton and the Interior Department were very 
aware of that well-intended effort and the fact that it has had 
virtually no impact on water policy, and that is why Water 2025 
focuses on things that we know can be done on the ground to 
make a difference. There is something in the middle there, I 
recognize, between the laudable and absolutely essential 
objective of having coordination which will always fail that no 
matter how hard we try, but we have to make that effort. Moving 
forward with reality and dealing with things on the ground, 
there is something in the middle there.
    But we are quite reticent as a Department, particularly 
given our strong adherence of principles of federalism to tread 
the same path as was trod for the last 8 years because we are 
not sure that we would end up with a different result, and we 
are fairly certain that even if we came to a different 
conclusion in theory, the consequences on the ground might be 
the same as they were and are of the Western Water Policy 
Review Commission, which is virtually nothing.
    Senator Murkowski. Well, I will come back. I want to ask a 
question or two about the Water 2025.
    Senator Bingaman, would you like to ask a couple questions 
here?
    Senator Bingaman. Thank you very much, Madam Chairwoman.
    Let me start just trying to follow up on the same line of 
questioning. I am struck by a couple of different statements 
contained in the testimony. Dr. Uccellini, you have this 
statement in your testimony where you say mountain snowpack is 
like money in the bank for Western water supplies as the 
snowpack contributes anywhere from 50 to 80 percent of the 
water supply in the region. I do not think anybody who has seen 
the benefits of a good snowpack would disagree with that.
    There was an article that was put out last month by the 
Pacific Northwest National Laboratory where they reported on a 
study that one of their scientists did where they concluded 
global warming will diminish the amount of water stored as snow 
in the Western United States by up to 70 percent in the coastal 
mountains over the next 50 years.
    So it strikes me that we seem to have agreement we ought to 
have a policy to deal with the problems of drought. Most of the 
problems of drought are directly related or going to be 
directly related to whatever this phenomenon is of global 
warming, the warming of temperatures and the elimination of 
snowpack that results from that.
    Would you agree that is a big part of the problem which is 
leading to this prospect of sustained drought throughout the 
West?
    Dr. Uccellini. Well, it is very clear that the climate 
pattern dictates the long-term precipitation regimes and the 
weather features that produce these snows and rains that we 
need for our water resources. So as that climate changes, there 
will be changes in such things as storm tracks which produce 
snow and rain. One of the areas of very intense research is 
linking these climate changes to these types of weather 
features that will produce your winter snows, the spring and 
summer rainfall.
    There is a lot of controversy involved in how one goes 
about modeling these factors, but there is increasing progress 
being made in getting consistent, say, postmortems done over, 
let us say, the past 30-40 years in terms of how things have 
evolved with respect to what we have been able to observe and 
then try to use those same models and project out into the 
future.
    What we are seeing is that the models are converging 
towards a warming atmosphere, especially in the mid latitudes 
and up towards the poles. But the effect on the precipitation 
is still indeterminate in the sense that there are still wide 
variations in the weather patterns within the climate changes. 
As our testimony indicates, we are being cautious in how to 
extract what we have been able to learn about the use of the 
models for temperature forecasts out into the future in terms 
of making precipitation forecasts.
    One other factor that we are----.
    Senator Bingaman. Finish up quickly because I am going to 
be out of time before you finish answering that first question.
    Dr. Uccellini. We cannot discount the importance of the 
oceans and the ocean evolution in terms of what is going to 
happen with the climate and respective storm tracks. We are 
really just coming to grips with the ocean atmospheric coupling 
which we have shown is important for our rainfall and snowfall 
over the Western United States, but exactly how to use that and 
project into the future is still uncertain at this time.
    Senator Bingaman. Let me shift to another issue. Secretary 
Raley, I wanted to ask you. The Department's publications, 
particularly with regard to Water 2025, constantly mention 
Klamath River and the Middle Rio Grande basins as serious 
problem areas that you need to deal with. Unfortunately, it 
seems to me that your treatment of the two basins is extremely 
different.
    In the fiscal year 2005 budget, the Department has proposed 
a cross-cut budget of $67 million to address problems in the 
Klamath Basin, using resources from Reclamation and the USGS 
and the Fish and Wildlife Service and the BLM and the BIA and 
even the Park Service. And so you have that cross-cut budget.
    In the case of the Middle Rio Grande, as I read what you 
are proposing, it is a cut of $9.5 million from Reclamation's 
budget for the Middle Rio Grande ESA compliance, leaving only 
$5.9 million for fiscal year 2005. And to add salt to the 
wound, the Fish and Wildlife Service has eliminated any funding 
for the Middle Rio Grande bosque initiative.
    Why is it not appropriate to do a cross-cut budget for the 
Middle Rio Grande like you do a cross-cut budget for the 
Klamath Basin and try to provide adequate funding to actually 
do what this 2025 initiative says needs to be done?
    Mr. Raley. Senator, you make a point that is quite 
appropriate in terms of timing because, as you know, we are 
working through the next budget cycle, and I think it would be 
entirely appropriate to have, for the next budget cycle, a 
cross-cut budget that focuses within the Department on 
identifying all opportunities in the Department to deal with 
the complex issues in the Middle Rio Grande.
    I would suggest one of the issues is we have wanted to be 
very respectful in the Middle Rio Grande of local complexities, 
and we are waiting for some of the processes that are ongoing, 
have been ongoing for some time, to ripen further so that we do 
not put ourselves in a place of the Department of the Interior 
telling the people of New Mexico what the answer is. As you 
know, your constituents have quite diverse opinions, and I 
think they are making progress towards finding a common ground, 
but more work is yet to be done on the ground.
    Senator Bingaman. Well, I can assure you even those who are 
jealous of their prerogatives are not offended when resources 
are provided, and so I would urge that you look at that again. 
Thank you.
    Mr. Raley. Thank you, Senator.
    Senator Bingaman. Let me also ask about the Ogallala 
Aquifer. This is not an issue which I think was dealt with in 
any of the testimony. At least, I did not hear it. I have been 
concerned for some time about the depletion in the groundwater 
in the Ogallala Aquifer, particularly in eastern New Mexico and 
west Texas and some of the other States in that area. We passed 
legislation through the Senate to provide additional authority 
to the Geological Survey to work in cooperation with the States 
to map and characterize and model the High Plains Aquifer.
    I would ask you, Secretary Raley, is this something that 
you in the Department of the Interior could get behind and help 
us persuade the House to pass?
    Mr. Raley. Senator, this effort is actually something that 
I have some nominal experience with, going back to a job I had 
in college, which was working out on the ground interviewing 
people about declining aquifer rates. I have watched that issue 
in the studies over time.
    One of the policy issues that we have raised, understanding 
that there are very severe consequences in local communities to 
the rate of drawdown is what the marginal return is for greater 
specificity in the modeling--in other words, what we can 
produce--and I have no lack of confidence that the USGS can 
always produce yet more models, better models, and provide more 
predictive tools.
    Given that these decisions, with respect to groundwater 
management, are made by the States, we are wondering what the 
added value is for yet a better model when, quite frankly, we 
understand the trends. We understand what drives the trends of 
drawdown for this resource. It tends to be agricultural prices 
and energy prices and the profitability of drawing the water. 
We are trying to make sure that the money that is spent on this 
effort results in information the decision-makers like you can 
use, and that is what we are struggling with.
    Senator Bingaman. Well, let me give you an example of how 
we could use that information here in the Congress. Last 
Congress, in the farm bill, we included a provision for an 
incentive program for groundwater conservation. We put in there 
some funding to assist farmers who would be willing to shift to 
more efficient methods of irrigation.
    I was going to ask Mr. Gaibler, if you could tell us 
whether or not this program is working in your view, whether 
this demand for funding is what you expected, if additional 
funding is needed, and how many upgrades of irrigation 
equipment have occurred? Do you have any kind of report you 
could give us on any of that?
    Mr. Gaibler. Yes, Senator. We do have some information that 
was provided in my testimony that describes various irrigation 
measures, management measures, that have been implemented, as 
well as installing 15,600 irrigation measures on about 2 
million acres of cropland. Through another one of our programs, 
the environmental quality incentive program, cost-share 
assistance funds have been provided for the establishment of 
cover crops and use of conservation tillage to keep wind 
erosion under control. Other areas of increased focus of water-
intensive practices such as using drip irrigation and in some 
cases trying to provide farmers incentives to produce crops 
that have less water-intense use.
    As to the specific levels of funding, I would be happy to 
provide you more specifics, and further identify if there are 
shortfalls where we are not able to meet those demands.
    Senator Bingaman. Let me just make one other comment and 
then I will stop, since I assume my time is up, although we do 
not seem to have a timer operating today.
    I do think that if we are going to have good forward-
looking policies adopted at the State level or at the Federal 
level or at the local level, with regard to water use out of 
these aquifers, we need the best information we can get. This 
is one small example of what the Federal Government might be 
doing and it possibly could do much better. Clearly the States 
and localities could do a better job if they had more reliable 
and timely information about the extent of the depletion of 
that underground aquifer.
    Thank you very much, Madam Chairman.
    Senator Murkowski. Mr. Raley, just quickly on Water 2025. 
Obviously, some very good, very positive things coming out of 
the administration there, the Challenge Grants program. I am 
pleased with the administration's efforts to expand the 
management of the invasive plants like the salt cedar and the 
Russian olive.
    The desire to provide new technology is also exciting, but 
there is an aspect of funding that when one looks at it, you 
say, well, this is a little bit troublesome here, and this 
specifically as it relates to funding desalinization, reuse, 
and a few of the other programs. In 2004, it seemed that we 
were looking at some increases in funding, but the 
administration's 2005 budget clearly has devalued certain of 
these programs and eliminates much, if not all, of the previous 
year's gains.
    So I would ask whether the administration supports the 
desalination and other water purification technology 
development as a key to one of our long-term solutions, and if 
that support is there, why we have seen the decreased support 
for the desalination R&D and other programs that would expand 
these water supplies.
    Mr. Raley. Senator, we are very supportive of Interior's 
role as a participant in driving the research for 
desalinization as far and as fast as possible. Our 
understanding is that the primary factors affecting the 
economic viability of desalinization, whether it be sea water 
desalinization or brackish groundwater desalinization, which is 
also of interest to the Department, given the vast areas, some 
of which need clean drinking water, that Interior deals with--
the two drivers are energy costs and disposal costs of the 
brine or whatever else that is taken out of the water so that 
it is drinkable.
    There are gains to be made in technology that we do not 
want to look past, but our assessment was that, to be very 
blunt, Interior's ability or appropriate role on desal is to 
contribute its part with respect to funding the research to 
drive it as fast as possible so that the benefits of that could 
be shared nationwide and even internationally. People are 
interested in these technologies from basically all the 
southern coastal States. So Florida is interested. Texas is 
interested, clearly California, as well as areas inland.
    Given that we have other demands, our intent all along has 
been to take what we have, focus it on research, and let other 
agencies, some of whom are sitting at this table, take the lead 
on other aspects of alternative water supply development, all 
of which are great. It is just that Interior cannot be all 
things to all people, and it does not have an inherent role or 
capability, say, to be the best waste water treatment plant 
engineers in the world. That is expertise that is either at the 
State and local level or at EPA or elsewhere in the Federal 
Government. And we thought it appropriate and most effective to 
let them take the lead and that we would focus on the research 
side in desalinization, and then within that policy parameter, 
we want to stretch people's money as far as we can and spend it 
most effectively. That is why the President sends a budget to 
you so we can engage on exactly how we achieve that common 
goal.
    Senator Murkowski. As far as the other goals set out in 
Water 2025, are there additional authorities that are needed by 
the administration in order for these to be effective?
    Mr. Raley. We believe we have adequate authority with 
respect to research, although depending on how the research 
road map that I believe Senator Domenici had a role in and 
others on this committee in having Interior proceed, depending 
on the direction that that research road map goes, it may be 
possible we would need additional authority in the future. We 
think we can continue to play the role that we think is 
appropriate for Interior.
    Again, there are six to nine agencies in the Government 
that deal with desalinization. We do not see desalinization as 
one that inherently should or has to be an Interior function. 
If it can be done more effectively in the Department of Energy 
or by the Department of Defense, we just want the job done and 
are not trying to protect a program just because it happens to, 
for historic reasons, live within Interior.
    Senator Murkowski. Now, I am assuming that Water 2025 will 
overlap with the administration's proposed rural water program, 
and I am hoping that we have got your commitment that we will 
work together to refine these legislative proposals for rural 
water and get those worked through.
    Mr. Raley. Absolutely, Senator. We have been quite anxious 
to get this legislation up to you. We understand that from an 
Interior standpoint and obviously from the perspective of 
members of your committee, this is an important issue. The 
legislation that has been forwarded to you is our attempt to 
proceed with this issue from an Interior perspective.
    I would note, though, that this is another issue that, 
first of all, has got national applicability, and Interior's 
water supply role is limited to the 17 Western States. There 
are many communities that have an interest in this and Interior 
does not necessarily have a role in those areas and probably 
should not.
    If we were to look for progress in good government, over 
time I think that the administration, any administration, is 
going to need to engage with the Senate and the House in 
figuring out what we as a Nation are going to do about these 
rural areas that need drinking water and perhaps rethink this 
scattering of something like nine programs that do it to see if 
there is an opportunity to do it more effectively. We have just 
provided you with our slice of it.
    Senator Murkowski. Gentlemen, thank you for your testimony 
this morning. There are other questions that we have here and 
we will submit those to you in writing for your response. I 
appreciate your time in joining the committee this morning. 
Thank you.
    With that, we will call up the second panel, Mr. Craig 
Bell, executive director of the Western States Water Council, 
and Mr. Tex Hall, president of the National Congress of 
American Indians.
    Good morning, gentlemen, welcome to the committee. Thank 
you for joining us. Mr. Bell, if you would like to proceed with 
your testimony.

  STATEMENT OF CRAIG BELL, EXECUTIVE DIRECTOR, WESTERN STATES 
                         WATER COUNCIL

    Mr. Bell. Okay, thank you. The council that I represent 
consists of representatives appointed by the Governors of 18 
Western States. We work closely with the Western Governors 
Association, and so we have a vital interest in the subject of 
this hearing. In fact, a letter was prepared by the Western 
Governors Association to accompany this testimony and is 
attached to my written statement. We commend it to you.
    We think this is, of course, a very important subject as we 
grapple with the conditions of extended drought in the West. 
States in the West are the primary managers of water, and so we 
show keenly the impacts of the drought and have witnessed 
firsthand the extent of the drought over these several years 
now.
    I remember last year, when we were visiting at a council 
meeting in Nevada, we went around the table and talked about 
drought conditions, as is our wont these years. The State 
engineer from Nevada remarked that things had been so dry in 
Nevada that he had 3-year-old fish who had not learned to swim.
    [Laughter.]
    That sort of summed things up in terms of how things are 
going in the West. Similar stories could be reflected.
    We find that drought, of course, is not uncommon in the 
West. It is sort of the state of affairs from time to time. It 
is the nature of things in the West. But this drought, in 
particular, is of historic proportions, and part of the reason 
is the West has changed since the drought of the 1930's and the 
1950's, to which this drought is comparable. The West has grown 
significantly. Growth has been phenomenal. It continues. So the 
challenges for the West have grown commensurately. The cities 
have grown. Rural communities continue to need supplies. So the 
challenge has grown tremendously in terms of providing a water 
supply, and that of course, is exacerbated when there is a 
shortage, when drought occurs.
    We have noticed that drought affects virtually every sector 
of the economy. The agricultural sector has been hit very 
significantly, but also the environment. There have been very 
detrimental effects to the environment and to many other areas 
of the economy. Virtually everything is dependent on water in 
the West, and so you can imagine that virtually every sector 
and interest in the West is affected when we do not have enough 
water.
    What I thought I would focus on today is some of the 
effects that are not sometimes discussed. That is, we are 
generally aware of the economic impacts. They are in the 
billions of dollars and, as I say, attached to every sector of 
the economy.
    But there are also other kinds of impacts that are not so 
easy to quantify. These are exemplified, as this committee 
knows, in situations that occurred in the Klamath River basin 
and the Middle Rio Grande.
    Many will disagree about the factors that led to those 
situations. The Endangered Species Act, of course, plays a 
significant role. But while people will disagree about the 
factors that led to those situations in the Klamath and the 
Middle Rio Grande, I think everyone agrees that they were 
precipitated in large part by drought conditions, that is, 
there was a severe and sustained drought which led to those 
conditions in the Klamath and the Middle Rio Grande.
    So I guess one of the things I would say is that one of the 
things that drought leads to in the West and elsewhere is 
conflict among competing uses of water. As I mentioned, cities 
have grown tremendously. That growth continues. But also there 
have been other kinds of demands that have increased, that is, 
demands for instream uses, for fish and wildlife habitat, for 
the environment, for aesthetic values. Often those values are 
represented by Federal laws.
    So one of the things that water managers in the West must 
deal with is the integration of Federal and State 
responsibilities for water management. That is a difficult task 
at best. It becomes more difficult in times of drought. We saw 
that in the Klamath and the Middle Rio Grande.
    We as the Western States Water Council, consisting of 
States, working with the Western Governors Association, have 
endeavored to provide a forum where people, State water 
managers in particular, could learn to integrate Federal and 
State responsibilities, those interests that are reflected in 
Federal law, as well as State law, in water in the West. But we 
have found that that becomes very difficult during times of 
drought. So that is one of the impacts that are sometimes not 
identified with respect to drought.
    We have some ideas generated about how that might improve. 
We, like Assistant Secretary Raley, have found that the Federal 
response has been poor in terms of coordination, not because of 
their best efforts and intentions, but because of the nature of 
their authorities. There is no coordinated system for 
addressing drought, and we think that is a need that needs to 
be addressed.
    We also feel that we need better information. Part of the 
problem is that we lack information about vital information 
that affects drought, that impacts the West because of drought. 
That could be remedied if we could improve those programs that 
provide information to western water managers.
    Two programs that we would single out are the U.S. 
Geological Survey's cooperative water program and the Natural 
Resource Conservation Services snow survey program. Both those 
programs provide vital information, especially in terms of 
drought. And we hope the Congress might give them appropriate 
attention as they are asked to make decisions about the budget 
for those programs. They are of vital interest to the West.
    Lastly, I would commend to the Congress support for passage 
of S. 1454, the Drought Preparedness Act of 2003. The letter 
from the Governors that you will find is to that effect. We 
think that it has much to commend it. We think that would offer 
a number of things that would be helpful in preparing for and 
responding to drought. It would get us away from this ad hoc, 
fragmented approach to drought to a proactive approach that 
relies on preparedness as much as response. It would help 
deliver more effectively current drought programs at the 
Federal level. It would provide new tools for drought planning 
and preparedness, relying on existing processes and watershed 
councils, and it would also establish a national integrated 
drought information system, a bill that would create a vastly 
improved drought monitoring and forecasting system.
    In other words, in summarizing my statement, I would say 
that the drought preparedness bill, as fashioned by members of 
this committee and others, would help us not only improve our 
ability to respond to emergency conditions but also to manage 
water in the West more effectively and efficiently. It would 
provide us leverage to deal with this greater problem of water 
supply for the future.
    Thank you for your time.
    [The prepared statement of Mr. Bell follows:]

         Prepared Statement of Craig Bell, Executive Director, 
                      Western States Water Council

    My name is Craig Bell. I am Executive Director of the Western 
States Water Council (the Council). The Council is comprised of 
representatives appointed by the governors of eighteen western states. 
The Council has been charged with fostering interstate cooperation in 
water resources and protecting vital state prerogatives with regard to 
the management of water resources in the West. In so doing, we are a 
formal affiliate and work closely with the Western Governors' 
Association (WGA). Both organizations have followed closely drought 
conditions over the past five years, examined the impacts of these 
conditions, and have formulated proposals to help the West strengthen 
its capacity to cope with such conditions.
    In preface to my statement, I wish to join the WGA in commending 
the Committee for holding this hearing. As you know, and as the 
testimony at this hearing will confirm, the impacts from the drought in 
the West--and across the Nation--have been enormous. I further wish to 
express appreciation for this invitation to participate at the hearing. 
States in the West continue to play the pivotal role with regard to 
water management. Given that role, states are acutely aware of the 
impacts of the significant drought conditions that have plagued the 
West in recent years. These impacts include low water supply 
conditions, leaving many localities to request or require water 
restrictions, low well levels or dried up wells, widespread record or 
near-record low stream flows and dismal snowpack in many parts of the 
West, devastating wildfires, and billions in losses to the agricultural 
sector, to the environment (endangered species, water quality, soil 
erosion/degradation), recreation, tourism, and energy, to name some.
    This year has brought some relief, but precipitation has not been 
sufficient to ease drought conditions in many core drought areas, where 
significant moisture deficits have built up over the past several 
years. According to NOAA's Climate Prediction Center, some improvement 
through May can be anticipated, and some impacts are likely to ease. 
``However, deficient precipitation has impacted much of this region . . 
. from the Rockies to the West Coast states . . . for several years 
now, and accumulated long-term deficits remain quite large in many 
areas, equaling more than a typical year's worth of rainfall in some 
places,'' according to the most recent Drought Monitor, an interagency 
report (on March 4, 2004). It is important to note that it will likely 
take substantial above normal precipitation for an extended period 
before the West can recover from the current multi-year drought.
    In the arid West drought is not uncommon and significant 
fluctuations in water supply are the norm. Nevertheless, the current 
drought is of major proportion. Further, the West has changed 
significantly since the droughts of the 1930s and 50s, with which the 
current drought is comparable. The West is no longer a predominantly 
rural area, but the most urbanized in the country. While growth is 
occurring throughout the West, much of it is occurring in the West's 
urban centers.
    In 2000, the estimated population for the seventeen western states, 
plus Alaska and Hawaii, stood at over 90 million with accompanying 
demands for food, fiber and power. In addition to many rural 
communities, cities across the West have entered the new millennium 
with an old challenge--finding the water necessary for present and 
future uses.\1\
---------------------------------------------------------------------------
    \1\ Western States Water, Issue #1338, January 7, 2000.
---------------------------------------------------------------------------
    As a result, cities exercise more influence regarding water 
allocation, particularly in time of drought. Further, public support 
has increased significantly for instream values, water for fish and 
wildlife habitat, recreation, and aesthetic values. Many of these 
values are represented by various federal laws which must be considered 
as part of the responsibilities of state water managers in allocating 
this precious resource. Thus, the job of water managers in the West is 
becoming increasingly challenging. This challenge is substantially 
exacerbated during times of drought. Water scarcity--in the face of 
increasing demands--has led to growing conflicts between and among 
different categories of water users. Two examples may be illustrative.
    I'm sure everyone here is aware of what happened in the Klamath 
River Basin in 2001. Water to the Klamath Project was shut off under 
the auspices of the Endangered Species Act, after biological opinions 
by the National Marine Fisheries Service and the United States Fish and 
Wildlife Service determined that low water levels in the basin were 
threatening endangered sucker fish and threatened Coho salmon. As the 
head of the Oregon Water Resources Department said recently: ``While it 
may be argued that these [federal] laws just `overlay' but do not 
displace state water allocation primacy, there is no question that they 
have yet to be seamlessly integrated into state allocation systems and 
thus have fueled the conflicts. . . .'' He further categorized the 2001 
Klamath Project water supply cut-off as perhaps ``the best example of a 
chaotic, inequitable, lose-lose outcome in Oregon. As a result, Klamath 
farmers lost water and livelihoods; wildlife refuges lost water and 
biological functions; tribes lost support for habitat improvements and 
reservation land restoration; government agencies lost credibility and 
partnerships; and conservation interests lost support for a species 
recovery and the ESA. Time, energy and money were diverted from the 
resource restoration mission and needlessly expanded in the combat.''
    In Oregon and elsewhere in the West, efforts are being made to 
better integrate and coordinate state and federal environmental and 
resource management laws. But this challenge is made significantly more 
difficult in the presence of drought. While many may argue about the 
factors that resulted in the Klamath Project disaster, everyone agrees 
that a substantial contributing factor was the drought with about 55% 
of normal precipitation.
    A federal district court judge in New Mexico likewise ordered 
reductions last year in deliveries to traditional water users to 
preserve the endangered silvery minnow. While subsequent actions 
precluded this action from taking place, it underscored not only the 
complexity of the task of integrating federal and state laws relating 
to water resource management in the West, but also the impacts of 
drought. The Middle Rio Grande had experienced severe drought 
conditions leading to the federal judge's unprecedented order. The 
merits of that order, as well as other factors associated with efforts 
to preserve the habitat of the silvery minnow, have been and will 
continue to be debated. However, no one debates that the situation was 
precipitated in large part by significant and extended drought 
conditions. In this way, drought, in addition to causing direct 
economic impacts to various sectors of the economy, exacerbates the 
difficulty of efforts to integrate appropriate federal and state 
responsibilities throughout the West.
    Notwithstanding the difficulty, state water resources agencies have 
taken many innovative steps to facilitate the movement of water from 
areas of relative abundance to areas where water is more scarce during 
times of need. Sometimes such actions have been taken on a temporary 
basis, in response to drought or other emergencies, while other changes 
in the nature of use have been made permanent. During times of drought, 
when surface waters are even more scarce, water users of all types seek 
different alternatives. Some can access ground water reserves less 
vulnerable to drought in the short term. Some increase conservation 
efforts and make do with less or simply must do without. Others may 
seek temporary changes in the place or purpose of use. Water moves 
between users on both a formal and informal basis. Many users have 
found the use of dry-year leases and other legal mechanisms useful in 
providing greater certainty during times of drought. Not all states 
have access to the same mechanisms. However, states can expedite 
permitting of temporary uses, such as wells, and temporary transfers 
among or between different users. Where necessary and possible, states 
facilitate emergency uses.
    Ground water recharge and banking are of growing importance in 
leveling out temporal differences in surface water supplies. Water 
reuse and desalting technologies are increasing access to previously 
unavailable or excessively expensive alternatives. Surface water 
storage has long proven its benefit to the West and continues to do so 
during these times of drought. Of note, a Western States Water Council 
survey of state needs for the Western Water Policy Advisory Commission 
in 1996 identified an almost universal need for more water storage. 
While the economic and environmental costs of major new surface water 
storage dams and reservoirs is often prohibitive, new projects have 
been built, sometimes privately, to secure public water supplies.
    In this context, the Western States Water Council serves as a forum 
for ongoing efforts to try to integrate state water rights law and 
administration of that law with federal reserved rights and the 
requirements of federal environmental laws. In so doing, the Council 
has actively and consistently supported adequate funding for state and 
federal water resources related data collection and dissemination 
programs. This information is vital and even more important during 
drought when decisions regarding the use of available waters are 
especially critical. Decision makers remain hobbled by a lack of sound 
data in many areas sometimes stumbling towards necessary actions in 
response to drought and other instances where water uses must be 
balanced with supplies. Many state and local agencies are cooperators 
in federal water resources data collection and analysis programs. Two 
of particular importance to state water administrators are the U.S. 
Geological Survey's Cooperative Water Program and the Natural Resources 
Conservation Service's Snow Survey Program.
    The latter a few years ago was almost in ruins, due to flat federal 
funding in the face of ever increasing costs. The Congress, with the 
urging of the Council, added a small amount (about $2.5 million) that 
went a long way towards rehabilitating aging information collection 
infrastructure in order to keep this irreplaceable data available for 
myriad water users and decision makers. Still, internal agency budget 
restructuring and accounting for federal employees benefits sometimes 
threatens adequate continued funding. Similarly, the USGS Cooperative 
Water Program and other water programs face continual cost increases 
that are sometimes beyond their control and flat federal funding that 
has led to a long-term decline in the quantity and quality of data on 
streamflows available to decision makers. State and local agencies 
under the Coop Program now fund two-thirds of what was once a 50%-50% 
federal matching program, and many streamgages have been abandoned, 
including irreplaceable gages with over 30-years of continuous data 
monitoring, due to increasing costs and a lack of federal funding. 
Given the myriad federal and non-federal users of this data the cost-
benefit ratios can be impressive. A study of the NRCS Snow Survey 
program in 1979 estimated the cost-benefit ratio to be around 30-1. 
Clearly this is a wise investment of federal funds that provides 
national benefits, and critical information, particularly during 
drought.
    Without sound information on snowpack, rainfall, streamflows, soil 
moisture, ground water, reservoir levels and other climatological and 
hydrological data, decision makers cannot take the most effective 
actions in planning, mitigating and responding to drought and its 
impacts. Indeed, reliable water data is crucial to all aspects of 
decision making, and so we also hope that, as Congress considers the 
budget, it will recognize the serious need for adequate and consistent 
federal funding to maintain, restore, modernize, and provide for 
targeted expansion of NWCC's SNOTEL System and Soil and Climate 
Analysis Network (SCAN), and USGS's Cooperative Stream Gaging Program 
and National Stream Information Program, with a primary focus on 
coordinated data collection and dissemination.
    Also, of note, the Western States Water Council is working under 
the auspices of the Western Governors' Association with numerous 
federal agencies towards a National Integrated Drought Information 
System (NIDIS), under a NOAA grant, to make the best use of existing 
information and related programs. A draft report is being circulated 
for public review and comment. As part of this effort, it has been 
recognized that there is no integrated system for the reporting of much 
of the information available on drought impacts. Moreover, while there 
is considerable data collected on economic impacts, particularly 
agricultural impacts, there is less information on the environmental 
and social impacts of drought. Much of what has been gathered is 
necessarily anecdotal and is generally compiled long after the drought 
has passed. The NIDIS effort is looking into ways of better 
identifying, assessing and reporting such impacts.
    Lastly, despite the enormous impacts of drought, as the attached 
Governors' letter notes, ``. . . there still does not exist a permanent 
national policy to prepare for and respond to drought disasters. This 
lack of a coordinated, integrated federal drought policy causes 
confusion at the state and local levels and results in actions being 
taken mainly through special legislation and ad hoc measures, rather 
than through a systematic and permanent process, as occurs with other 
natural disasters that fall under the Stafford Act.''
    I therefore wish to reiterate the Council's and the Western 
Governors' support for passage of S. 1454, the Drought Preparedness Act 
of 2003. The Domenici-Baucus-Bingaman bill would move the country away 
from costly ad hoc approaches to drought response in favor of proactive 
preparedness, improve delivery of federal drought programs, and provide 
new tools for drought preparedness planning, building on existing water 
policy and watershed planning processes. Through establishment of the 
National Integrated Drought Information System, the bill would create a 
vastly improved drought monitoring and forecasting system.
    By helping the West, and other parts of the nation, to improve the 
ability to prepare for and respond to drought, I believe the benefits 
of the Drought Preparedness Act would accrue beyond improved response 
to emergency conditions. By helping us mitigate the impacts of drought 
though cooperative planning and action, the West would be better 
prepared to respond to the ongoing challenges of this arid region. In 
other words enacting this legislation would strengthen our capacity 
generally to manage water resources for the future, and avoid the 
debilitating conflicts exemplified by the situations in the Klamath and 
Middle Rio Grande basins.
    Thank you again for the invitation. I would be happy to respond to 
any questions.

    Senator Talent [presiding]. Thank you, Mr. Bell.
    The next witness is Mr. Tex Hall, who is the president of 
the National Congress of American Indians. Mr. Hall.

   STATEMENT OF TEX G. HALL, PRESIDENT, NATIONAL CONGRESS OF 
  AMERICAN INDIANS, AND CHAIRMAN, MANDAN, HIDATSA AND ARIKARA 
                             NATION

    Mr. Hall. Thank you, Mr. Chairman and Senator Dorgan. Thank 
you for giving me an opportunity to testify at today's hearing. 
I would like to submit my written statement and two NCAI 
resolutions for the record.*
---------------------------------------------------------------------------
    * The resolutions have been retained in committee files.
---------------------------------------------------------------------------
    Senator Talent. That would be great.
    Mr. Hall. Thank you.
    It is the National Congress of American Indians position 
this morning that water issues threaten the health and future 
of Indian tribes, communities, and families across the West, 
and in many parts of the country, there is a lack of 
cooperation amongst the Federal, State, and tribal governments 
over water issues.
    It is also our position and my duty as president of this 
organization to stand up for the water rights of Indian 
country. The drought we know that has gripped the West is a 
national problem. We have heard today of the terrible scourge 
this has placed upon our western communities and States and 
tribes, but if this problem is national in scope, then the 
solution must be national in scope as well.
    First of all and foremost, I would like to recognize that 
water is a sacred right of Indian tribes and an integral part 
of our culture, and in establishment of the reservations, 
tribes were located along their rivers. So water is necessary 
to sustain our life on our reservation communities today, 
especially when many of our reservations were established in 
the most desolate, remote areas of the Western United States. 
So, obviously, if tribes do not have water to sustain their 
members and their economies, the land base that was provided to 
us becomes basically worthless.
    The Federal Government must acknowledge the seniority of 
Indian tribes' reserved water rights and that it has a Federal 
trust responsibility to ensure that adequate water resources 
are maintained for Indian tribes to sustain themselves on 
reservations. Federal law needs to impose the highest trust 
duties of the highest standards on the United States and 
require the United States to take all actions necessary to 
protect and maintain Indian water rights. Federal law requires 
a measurement and preservation of tribal water rights that will 
provide enough water for the present and future homeland needs 
of the tribes.
    And as we know, the U.S. Supreme Court has upheld this as 
law, and that said, I find it sadly ironic that tribes are now 
the most vulnerable group of people due to the drought. This 
committee must recognize and ask yourself why is it that 
tribes, those with the most superior water rights, are the 
first to suffer when drought hits and suffer most in these 
times. I cannot help but wonder out loud if this country's 
water laws and policies will not make Indian tribes an 
endangered species.
    Tribes must be placed on an equal footing with the rest of 
the Nation. I believe it is time that the United States 
recognize tribes' superior rights to water in this country and 
fund tribes at levels that will allow them to sustain and 
protect our economies and uphold our superior water rights, 
enable us to provide safe drinking water for our members that 
are enjoyed by many communities surrounding us today.
    I would like to briefly tell you about the drought that is 
affecting our tribes along the Missouri River basin. The 
protection and management of tribal water and land resources in 
the Missouri River watershed are among the most critical 
priorities facing the 28 Indian tribes within the Missouri 
River basin. These tribes are geographically distributed from 
headwaters in Montana to the mouth of the Missouri River in 
Kansas and Missouri and control more than 15 million acres of 
land within this watershed. Despite their proximity to this 
great body of water, they feel the effects of the drought. 
Especially those tribes located on the upper Missouri River 
basin are in danger right now.
    Obviously, the drought has a negative impact on our entire 
communities for drinking water, for livestock, for crops, but 
it also has a negative impact, in turn, on our cold water 
fisheries and recreation in these lakes.
    We do not feel that the U.S. Army Corps of Engineers is 
effectively managing the upper basin lakes, including Lake 
Owyhee and Lake Sacagawea during this time of drought. The 
Corps is discharging so much water from these lakes, that these 
lakes and the reservoir are at their lowest levels in the last 
50 years. The low levels of these lakes are critical and are 
threatening our drinking water supplies.
    In January this year, the town of Parshall, North Dakota, 
on the Fort Berthold Reservation had to have an emergency 
pipeline built so that they could continue to draw water from 
Lake Sacagawea to provide drinking water for that entire 
community. A permanent fix is needed and it is estimated that a 
permanent fix will cost $3 million to $4 million.
    Just last week, the town of Garrison, North Dakota, which 
is located right next to Garrison Dam, experienced a water 
supply emergency. Full funding for Garrison diversion projects 
that allow for continued development of critical municipal, 
rural, and industrial water projects on our Indian reservations 
is needed badly.
    We have not been fully compensated for the effects of six 
mainstem dams that were built along the Missouri. So even 
though the Dakota Water Resources Act is an authorization act 
passed in the year 2000, we are still waiting for adequate 
appropriations dollars for our tribe and all of the tribes 
along the Missouri basin to fully fund their drinking water 
systems to be established, and that will take millions of 
dollars.
    So the bottom line on this is we feel that legislation 
needs to be enacted to protect the drinking water rights of 
tribes. We feel this is a human rights issue, that access to 
drinking water is not provided for our Indian communities. This 
should be the first priority for us.
    We can continue on with other regions of the country. In 
New Mexico, the Rio Grande, Pueblos being deprived of valuable 
water supplies. We could talk about the California tribes, the 
Bishop, Big Pine, and Lone Pine Paiute tribes of Owens Valley, 
California suffering devastating loss to plant and animal life 
and also in the Columbia basin. When nearly 7 percent of tribal 
homes continue to lack running water, a figure that is 14 times 
higher than the national average, and in the EPA region 9 
alone, which encompasses the Western-most Indian tribes, an 
estimated 68,000 tribal homes lack access to safe drinking 
water. This figure includes the 40 percent of the families on 
the Navajo Reservation that must haul or otherwise obtain their 
drinking water from unregulated resources. So based on the EPA 
needs survey, it is estimated that drinking water system 
construction and rehab and upgrades in Indian country are 
estimated between $350 million and $500 million.
    I realize my time has run out, so I will conclude my 
comments and be prepared to answer any questions that you may 
have.
    [The prepared statement of Mr. Hall follows:]

  Prepared Statement of Tex G. Hall, President, National Congress of 
   American Indians and Chairman, Mandan, Hidatsa and Arikara Nation

                              INTRODUCTION

    Chairman Domenici, Ranking Member Bingaman, and members of the 
Committee, thank you for your invitation to testify today on the 
devastating impact the Western drought has had on Indian tribes. It is 
the NCAI's position that through cooperation and collaboration between 
the federal, state, and tribal governments, the impact of the drought 
can be alleviated. The most important need we have is for increased 
funding that will strengthen the abilities of these governments to 
enhance infrastructure and programs, and adhere to well-established 
principles of federal law. However, I want to make it very clear that 
it is also the position of the NCAI that this funding must not come 
from the already dwindling Bureau of Indian Affairs budget or existing 
programs.

                 THE DROUGHT'S IMPACT ON INDIAN TRIBES

    Indigenous people have experienced natural drought cycles for 
thousands of years. In modern times however, these natural drought 
cycles are extremely exacerbated by the inappropriate management of 
scarce water resources. As I am sure you are aware, the Indian tribes 
of this country are very diverse in culture, geography, and economy. As 
such, the drought has impacted the tribes in very different ways. For 
agrarian cultures it means reduced farm crops or modifying farming 
practices. For fishing cultures it could mean a stressed fishery that 
forces tribes to modify their harvests. However, in the case of the 
present water crisis, Indian tribes have already altered their 
practices to accommodate for the lack of water resources. It has been 
through the action or inaction of the federal or state governments that 
Indian tribes have been affected. I want to share with you specific 
instances of how the Western drought has had a profound impact on 
Indian tribes throughout the region.
    In northern California, drought has brought out the worst-case 
scenario of water allocation at the expense of the Tribal fisheries in 
the Klamath Basin. The federal government's water management practices 
over the past century have taxed the federally reserved fishing rights 
of tribes in the region, culminating in devastating effects on both the 
tribes and the surrounding agricultural community. The upper Klamath 
Basin historically was an arid region, yet development of irrigation 
and reclamation projects have created a non-sustainable situation of 
producing crops such as potatoes and alfalfa that require high volumes 
of water. Likewise, on the Trinity River, a major tributary to the 
Klamath system, water has been exported out of the basin for decades 
causing a stressed fishery and over-dependence by agriculture. This 
development contributed to the many factors causing the decline of 
tribal fisheries and the eventual listing of several fish species on 
the federal endangered species list. Drought in 2001 forced the federal 
government to curtail irrigation deliveries in order to uphold its 
responsibilities under the Endangered Species Act. Political backlash 
to this decision in the following drought year contributed to curtailed 
river and lake levels resulting in a tragic unprecedented fish kill of 
over 35,000 adult salmon. This massive fish kill was devastating to the 
Klamath Basin tribes, specifically the Yurok Tribe.
    In New Mexico, the Middle Rio Grande Pueblos are being deprived of 
valuable water needed to continue traditional farming and related 
ceremonies due to the drought. This deprivation not only threatens the 
Pueblo economies and social structure, but also the very basis of 
traditional Pueblo lifeways. Because the Rio Grande has been seriously 
over-engineered with many dams and reservoirs, the federal and state 
governments have been required to enforce senior water rights in 
accordance with the prior appropriations system. They have had to 
resort to this strict enforcement in order to protect the silvery 
minnow, which is listed as an endangered species. Despite the Pueblo's 
senior water rights, many traditional farming families are not able to 
use their lands for subsistence farming because of a lack of available 
water. The Pueblos should not be deprived of water at the expense of 
the silvery minnow. Under well-established principles of water law, the 
federal and state governments must apportion the water based on 
seniority. The Pueblos should be the first entity to receive what they 
need to continue their existence as self-sustaining subsistence farmers 
and carry on their traditional ways of life.
    The Bishop, Big Pine, and Lone Pine Tribes of Owens Valley, 
California have suffered devastating loss to plant and animal life in 
their tribal homelands due to the drought. Owens Valley is on the east 
side of the Sierra Nevada Mountain range, which supplies the City of 
Los Angeles with approximately 70% of its drinking water which comes 
from run-off and groundwater pumping. Last year, the City of Los 
Angeles Department of Water and Power (LADWP) pumped over 86,000 acre 
feet of groundwater from the Owens Valley. This tremendous amount of 
groundwater pumping--coupled with current drought conditions--has 
resulted in increased adverse impacts on tribes in the Owens Valley. 
The tribes in the Owens Valley are in desperate need of financial and 
technical resources to monitor the water tables and vegetation status 
to ensure that conditions do not further deteriorate.
    In Arizona, traditional Hopi farmers are known to grow beautiful, 
bountiful crops even in the driest of climates. However, recently, Hopi 
tribal farmers have witnessed a dramatic decrease in productivity and 
sustainability of their crops. The canyon country of the Colorado 
Plateau is currently suffering from one the most severe, prolonged 
droughts in history. The drought, coupled with the draining of the 
Navajo Aquifer (N-Aquifer), is threatening the ancient farming 
traditions of the Hopi people. Also in Arizona, the White Mountain 
Apache Tribe has been affected by the wildfires in the White Mountains. 
The fires significantly impacted this Tribe's economic viability since 
forestry is a major source of revenue for the Tribe.
    In my home State of North Dakota and all along the Missouri River 
Basin in Montana, South Dakota and Nebraska, the protection and 
management of tribal water and land resources in the Missouri River 
watershed are among the most critical priorities facing the twenty-
eight basin Indian tribes. Indian tribes control more than 15 million 
acres of land within this watershed, geographically distributed from 
the headwaters in Montana to the mouth of the Missouri River in Kansas 
and Missouri. Yet despite their proximity to this great body of water, 
the Standing Rock reservation ran out of water this year because of 
mismanagement of the Missouri River Basin. The drought that has gripped 
the northern Plains has given us record breaking high temperatures year 
after year, and resulted in a greatly reduced snowpack in the Northern 
Rockies that drastically reduces stream flows all along the Missouri 
River. North Dakota has been operating under a Drought Emergency 
Proclamation issued by Governor Hoeven since 2002. The drought directly 
impacts tribal members' livestock, crops, and is threatening the health 
of the cold water fisheries in Lake Sacagawea. In January, the town of 
Parshall on the Fort Berthold Reservation had to have an emergency 
pipeline built just so they could continue to draw water from Lake 
Sacagawea, but will need a permanent fix that will cost $3 to $4 
million dollars.
    Despite historical and legal rights to the water, Missouri River 
Basin tribes have been excluded from the benefits of the Missouri River 
water resources and its tributaries. Twenty-three percent of the 
1,499,759 acres taken for the construction of the dams and reservoirs 
under the Pick-Sloan plan were Tribal lands. More than 350 families--
1,700 from my Tribe alone--were relocated because of the flooding 
caused by the Garrison Dam. Although the federal government promised 
irrigation development and participation in electricity generation over 
fifty years ago when these lands were taken, the Tribes are only now 
beginning to receive some of these benefits. The Mandan, Hidatsa & 
Arikara Nation never received the 20,000 kilowatts of free power we 
were promised nor did the United States ever rebuild the hospital we 
lost, a promise that was made over 50 years ago. My grandfather was 
Vice Chairman and present at the signing of agreement in 1948 that took 
away our lands so I have a strong personal commitment to seeing that 
the United States honors its word. The flooding caused by the Dam took 
away so much. It was more than just the land--it was the language, it 
was the culture, it was the history. It was more than just a simple 
flooding. Although our reservation was promised $70 million in water 
development projects, my tribal members still must haul their drinking 
water. We now estimate it will take $86 million to provide adequate 
drinking water throughout the reservation, but funding when it comes 
seems like it is only a few dollars at a time.
    The tribes seek meaningful participation in resource management 
within the Missouri River Basin, but lack the resources to do so. Our 
tribes' natural resource and water resource offices depend on 
discretionary funding from federal agencies for maintenance of their 
operations. Like most tribal programs throughout Indian country, they 
derive the bulk of this funding from the Bureau of Indian Affairs and 
other governmental agencies, with annual funding priorities mandated by 
Congress. The tribes are vulnerable to annual fluctuations in federal 
funding, which inhibit long-term planning. Congress should also 
appropriate full funding for Garrison Diversion projects that allow for 
the continued development of critical municipal, rural and industrial 
(MR&I) water projects on our Indian Reservations.

                            LEGAL BACKGROUND

    Federal law requires a measurement of tribal water rights that will 
provide enough water for the present and future homeland needs of 
Indian tribes. The United States Supreme Court has long held that 
federal Indian reservations were set aside as permanent homelands for 
Indian people to live upon in a self-sustaining fashion into the 
indefinite future, with enough water reserved for tribal use now and 
for all the future generations.
    In the landmark case of Winters v. United States, 207 U.S. 564 
(1908), the United States Supreme Court held that Congress by creating 
the Indian reservation, impliedly reserved ``all of the waters of the 
river necessary for the purposes for which the reservation was 
created.'' Winters, 207 U.S. at 576. The Court further declared that 
this reservation of water was not only for the present needs of the 
tribe, but ``for a use which would be necessarily continued through the 
years.'' Winters, 207 U.S. at 577.
    This principle outlined in Winters is now well-established in 
federal water rights jurisprudence: the United States, in establishing 
Indian or other federal reservations, impliedly reserves enough water 
to fulfill the purpose of each federal reservation, including the 
residential, economic development, and governmental needs of Indian 
tribes. See Arizona v. California, 373 U.S. 546, 599-601 (1963), 
Cappaert v. United States, 426 U.S. 128, 138 (1976); United States v. 
New Mexico, 438 U.S. 696, 700 (1978); In re The General Adjudication of 
All Rights to Use Water In the Gila River System and Source, 35 P.3d 68 
(2001). Importantly, this type of federal reserved water right is 
``superior to the rights of future appropriators.'' Cappaert, 426 U.S. 
at 138.
    Not only must the federal government acknowledge the seniority of 
Indian tribes' reserved water right, it also has a trust responsibility 
to ensure that water resources are maintained for the Indian tribes. 
Federal law imposes trust duties of the highest standard on the United 
States that require the Department of Interior to take all actions 
necessary to protect and maintain Indian water rights. The United 
States Supreme Court has long held that, as Indian tribes' trustee, the 
United States must act to ``preserve and maintain trust assets,'' using 
``reasonable care and skill to preserve trust property.'' United States 
v. White Mountain Apache Tribe, 123 S.Ct. 1126, 1133-34 (2003). See 
also United States v. Mitchell, 463 U.S. 206 (1983). These trust duties 
require protection in circumstances such as ours where ``water rights 
constitute the trust property'' which the federal government has the 
duty to preserve by performing ``all acts necessary.'' Fort Mojave 
Indian Tribe v. United States, 23 Cl. Ct. 417, 426 (1991). Failure to 
comply with these federal trust duties will result in a monetary award 
against the United States for breach of trust.
    As the Supreme Court recently explained, the United States' federal 
trust duties are substantial when the United States exercises direct 
control over tribal trust assets on a daily basis. In such 
circumstances, ``a fiduciary actually administering trust property may 
not allow it to fall into ruin on his watch.'' White Mountain Apache, 
123 S.Ct. 1126, 1133. Since the Department of Interior has direct 
control over the manner in which tribal water resources are maintained, 
utilized, and managed, it is the Secretary's responsibility to protect 
tribal use of those waters. Additionally, she has the trust obligation 
to take the affirmative steps necessary to settle and permanently 
protect tribal water rights in a comprehensive manner. In all of the 
examples that I gave you of how Indian tribes are affected due to the 
Western drought, in every instance, the federal government has had the 
duty and obligation to protect the Tribe's interest and ensure use for 
future generations. In these examples, the federal government has 
breached that duty by allowing diversion of water for non-Indian and 
commercial use, apportioning the water to protect an endangered 
species, not consulting with the affected tribes, and neglecting to 
adequately fund the tribal environmental programs needed to ensure 
healthy, sustainable communities.

                          WATER INFRASTRUCTURE

    Nearly 7% of tribal homes continue to lack running water, a figure 
that is 14 times higher than the national average. In EPA Region 9 
alone, which encompasses the westernmost Indian tribes, an estimated 
68,000 tribal homes lack access to safe drinking water (including 40% 
of the families on the Navajo Nation that must haul or otherwise obtain 
their drinking water from unregulated sources), and there is only a 50% 
certainty that a tap turned on in a tribal home will consistently 
produce water in compliance with bacteriological monitoring and testing 
requirements. Based on the EPA Needs Survey, it is estimated that 
drinking water system construction and rehabilitation and upgrade needs 
in Indian Country have been estimated to be approximately $350-$550 
million.
    Lack of funding for operations and maintenance for the continuing 
health and welfare of the tribal public water system is also a major 
concern for Indian tribes. The Western drought puts pressure on 
resources available to public water systems, thus implicating the 
funding for tribal water infrastructure needs. Routine water quality 
monitoring and operation and maintenance activities are absolutely 
essential to ensure the continued safety of drinking water in Indian 
country. Additionally, the absence of financial, managerial, and 
technical capacity often results in violations of the Safe Drinking 
Water Act and puts the public health at risk.
    New federal requirements for drinking water protection, solid waste 
control, non-point source pollution abatement, and hazardous waste have 
affected Indian reservations. Tribes have been charged with 
implementing these legislative regulations and rules with inadequate 
federal funding. The tribes stand ready to take the lead in the 
development of these codes and regulations, but need the critical 
skills to carry out these programs pursuant to federal laws. Such 
skills include sound technical capabilities and administration, policy, 
and managerial skills.

       SOLUTIONS--THE ARIZONA WATER SETTLEMENTS ACT AS AN EXAMPLE

    Under well-established principles of federal water law, Indian 
tribes hold senior, federally reserved water rights that must be 
fulfilled before water is allocated to junior users such as 
municipalities and non-Indian farmers. These rights must be 
acknowledged and adhered to by the federal and state governments. One 
way of acknowledging these rights is by entering into settlement with 
willing Indian tribes in order to have water claims finally 
adjudicated. These adjudications will also clear up the confusion 
surrounding the delivery of water during times of drought in the 
future.
    The Arizona Water Settlements Act is pending before your Committee 
to resolve permanently the water rights claims of the Gila River Indian 
Community. As you are aware, the quantification of rights to water and 
development of facilities needed to use tribal water supplies in an 
effective manner is essential to the development of viable Indian 
reservation economies, particularly in arid western States. 
Importantly, S. 437 recognizes the need to find sources of funding for 
Indian water settlements, and the construction of tribal water delivery 
systems authorized by those settlements, outside of the Bureau of 
Indian Affairs. In S. 437, the payments made by the State of Arizona to 
meet its repayment obligations to the federal government for the 
construction of the Central Arizona Project are deposited into the 
Lower Colorado River Basin Development Fund. The money will be made 
available directly from the Fund to tribal settlement costs, both those 
authorized in the bill and others such as those of the Hopi and other 
Arizona tribes that have not yet been enacted by Congress. This 
distribution will not be associated with the annual Congressional 
appropriations process and will not come from the Bureau of Indian 
Affairs budget. NCAI supports, as you do, creative approaches to 
funding Indian water settlements to allow Indian water settlements to 
be funded and bring certainty to water rights in western states without 
diluting the availability of much-needed BIA funds for critical Indian 
programs.

                               CONCLUSION

    On behalf of NCAI, I would like to thank the members of this 
Committee for the opportunity to testify on how the drought has 
affected the Indian tribes of the West. Like federal, state, and local 
entities, many Indian tribes have been adversely affected by the 
drought. It is the NCAI's position that the impact of the drought can 
be decreased by providing more funding for tribal water infrastructure. 
Also, there is a need for an increase of funding for tribal, state and 
federal governmental agencies to ensure that the federal government's 
trust obligation is fulfilled even during these times of crisis. 
Settlement of tribal water claims such as the Arizona Water Claims 
Settlement Act are critical to creating and sustaining viable economies 
in Indian country and eliminating uncertainty of water apportionment 
during times of drought. Finally, any new funding should come from new 
sources and not from the Bureau of Indian Affairs budget.
    Lastly, the notice I received concerning this hearing was very 
short and I have only given you examples of the effect of the drought 
on tribes that were able to respond on such short notice. I know there 
are other tribes that are suffering from the drought. It is my 
understanding that this Committee will have additional hearings on this 
subject and I would appreciate the opportunity to appear before you 
again to provide additional input to this Committee on tribes' view of 
the drought and water management in the West.

    Senator Talent. Thank you, Mr. Hall. Of course, your 
statement is in the record, and we appreciate your being here. 
We appreciate both the witnesses very much.
    And I will recognize Senator Dorgan for any statement or 
questions he may have.
    Senator Dorgan. Senator Talent, thank you very much. I have 
been attending a Commerce Committee markup all morning, so I 
was only just now able to arrive here.
    Let me thank Mr. Bell for being here, and especially let me 
thank Tex Hall. We in North Dakota are very proud of his 
leadership. He is the National Chairman of the Congress of 
American Indians.
    Mr. Hall, let me ask you a series of questions.
    First of all, let me ask consent to put my opening 
statement in the record.
    Senator Talent. Without objection.
    [The prepared statement of Senator Dorgan follows:]

          Prepared Statement of Byron L. Dorgan, U.S. Senator 
                           From North Dakota

    Mr. Chairman, thank you for holding this very timely hearing on a 
topic of great importance: water supplies in the arid West. This is a 
subject on which I have been spending a great deal of time, because 
drought, and all of its repercussions, has hit hard in North Dakota.
    We have had a water supply crisis in my state. Over the last year, 
due to drought conditions and the mismanagement of the reservoirs on 
the Missouri River, North Dakota has experienced severe water shortage 
problems. Last October, I became aware that the City of Parshall was 
facing the prospects of losing its water supply if something was not 
immediately done to extend its water intake pipes. Then, in November, 
Ft. Yates actually lost their water supply when lake levels became too 
low to supply critical water needs.
    These experiences have shown there is an immediate and serious need 
to evaluate and address our water infrastructure needs in rural areas 
of our country. Notwithstanding what was done on behalf of these towns 
to mitigate the impact of their loss, the fact is these losses could 
have been avoided. The Army Corps of Engineers was well-aware of the 
adverse consequences that would result when lake levels reached a 
certain point.
    I look forward to hearing from the witnesses on this important 
topic. I am particularly pleased that Chairman Tex Hall is here today, 
and we appreciate his making the effort to come to appear before the 
Committee. Again, Mr. Chairman, thank you for conducting this hearing.

    Senator Dorgan. Chairman Hall, do you have people on your 
reservation that are now hauling water?
    Mr. Hall. Unfortunately, Senator Dorgan, we do. We feel 
between 20 to 25 percent of all tribal residents on Fort 
Berthold are currently hauling water. I myself, as tribal 
Chairman, am supposed to be considered one of the people that 
should not have to, but I haul drinking water every day.
    Our water is of such poor quality, and the sanitation 
conditions many times are really challenging, especially when 
you are hauling water in the back of a pickup truck for those 
hundreds of families that are on Fort Berthold.
    Senator Dorgan. And that is much more vulnerable to 
contamination when you are hauling water, as opposed to having 
water in a closed system in which the water is treated?
    The reason I ask you that question is that I have sat with 
families on reservations particularly who describe the day-to-
day requirement to haul water. People forget about this and 
what it means when you are actually having to go find a pickup 
truck or a truck and put water in a tank and haul it to your 
storage facility on your premises. Then the question of taking 
a shower or using water in your daily activities is an entirely 
different question because then you have to be concerned about 
how much water do you have, how much must you conserve, in 
addition to the issue of contamination.
    I am surprised by the percentage you described to me. I 
despair at that percentage because that is a lot of families 
who cannot take for granted that which we take for granted 
every single day. Water comes out of a tap. You turn on the 
faucet and you get water. But having to haul water is an 
enormous problem for a lot of families and we really need to 
find a way to address that and fix that. I know that you are 
working hard to do it.
    Do you want to comment more on that subject?
    Mr. Hall. Senator Dorgan, I would like to add the Indian 
country faces a higher rate of diabetes, a 7 times higher rate 
of diabetes than the national average. So as we are looking to 
dialysize patients, these same patients that we are looking for 
cleanliness when they get on a chair and hooked to become 
dialysized, those same principles are not practiced at home 
because they have, in many situations, unclean water and 
unhealthy water.
    So lack of access to quality drinking water we feel is not 
going to turn around the negative impacts of diabetes. So our 
tribe and many tribes have actually declared a war on diabetes, 
but part of that war has to have access to quality, treated 
drinking water to help our people become healthy. That is 
something that is not going to turn around unless we can turn 
around access to treated drinking water.
    Senator Dorgan. This may not be a great place to be talking 
about the management of the Missouri River because the Senator 
on my right lives downstream.
    Senator Talent. I was hoping, Senator, the subject would 
not come up until you had left, and then I could rant and rave 
on behalf of Missouri.
    [Laughter.]
    Senator Dorgan. So anticipating his ranting and raving, let 
me get in front of it just a bit. Mr. Hall, have you taken a 
look at the proposed management of the Missouri River? The new, 
revised management program that the Corps of Engineers has 
recently released? They have talked about revising the master 
manual for 12\1/2\ or 13 years. They finally, after 12\1/2\ or 
13 years, produced this product, which is horribly deficient in 
my judgment. Have you had a chance to look at it?
    Mr. Hall. Yes, I have, Senator Dorgan, and we feel it does 
not protect the rights and the issues of a higher lake level 
for tribes to have access to those water systems. If we were to 
look at a chart in the Bureau of Reclamation--our tribal water 
directors could provide that--of all of our communities that 
are located--of course, indigenously our people always lived by 
the river, and so now communities are by the river. So when 
that lake level drops--and of course, we do not believe the new 
master manual addresses that issue--there are going to be 
entire communities without water, as we have seen with Standing 
Rock and Fort Yates, an entire community without water and now 
Garrison without water.
    The solutions are temporary and that does not address the 
permanent need to fix these, but part of the solution has to be 
to provide more water in the upper basin in order for us to use 
the lake and use the river like we always have, since the 
beginning of time and before the Army Corps of Engineers 
managed the lake. So we do not think it really addresses our 
concerns.
    There will be more money spent on the back end trying to 
fix crises instead of trying to fix it on the front end. So I 
agree that the manual is deficient and we are going to have 
more families and more communities entirely without water that 
is going to cost a lot more money later on.
    Senator Dorgan. Well, the revised manual is really almost 
irrelevant. It does not really make any substantive changes 
that addresses the upstream States' interests, in my judgment. 
I guess I am probably not very surprised by that, but I am very 
disappointed in it.
    What has been the economic consequences to your tribe in 
North Dakota, the three affiliated tribes, with respect to 
recreation and tourism and all the other things that relate to 
the loss of boat ramps and the declining level of the 
reservoir?
    Mr. Hall. It is in the millions, Senator Dorgan. Of course, 
the lake and the river are right between our million-acre 
reservation, as you know. In western North Dakota, we are very 
rural and we depend on recreation and fishing. Last summer--and 
it is not going to get any better for this year and for next 
year and the year after that. The majority of recreation sites 
have lost access with their boat ramps because of the droppage.
    So we are scrambling now to find the ramp that would be 
most cheaply fixed to make an adjustment to have access to the 
water because if you do not, the fishing industry is going to 
dry up, and that is a multi-million dollar industry for our 
reservation and for the entire State, as you know. So that 
really has a potentially devastating effect on our economy. 
People will not come to the hotels. They will not come to the 
stores, and there is going to be a huge loss of industry and 
local businesses are simply going to go out of business and go 
bankrupt.
    Senator Dorgan. There is less water in the Missouri River 
system. There is less snowpack and going to be less coming into 
the system again this year. We understand when the Corps of 
Engineers says we have to make do with less and therefore the 
reservoirs are drawn down. But that is a question that is 
separate from how you manage the river and how much you release 
from the reservoirs. My own view is that the Corps of Engineers 
has fumbled this miserably.
    In North Dakota, as you know, Chairman Hall, over 7,000-
8,000 citizens on the Fort Yates Reservation during 
Thanksgiving week lost their supply of water. Parshall would 
have lost its water last month, in the month of February, were 
the intake not extended by the Bureau or had it not been 
extended.
    So we have some very significant challenges. One can hope 
that we get through this drought period and see more water 
enter the system, but even when that happens, we still need a 
reasonable management scheme for the Missouri River system.
    Your reservation is a very large reservation geographically 
and it is intersected by the reservoir and the river system. My 
father, when he was a young man, herded horses and lived in 
Elbow Woods, North Dakota. Elbow Woods no longer exists. Elbow 
Woods is under a reservoir, so it is a town that is now gone.
    From that experience, the members of your tribe especially, 
but others as well, have been displaced, moved to higher 
ground. Their diets changed. They developed diabetes. I held a 
hearing on your reservation and the rate of diabetes on your 
reservation is 12 times--not double, triple, or quadruple--12 
times the national average. It is devastating. As you said, the 
issue of water and the requirement to haul water is completely 
counter to what we need to be doing to address the health needs 
of those with diabetes.
    So your testimony is very helpful, Chairman Hall, and again 
we are very proud of your national leadership. We have a lot to 
do not just on this committee but on the Indian Affairs 
Committee, on which I serve, and also the Interior Subcommittee 
of Appropriations where we actually appropriate the money for 
all of these Indian programs. I think your leadership is going 
to be instrumental in our trying to address these in as 
thoughtful a way as we can.
    Did you have any other comments about the Missouri River 
system? I know that you have consulted the chairman of the 
Standing Rock Sioux Tribe with respect to their intake issues 
as well.
    Mr. Hall. Senator Dorgan, thank you for the question, for 
the follow-up. I would just like to say it is the first time I 
have heard of the Department of the Interior's plan for Water 
2025, and I have not heard tribes mentioned in 2025. The 
Department of the Interior should know they have a trust 
responsibility to tribes. That land is held in trust and 
because of the treaty obligations and the allotments from the 
Dawes Act in 1887 and the Winters doctrine of water rights 
established in 1932, they clearly have a trust responsibility. 
It disturbs me that we are not mentioned in Water 2025.
    So I would also further ask the committee that tribes need 
to be involved if there are further hearings down the road to 
make sure that our issues are being addressed in this proposed 
Water 2025 or any Federal policies regarding water issues.
    Senator Dorgan. Let me just say on that point we have had 
this dispute with the Corps and others about Indian water 
rights. You have Indian water rights that exist. They are not 
quantified and they should be, but they nonetheless exist. I do 
not think there is great debate about that. It is not 
sufficient for the Corps simply to say that we consulted 
because they told you what they were doing, and that is too 
often the case. There needs to be full consultation with 
respect to tribes because those tribes have inherent water 
rights that exist in law. They are not, in my judgment, 
negotiable. They currently exist and I think the Corps has not 
done the tribes justice by their failure to consult the way 
they should have been consulting along the way.
    So these discussions will continue as well. I know that you 
and the National Congress and others will be actively involved 
in them, and really, you must because we have discovered the 
Corps of Engineers tends to move in its own direction and it is 
pretty impervious and oblivious to other interests from time to 
time. We try here in Congress to give it a huge, swift kick on 
occasion and it seems to have almost no impact at all.
    [Laughter.]
    Senator Dorgan. When we have a flood, they are great flood 
fighters and God bless them for that. But on issues like 
management of the Missouri River system, shame on them for 
taking 13 years and then coming up with such a miserable 
product. We will have more to say.
    Now, because I have to go somewhere else, I am not able to 
hear the comments from my distinguished colleague from Missouri 
on the Missouri River system.
    We must, it seems to me, all of us, find a way to address 
these issues, and addressing them includes addressing the 
rights of Indian country as well.
    Mr. Chairman, thank you for being patient.
    Senator Talent. Well, I sure thank the Senator, and as 
usual, he has argued his case with a vigor and an eloquence 
worthy of a better cause I may say, but certainly well done.
    Senator Dorgan. Wait until I leave to say those things.
    [Laughter.]
    Senator Talent. Let me get a couple of housekeeping details 
out of the way, and I want to ask Mr. Bell about the rural 
water bill, get his opinion on that.
    The record will remain open for statements and questions 
for any of the witnesses until close of business tomorrow and 
all documents should be directed to the committee staff.
    Mr. Bell, we would like to know if you have reviewed the 
current rural water bills currently before the committee. Do 
you have any comments on the current Federal programs, how well 
they are meeting rural community needs in Western States, and 
do you have any changes or improvements you want to suggest 
either to the bill or to current programs?
    Mr. Bell. We do not have a position on the current bill. I 
will say, however, that we do have a consensus about greater 
need for meeting rural water supply needs. There is a consensus 
among the States that we need to do more as a country. We took 
a survey in connection with the study done by the Western Water 
Policy Review Advisory Commission, and many of our States were 
concerned about the situation in our rural communities. So we 
are very supportive of the concept at least of providing 
sufficient water for our rural communities. We recognize the 
need.
    Senator Talent. If you have anything more specific you 
would like to offer in writing, the committee would be glad to 
have it.
    Mr. Bell. Thank you.
    Senator Talent. I appreciated very much the testimony of 
both the witnesses. Mr. Bell, if I can sum up yours, what I 
hear you saying is that we need to fund information collection. 
We have got to know where we are with water resources and water 
quality.
    Mr. Bell. Indeed.
    Senator Talent. This is a problem, by the way, in Missouri, 
particularly in southwest Missouri. Missouri is an interesting 
State because it is like five States all coming together in 
one. The whole country meets in the middle of Missouri. 
Southeast Missouri and southwest Missouri are different, St. 
Louis, Kansas City. And southwest Missouri is very much like a 
Western State in terms of water issues. We have real supply 
issues there. So we certainly sympathize with what the Western 
States have been going through.
    One of the things that we are trying to do is to get a 
handle on just what the situation is in the aquifers, what 
water quality issues are, and there is not enough good 
information. And that is a problem all through the West.
    Mr. Bell. I agree. I certainly do.
    Senator Talent. Certainly, Mr. Hall, feel free to offer 
comments on any of this.
    We have got to get the right information. We have got to 
begin emphasizing preparedness rather than ad hoc responses. I 
think we are all in agreement with that too.
    And we need to find a way to develop an integrated approach 
rather than waiting until there is a crisis and then the States 
and localities all go off on their own trying to catch as catch 
can. That is going to be hard because it is going to mean--and 
we are all jealous of what we have got because we are worried 
about losing that, and agreeing to an integrated approach 
raises at least a specter that maybe we will not have as much 
control over what we have got.
    That is really the problem with the Missouri River. In 
Missouri, we are concerned about a number of things flooding in 
the spring because we have so much good farmland right around 
the river, but we are also concerned about navigation. We have 
gone from 3 million commercial tons of navigation in 1980 to 
1.3 million in 1990 to a little over 1 million last year. And 
this is bad for everybody because barge traffic is often the 
cheapest and certainly the environmentally most safe way of 
getting product to market.
    I mention this because when I hear from my friends in the 
West on the river, it is impossible to deny the validity of the 
interests that you are representing. I mean, safe drinking 
water, tourism. Tourism, along with agriculture and 
agribusiness, is the biggest part of Missouri's economy. So we 
are all sort of fighting over this water and we all need it.
    That is why it bothers those of us in Missouri when we feel 
valuable interests are being sacrificed not necessarily on 
behalf of upstream economic interests, but in order to protect, 
let us say, the pallid sturgeon or the least tern when the 
science regarding that, on top of everything else, is very 
dubious. You can understand I think at least how we feel about 
that because it is one thing to say, well, no, we have to 
reserve it for the economic interests upstream, but it is 
another thing to have a court coming in, sequeing in and 
grabbing it on behalf of that particular interest. And this is 
the integrated approach you mentioned where we all get around a 
table and balance these interests.
    So I felt I needed to say that since Senator Dorgan raised 
that issue.
    I really do not have a lot to add. Do you all have any 
further comments you want to make on that issue or any other? I 
will let you get the last word in. Well, maybe not on the 
Missouri River, but anything else.
    [Laughter.]
    Mr. Hall. Thank you, Senator Talent. I agree with a lot of 
what you said. It does need to happen and, Mr. Bell, we do need 
to have that integrated approach, but tribes need to be at the 
table because of our rights to the water and to the river. Our 
main concern is drinking water, access to that drinking water 
and protecting our rights in that regard.
    On tourism, though, I will----.
    Senator Talent. Let me say, Mr. Hall, in terms of hauling 
water, my mom was raised on a dairy farm in Jefferson County, 
Missouri and was a big gardener her whole life. She always had 
a big vegetable garden. And she hauled water when she was a 
girl. And when my brother and I would complain----.
    Mr. Hall. Good for her.
    Senator Talent. I mean, she told us what it was like, and 
when my brother and I would complain about having to haul the 
hoses out and spend some time watering her vegetable garden, 
she would give us a lecture about what it was like when she was 
a girl hauling that water. So I do not know from personal 
experience, but I know that it is difficult. The water is not 
as safe, and boy, if you have not hauled water, you do not know 
what it entails. So I can sympathize.
    Please go ahead.
    Mr. Hall. I was just going to say that I appreciate your 
story about your mother because my father had an eighth grade 
education, but I say he had a Ph.D. in just everyday smarts. 
But he told me, make sure you go to college because I do not 
want you to come back and be a cattle rancher like me and have 
to haul water. I went to college. I came back. I am a cattle 
rancher and I still haul water. He told me I would be a damn 
fool.
    Senator Talent. My mom was German. She used to say we grow 
too soon old and too late ``schmart.''
    [Laughter.]
    Mr. Hall. I will be in your home State on I believe Sunday, 
the 13th of March, on the Lewis and Clark bicentennial.
    Senator Talent. Yes.
    Mr. Hall. So I will be there to help lobby an ad for your 
tourism issues and to bring attention to the historic Lewis and 
Clark Bicentennial Trail of Discovery, 200 years ago.
    Senator Talent. And maybe in the spirit of Lewis and Clark, 
which all of us along the river can take pride in, that 
expedition, maybe we can come together on some of these water 
issues.
    The larger issue on this information, Mr. Bell, that you 
raised, I increasingly have faith that technology and 
innovation, if we understand a problem well enough, will dig us 
out from under a fair amount of it if we know what the 
situation is and will honestly look at it. So this is it, here 
are our alternatives with technology, and if everybody can be 
at that table, we may be able to get our way out of a lot of 
this.
    Mr. Bell. Yes. I have found so many circumstances where 
technology and innovation have helped us greatly in terms of 
these kinds of problems.
    Senator Talent. Yes. Well, I am grateful for your 
testimony. It has been a good hearing. Certainly you all know 
that the committee, whatever Senators' particular interests may 
be, wants to make certain that there is enough water available 
for everybody in the Western States, as well as the Midwestern 
States, if I may say so. So we are grateful that you are here 
today.
    I have already given the announcement about further 
submissions for the record, so the hearing is adjourned.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]
    [The following statement was received for the record.]

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation (AFBF) is greatly interested in 
the issue of the future of water supplies in the West. We are pleased 
to submit this statement for the hearing record.
    Water is the scarcest and most important resource in the Western 
United States. It is vitally important to the farmers and ranchers who 
settled the West and who provide food and fiber for the country and the 
world. Agricultural production depends on the timely availability of 
water supplies. For example, 75 percent of the total value of 
Colorado's $1.3 billion in agricultural crop production comes from 
irrigation. New Mexico produces $2.2 billion annually in agricultural 
products and agriculturally-related industries employ more than 47,000 
people statewide.
    Furthermore, the economies of most rural communities in the West 
are built around farm and ranch activities. No water means no local 
food production further eroding the economic base of many of these 
communities. Since the earliest days of Western settlement, a system of 
state-based water rights laws have been developed to meet the 
particular needs of the arid Western states and their growing 
populations. AFBF supports this system that has served the needs of 
this rapidly developing area while preserving water resources for a 
large and productive agricultural economy. State water laws have 
provided an orderly system for allocation of scarce water supplies.
    State water laws and the availability of water for the production 
of food and fiber have come under attack in the West. The fastest 
growing area in the country, western cities and municipalities, are 
increasing their demands for available water. Activist organizations 
are using the courts to apply federal statutes such as the Endangered 
Species Act and the Clean Water Act to effect a re-allocation of scarce 
water supplies away from the holders of legitimate water rights 
pursuant to state water law to listed species and to instream water 
flows. All this is occurring in a prolonged drought that has left 
western reservoirs at record low levels.
    Farming and ranching are crucial if the character of the West is to 
be maintained. Western farmers and ranchers not only provide food and 
fiber for the world, but they provide many other benefits as well. 
Often, the only thing standing between open spaces and urban sprawl is 
agriculture.
    In 2001 over 1,400 farmers and ranchers in the Klamath Basin area 
of Oregon and California had their irrigation water shut off and were 
deprived of a crop and their water used instead for two endangered 
fish. A similar situation was experienced on a smaller scale in New 
Mexico in the Middle Rio Grande River area near Albuquerque when the 
Bureau of Reclamation was required to use irrigation water for the 
silvery minnow.

                             1. WATER 2025

    To address these issues and to try and prevent similar situations 
from occurring, the U.S. Department of Interior (DOI) began an 
initiative it calls ``Water 2025.'' The purpose of the initiative is to 
anticipate potential ``hot spots'' such as Klamath and New Mexico that 
are likely to occur in the next 20 years and plan strategies to avoid 
them.
    Water 2025 is a comprehensive, well thought out blueprint for 
helping agriculture, industries, municipalities and wildlife to meet 
their water needs for years to come. AFBF and affected state Farm 
Bureaus have had significant involvement with the DOI on Water 2025.
    Water 2025 contains a lot of points that AFBF agrees with. For 
example, we support the policy of seeking new innovative technologies 
such as desalination for increasing the supply of water available to 
westerners. It is extremely important that this technology be made 
affordable for the West.
    We also support the apparent thrust of the initiative to preserve 
state water rights laws and to respect private property rights. Water 
is a resource that is under the jurisdiction of state law. As 
previously mentioned the western states have developed a process for 
the adjudication of water rights within the state that has served water 
users well for many years. It is appropriate that any solutions to 
water shortage issues currently facing the West should be addressed at 
the state level.
    We also support efforts to make water use more efficient. 
Agriculture is doing its part. Every five years the U.S. Geological 
Survey (USGS) publishes a report of water use in the United States; the 
last report is from 1995. Irrigation application rates vary from year 
to year depending upon rainfall, surface water availability, energy 
costs, commodity prices, application technologies and conservation 
practices. According to the USGS, the average amount of water applied 
per acre for irrigation was 2.1 acre-feet, a drop from the 1980 average 
of 2.5 acre-feet. The amount of irrigated acres in the United States is 
58 million. Irrigated acreage, according to the USGS report, is 
increasing in the Eastern United States and declining in the West. 
Irrigated acres in the 19 Western states have declined due to urban 
development and the sale of irrigation water rights to municipal water 
suppliers.
    We further support the encouragement of local solutions to local 
water issues. Involvement at the local level by affected parties is 
critical to the development of any workable water plan. ``One-size-
fits-all'' solutions are not the answer.
    Voluntary, temporary, market based water banks hold some promise to 
create solutions to temporary water shortages in particular areas. Such 
programs must be voluntary, not result in the permanent loss of water 
rights, and be market based.
    A puzzling and glaring omission from the suggestions made in Water 
2025 is the issue of additional water storage. Farm Bureau strongly 
believes that increased water storage is essential in order to solve 
many of the water issues in the West. Demand for water continues to 
increase and the rising demand cannot be met without additional 
supplies.
    States such as Colorado and Montana are headwater states, meaning 
that their water generally runs through rivers and streams to other 
states. Colorado, for example, is entitled to the use of more water 
than it is currently able to capture. Additional storage is vital for 
Colorado to meet the rising demand from Denver and its environments.
    Additional water storage will not only allow for states to meet the 
needs of their residents, but it will provide a measure of certainty in 
times of drought. New storage facilities will bring water supplies to 
areas that need it most. Additional storage can occur in non-intrusive 
ways and could mean new dams and reservoirs, adding a foot to existing 
reservoirs in order to increase capacity or underground water storage. 
We urge the committee to consider additional storage as a possible 
solution to the water crisis in the arid west.
    Another issue that in theory sounds good, but has some practicality 
concerns is making canals and delivery systems more efficient. For 
example, lining canals would result in less water being lost allowing 
for more water to be available for other uses. The practical 
application is not that easy. Water return flows resulting from such 
leakage is very important for agriculture. Additional water rights are 
derived from return flows, and many farms, ranches and other 
enterprises depend on such return flows. Making canals impervious to 
water loss will decrease these return flows, causing economic harm to a 
lot of farmers, ranchers and others.
    Many rivers and streams across the West are lined with salt cedar 
or other water draining vegetation. One salt cedar, for example, can 
consume upwards of 200 gallons per day. These plants spread rapidly, 
drying up rivers and streams. We are pleased that the DOI and 
Department of Agriculture have embarked on an aggressive campaign to 
remove salt cedar from western waterways. A successful control program 
will not only make more water available, but will also address an 
invasive species problem.

                     2. MISSOURI RIVER WATER FLOWS

    Agriculture needs the continuing operation of the Missouri River 
for the purposes of flood control, navigation, irrigation and 
hydropower production. Management of the Missouri river must recognize 
and support these objectives. Agriculture is a major land use activity 
in the Missouri River basin. Farm Bureau policy encourages the U.S. 
Army Corps of Engineers (Corps) to protect agricultural land use by 
providing flood control for the 1.4 million acres of productive 
farmland at risk from Missouri River flooding. We are opposed to a 
spring rise on the Missouri River and believe that the Corps can 
achieve species protection without putting farmland and other property 
at risk. Flows must also be managed so that land drainage patterns are 
not disrupted in order for spring planting to occur on time while soil 
moisture and temperature can be managed for effective crop production. 
The Corps must also continue the hydropower generation necessary for 
rural towns and businesses and maintain navigation on the river for the 
commercial shipping of farm inputs and production outputs.
    The contributions of the Missouri River to the Mississippi River 
are critical for maintaining the flows necessary for continuous 
navigation for commercial shipping. Over 60 percent of U.S. grain 
exports use the Mississippi River to efficiently reach foreign markets 
in a cost competitive manner. Flows must be maintained throughout the 
navigation season to ensure that barge traffic is not halted due to low 
water conditions.
    We believe that the Corps should maintain the current Master Water 
Control Manual and not deviate from those standards and policies.
    Western water issues are challenging and complex. However, they are 
also critical to farmers and ranchers and the rural economies that 
depend on their success. Solutions to these issues are not easy. Any 
solutions must include and preserve a strong and vital agricultural 
base.
    We appreciate the Committee's concerns and interest in these 
issues, and we look forward to working with the Committee on solutions 
that will benefit everyone.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

              United States Department of Commerce,
           National Oceanic and Atmospheric Administration,
                                    Washington, DC, March 31, 2004.

Hon. Pete Domenici
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are the National Oceanic and 
Atmospheric Administration's (NOAA) responses to questions for the 
record relating to the Committee's March 9, 2004 hearing regarding 
water issues in the arid West.
    Please feel free to contact me should you require additional 
information.
            Sincerely,
                                             Debbie Larson,
                                                          Director.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Does NOAA engage in longer-term climatic predictions 
for periods of years or decades?
    Answer. Currently, NOAA does not issue operational seasonal climate 
forecasts beyond 13 months, nor drought outlooks beyond a season. 
However, NOAA does have an active program in climate research and 
modeling at its Geophysical Fluid Dynamics Laboratory and its Climate 
Diagnostics Center that is directed at extending prediction 
capabilities decades in advance, as well as improving those 
capabilities. As scientific advances are confirmed, these improved 
capabilities in annual to decadal-forecasts will be transferred to the 
National Weather Service's National Centers for Environmental 
Prediction for improved operational forecasts of climate variability.
    Question 2. What is NOAA's impression of the tree-ring and other 
long-term climatic record data in terms of helping us understand and 
predict long-term droughts?
    Answer. Tree ring and other long-term climate records provide an 
understanding of climate fluctuations over the past several thousand 
years, including some insight into the magnitude, duration, and 
location of droughts. These records suggest that ``mega'' droughts are 
a natural fluctuation of climate. The challenge is to understand and be 
able to model the origins of these droughts in order to assess the 
likelihood of future occurrences.
    Question 3. What do we need to do to expand the time horizon of our 
weather and climate prediction capability?
    Answer. To expand the time horizon of weather and climate 
prediction requires: 1) a global observation network which includes 
observations for ocean, land, atmosphere, snow, and ice, 2) additional 
supercomputing capabilities which would allow the research and 
operational meteorological communities to assimilate the global data 
into numerical models and to simulate the interaction of ocean, 
atmosphere and land processes in order to predict climate variability, 
and 3) research that leads to a better understanding of climate 
variability--past, present, and future.

                    Questions From Senator Bingaman

    Question 1. Climate Change--The GAO notes in a July 2003 report 
that the potential effects of climate change ``create uncertainty about 
future water availability and use.'' Last month the Pacific Northwest 
National Laboratory issued a report based on a new climate change model 
that predicted a change in precipitation patterns that would play havoc 
with the West's agriculture, fisheries and hydropower industry.
    Answer. The report by the Pacific Northwest National Laboratory is 
consistent with previous research in indicating the strong likelihood 
of a warmer climate, which in turn will lead to more rain (instead of 
snow) in the west. The net result is less total snow pack and, 
consequently, earlier spring runoffs. However, caution should be used 
when interpreting these model results, given the uncertainty inherent 
within long-term model simulations, especially in the prediction of 
precipitation patterns.
    Question 2. Has your organization done any in-depth modeling of the 
effects of climate change on precipitation patterns? If not, what has 
been the focus of your research related to climate prediction models?` 
Does the President's Climate Change Research Initiative provide for any 
in-depth research and modeling of the impacts of climate change on 
precipitation patterns in the United States? If not, why not?
    Answer. Yes, NOAH continues to conduct in-depth research and 
related modeling of the effects of climate change on precipitation 
patterns. NOAA's Geophysical Fluid Dynamics Laboratory (GFDL) and 
Climate Diagnostic Center (CDC) have worked together and with other 
external researchers to assess the impacts of climate change on 
precipitation. NOAA also has pioneered seasonal climate forecasting and 
continues to be an international leader in this area with a strong 
focus on water cycle/drought monitoring and forecasting. The research 
results to date generally point to a greater uncertainty in the 
precipitation patterns related to climate change than we see in the 
temperature patterns. The Administration's Climate Change Research 
Initiative (CCRI) has a specific focus for reducing the uncertainty in 
projections of future climate and the relationship to precipitation 
patterns over the United States. The main modeling efforts in the 
United States that support the CCRI are at NOAA's GFDL and the National 
Center for Atmospheric Research (NCAR), whose primary sponsor is the 
National Science Foundation.

                      Question From Senator Dorgan

    Question 1. What do you see as the outlook for drought in the Upper 
Great Plains?
    Answer. The seasonal outlook through June calls for improvement in 
the Upper Great Plains, including Minnesota, North Dakota, and eastern 
parts of South Dakota, Nebraska, and Montana. Some improvement (with 
drought ongoing) is called for in western portions of Nebraska and 
central and southwestern South Dakota. Because there are no strong 
forecast signals that point to either a wet or dry upcoming season, our 
predictions are largely based on average precipitation levels and 
average temperatures. Our prediction of limited improvement in these 
western areas is based on this area's experiencing greater 
precipitation deficits in the past than the eastern portions. These 
precipitation deficits in western areas will be hard to overcome as 
most of the precipitation that may fall will be absorbed by the parched 
soil. As examples of the magnitude of the precipitation deficits from 
past years, deficits since March 2001 exceed 12 inches in central South 
Dakota and parts of Nebraska.
                                 ______
                                 
                            Department of the Army,
                              U.S. Army Corps of Engineers,
                                     Washington, DC, April 6, 2004.
Hon. Pete V. Domenici,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.

    Dear Chairman Domenici: Thank you for inviting the U.S. Army Corps 
of Engineers (Corps) to provide testimony on water issues in the arid 
West. In your letter of March 16, 2004, you asked that we respond to 
three questions submitted for the record. The questions address three 
issues: first, the Corps' capability and authority related to rural 
water supply; second, how the Corps is addressing specific community 
needs in the Missouri River Basin, and, finally, the Corps' authority 
to provide emergency response to drought. Our response to each question 
follows.
    Question 1. Does the Army Corps feel that they have capability, 
competence, and/or authority to contribute to solving rural community 
water supply issues, in the west and if so how? Does the Corps role for 
rural communities change for eastern communities?
    Answer. The Corps has the technical capability and competence to 
contribute to solving rural community water supply issues. However, 
this is not considered part of our core mission, and the degree of our 
participation is somewhat limited by current legislative policies and 
authorities. The legal authorities and programs through which the Corps 
is able to help address water supply issues vary by location and all 
require that certain conditions of non-Federal participation are met. 
This limits the Corps' ability to respond in a consistent manner to 
regional or national water supply issues. Our ability to respond to a 
community's needs, to some extent, depends on the location of the 
community. In terms of large-scale programmatic efforts, the Corps does 
not have a current role.
    We have worked with our many military customers to design and 
construct water supply, delivery, and sewerage facilities at military 
bases throughout the West. In the civil works arena, we have both 
planning and design capabilities at a number of our district offices, 
skills that can be leveraged to serve any location in the nation 
because of our regional business center concepts. In managing our 
reservoirs to supplement water supplies, we are in partnership with 
many agencies and non-governmental organizations, sharing technology 
advances in modeling and maximizing use of our scarce natural 
resources, including water supply and water quality, which go hand in 
hand.
    There are several existing authorities and programs through which 
the Corps is able to help address water supply issues. Each has 
specific conditions, application, and limitations. They are: 1) Civil 
Works program (multi-purpose vs. single purpose projects); 2) Water-
Related Environmental Infrastructure Authorities (site specific); 3) 
Reservoir reallocations (or deviations from water control plans); 4) 
Planning Assistance to the States; and 5) Emergencies. Items 1 through 
4 are explained in the following paragraphs. The final item, 
Emergencies, is explained in response to Question 3.
    Civil Works Program. Under current guidance, Section 301 of the 
Water Supply Act of 1958, 43 U.S.C. Sec. 390b, the Corps may only 
include water storage for present or future municipal or industrial 
water supply as an added feature to a project that has other outputs, 
such as a flood control project. Water quality and water supply 
projects are not currently considered primary project outputs. When 
water supply outputs are included in projects, the additional water 
storage cost is borne by the beneficiary. The Corps currently does not 
have general authority to carry out a single-purpose water quality and 
water supply project; nor does the Corps currently have a general 
authority vested in the Secretary to carry out wastewater 
infrastructure projects, wastewater reclamation projects, or water 
supply infrastructure projects, even if the Secretary determines that 
such a project is in the public interest; produces general water 
quality, environmental, and public health and safety benefits; and is 
cost effective.
    Water-Related Environmental Infrastructure Authorities. The Corps' 
standing authorities to contribute to solving water supply issues are 
limited to certain specified localities, States, or regions. For 
example, the Corps may provide design and construction assistance for 
environmental infrastructure including wastewater treatment facilities, 
and water supply, storage, treatment and distribution facilities, to 
designated localities with funds that are appropriated in accordance 
with Section 219 of the Water Resources Development Act (WRDA) of 1992, 
Public Law 102-580, as amended. The 1999 WRDA, Public Law 106-53, as 
amended, contains similar regional authorities such as Section 593, 
which is applicable to projects in central New Mexico and Section 595, 
which is applicable to projects in rural Nevada, Montana, Idaho, rural 
Utah, and New Mexico. Existing authorities vary from State to State, in 
their scope, and to some extent, in the credit granted. The existing 
authorities are being expanded by Congress to include new geographic 
areas, as evidenced by the recent expansion of Section 219 authority in 
Northern California and Section 595 authority to include rural Utah and 
New Mexico and proposed similar legislation for southern Colorado and 
west Texas. We are utilizing these authorities in the West to construct 
water related facilities as appropriated funds become available.
    Reservoir reallocations. In the West, one common method to help 
regions deal with water shortages is to supplement the recharge of the 
groundwater basins through use of existing reservoir projects, either 
through the water control plan, through implementation of the drought 
contingency plan, or through temporary deviation from the approved 
water control plan on a short-term basis. Example benefits are 
reflected in annual recharge of over $15 million dollars worth of 
surface water to the aquifers of southern California. However, as such 
activities are only undertaken to the extent permitted by our current 
statutory authorities, the Corps' ability to fully implement this 
concept is limited;
    Planning Assistance to the States. One of the Corps' programs that 
many smaller communities take advantage of to help solve water supply 
issues is the program known as Planning Assistance to the States. In 
this program, the Corps can study a wide range of water resource issues 
under the general recommendations of the State water resources 
department. These cost-shared studies constitute technical assistance 
and do not result in construction, but provide an excellent start to 
helping local communities analyze their specific resource challenges, 
including that of water supply. Over the past few years, funding for 
this program has been exceeded by demand.
    Question 2. I am extremely frustrated by the Federal Government's 
actions, or lack thereof, relating to the Missouri River. The people of 
the Missouri River Basin have been waiting since 1989 for a resolution 
regarding the Master Manual. But now the latest action from the Corps 
has yet to offer a permanent solution for communities facing water 
shortage. What are you going to do to address the needs of communities 
like Fort Yates and Parshall?
    Answer. On March 19, 2004, the Corps of Engineers released its 
Record of Decision on the Final Environmental Impact Statement on the 
operation of the Missouri River dams and reservoirs, the new Master 
Water Control Manual and the final 2004 Annual Operating Plan. While 
these documents do not specifically address solutions for communities 
facing water shortages, we are continuing to closely monitor the 
Parshall, North Dakota situation and will help develop the necessary 
plans to deal with the temporary water intake based upon the projected 
lake levels. The Corps is working closely with the Bureau of 
Reclamation, which is the lead agency for resolution of the Fort Yates, 
North Dakota intake issue.
    Question 3. Over the past few months, we have had in North Dakota 
what I will call a water supply crisis. The drought has been so 
devastating that water actually had to be cut off to one of our 
communities. Other communities have been threatened with the same 
outcome. What authorities does the Corps of Engineers have to provide 
emergency response to drought? Do these authorities need to be 
expanded?
    Answer. The Corps may provide temporary emergency water assistance 
for human consumption or usage to a drought distressed area to meet 
minimum public health and welfare requirements under the authority of 
Public Law 84-99, as amended, 33 U.S.C. Sec. 701 n. This authority is 
temporary in nature, and assistance is supplemental to State and local 
efforts. Currently, it does not appear necessary to expand this 
emergency authority.
    In conclusion, the Corps knows that water is our most precious 
natural resource. We recognize the growing rural water supply 
challenges but have very limited authority to address these challenges. 
The Corps is available to contribute to solutions consistent with these 
authorities and administration policy.

                                Thomas F. Caver, Jr., P.E.,
                                    Deputy Director of Civil Works.


</pre></body></html>
